<html>
<title> - AMERICANS OUTDOORS ACT</title>
<body><pre>[Senate Hearing 108-712]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-712

                         AMERICANS OUTDOORS ACT

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2590

TO PROVIDE A CONSERVATION ROYALTY FROM OUTER CONTINENTAL SHELF REVENUES 
TO ESTABLISH THE COASTAL IMPACT ASSISTANCE PROGRAM, PROVIDE ASSISTANCE 
 TO STATES UNDER THE LAND AND WATER CONSERVATION FUND ACT OF 1965, TO 
   ENSURE ADEQUATE FUNDING FOR CONSERVING AND RESTORING WILDLIFE, TO 
    ASSIST LOCAL GOVERNMENTS IN IMPROVING LOCAL PARK AND RECREATION 
                    SYSTEMS, AND FOR OTHER PURPOSES

                               __________

                             JULY 20, 2004


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
97-188                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                        Kellie Donnelly, Counsel
                David Brooks, Democratic Senior Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Alexander, Hon. Lamar, U.S. Senator from Tennessee...............     2
Angelle, Scott A., Secretary, Louisiana Department of Natural 
  Resources, Baton Rouge, LA.....................................    29
Baughman, John, Executive Vice President, International 
  Association of Fish and Wildlife Agencies......................    41
Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     2
Burns, Hon. Conrad, U.S. Senator from Montana....................     7
Clifton, Daniel M., Federal Affairs Manager, Americans for Tax 
  Reform, Washington, DC.........................................    57
Diamond, Henry L., Chair, Americans for Our Heritage and 
  Recreation.....................................................    45
Domenici, Hon. Pete V., U.S. Senator from New Mexico.............     1
Johnson, Hon. Tim, U.S. Senator from South Dakota................    10
Jordan, Charles, Chairman, the Conservative Fund, Portland, OR...    35
Landrieu, Hon. Mary L., U.S. Senator from Louisiana..............     5
Marzulla, Nancie G., President, Defenders of Property Rights.....    50
Murkowski, Hon. Lisa, U.S. Senator from Alaska...................    12
Nickles, Hon. Don, U.S. Senator from Oklahoma....................     8
Scarlett, P. Lynn, Assistant Secretary for Policy, Management and 
  Budget, Department of the Interior.............................    13
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     7

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    71

                              Appendix II

Additional material submitted for the record.....................    89

 
                         AMERICANS OUTDOORS ACT

                              ----------                              


                         TUESDAY, JULY 20, 2004

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Pete V. 
Domenici, chairman, presiding.

          OPENING STATEMENT OF HON. PETE V. DOMENICI, 
                  U.S. SENATOR FROM NEW MEXICO

    The Chairman. Good morning. This hearing of the Energy and 
Natural Resources Committee on S. 2590, the Americans Outdoors 
Act, will come to order.
    This legislation that is before us today dedicates for 
fiscal years 2005 through 2010 approximately $1.425 billion per 
year of the revenue gained from oil and gas development from 
Federal waters of the Outer Continental Shelf in order to 
directly fund the coastal impact assistance programs, the State 
Land and Water Conservation Fund, and the programs under the 
Pittman-Robertson Wildlife Restoration Act and the Urban Park 
and Recreation Recovery Act. Although the Federal Land and 
Water Conservation program is not addressed in S. 2590, as 
introduced, the bill's sponsors have stated their intent to 
offer an amendment to fully fund the program, as well as an 
additional $450 million.
    This committee considered legislation similar to this in 
the 106th Congress. There was a wide variety of views on both 
the policy and the budget implications. The makeup of our 
committee, as well as the provisions of the bill that we 
examine today, is different than in the 106th.
    So I look forward to today's discussion.
    Testifying today--I am just going to state them and then 
yield to Senators--first is Lynn Scarlett, Assistant Secretary 
for Policy, Management and Budget; Scott A. Angelle, secretary 
of the Louisiana Department of Natural Resources; Charles 
Jordan, chairman of the Conservation Fund; John Baughman, 
executive vice president of the International Association of 
Fish and Wildlife Agencies; Henry Diamond, chairman of the 
Americans for Our Heritage and Recreation; Nancie Marzulla, 
president of Defenders of Property; and Daniel Clifton, Federal 
affairs manager for Americans for Tax Reform.
    Once again, I welcome all the witnesses here today and I am 
very thankful that a number of Senators have arrived. This is a 
very important bill.
    With that, I will yield to Senator Bingaman.

         STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Bingaman. Thank you, Mr. Chairman, for having the 
hearing.
    This bill, S. 2590, would take a portion of the oil and gas 
revenues generated from the Outer Continental Shelf and 
dedicate those to various conservation programs.
    This is not a new issue for the committee. As you 
indicated, 5 years ago we had several hearings on what was then 
entitled the CARA act, or the Conservation and Reinvestment 
Act, and created quite a legislative record in connection with 
consideration of that.
    A central position, which I urged at that time and think is 
still valid, is that we need to remain true to the intent 
behind the establishment of the Land and Water Conservation 
Fund. The idea behind that was that at least some portion of 
the revenues from the Outer Continental Shelf oil and gas 
production, which was a non-renewable resource, should be used 
to protect other resources throughout the country. I thought 
that was a very useful concept and one that was worthy of 
maintaining.
    I commend Senator Alexander and Senator Landrieu for 
continuing to pursue this issue with this new legislation.
    I do strongly believe that we should include full funding 
for both the Federal and State components of the Land and Water 
Conservation Fund. If we enact legislation along these lines, 
as I understand it, the bill as introduced only funds the State 
portion of the fund. I am pleased that Senator Alexander and 
Senator Landrieu have both committed to addressing this at some 
point in the future.
    I do think it is very important legislation, and again, 
thanks for having the hearing.
    The Chairman. Thank you very much, Senator Bingaman.
    Now I ask your advice. A number of Senators want to make 
statements. Normally we stop after the chairman and ranking 
member and wait until we start questioning, but I think I will 
change that back to the old way and let every Senator make a 
statement now. So with that, let us go now to Senator 
Alexander.

        STATEMENT OF HON. LAMAR ALEXANDER, U.S. SENATOR 
                         FROM TENNESSEE

    Senator Alexander. Thank you, Mr. Chairman. I appreciate 
the courtesy of that.
    Recognizing that there are several Senators here, I will 
try to be succinct in my remarks, but what I would like to do 
is to have a chance to make my point because I believe that 
what Senator Landrieu and I are suggesting here is a little 
different than some of what the committee has heard before, and 
I want to make sure that that distinction is made. We will have 
other opportunities to make those points before the witnesses, 
so I will make them very quickly.
    As the chairman said, the Americans Outdoors Act would 
provide a reliable stream of funding by creating a conservation 
royalty from drilling of oil and gas on offshore Federal lands.
    Now, Sharon, would you please put up the States and what 
they now get from onshore?
    [Chart.]
    Senator Alexander. It is the idea of the conservation 
royalty that I hope the Senators will focus on. There are 
really two issues that created difficulty with the prior 
legislation. One was the budget issue, and we have the chairman 
of the Budget Committee here, and the other was private 
property rights. Senator Landrieu and I have tried very 
carefully to listen to our colleagues on those two issues and 
see if we could at least go a long way toward meeting those 
problems.
    Now, first on the budget. What we propose doing offshore is 
what we are already doing onshore. Today under the Federal 
Lands Leasing Act, which was passed in 1920, we take 50 percent 
of the money that we get from onshore oil and gas drilling and 
that does not go to the Federal Treasury for appropriation. 
That is a royalty. You pay a royalty to the landowner when you 
drill. You pay a royalty to other people with ownership rights. 
In this case, a royalty is paid to Wyoming, to New Mexico, to 
Colorado, to Utah, to Montana, to Oklahoma, and that money does 
not come up here. That money stays there, and that is why it is 
outside the appropriations process.
    We also do that, if I am not mistaken, with moneys from 
Dingell-Johnson and Pittman-Robertson, two provisions that take 
money we raise basically from sportsmen and gas taxes and we 
allocate them directly to help create other opportunities for 
sportsmen. Those are also outside the budget process.
    Now, I am well aware that since those laws have passed, we 
now have a budget law. While I have tried to think of ways to 
avoid it, I have not been able to think of one.
    [Laughter.]
    Senator Alexander. So the budget law will need to be taken 
into account if we take 25 percent approximately, as we 
propose, of the money from offshore oil and gas drilling and 
treat it as a State royalty in the same way we now treat 50 
percent that we take from onshore drilling. I am aware of that 
issue, but I think philosophically it is the very same thing 
and it is appropriate to treat it differently as a State 
royalty. That is the first issue.
    And the second issue is the concern for private property 
rights. Sharon, if you could please put up the map of the 
country that shows where Federal land is.
    [Chart.]
    Senator Alexander. We will hear testimony today about 
whether the Government should own any more land. That is a map 
that shows where the Federal Government owns lands today. As an 
easterner, I am over there in the white area where most of the 
people live. I am very much aware that out West, except for 
California where most of the people do not live, the Government 
owns an incredible amount of land. I have always been aware 
that a single policy that might apply to the West might not 
necessarily apply to the East.
    The fact is that in the Eastern part of the United States, 
there are plenty of places where we still think we need some 
help. Yesterday I helped release some eaglets down near 
Dandridge and Douglas Lake in east Tennessee. Our proposal 
would provide a steady stream of royalty funding to create more 
wildlife conservation places for eagles to go.
    As I have looked through the earmarked appropriations over 
the last few years, I have found there have been, even in the 
West, a number of desirable places where State governments and 
Federal land under the Land and Water Conservation Fund have 
used money in the Snake River and a whole variety of western 
States, which are already heavily owned by the Federal 
Government. There are still some appropriate places where 
things need to be done.
    Two weeks ago, I took a bicycle ride on the Hiawatha Trail 
between Montana and Idaho, which most of the Senators on this 
committee take credit for creating. It is a rails and trails. 
It is a beautiful thing. It takes it from private property, 
railroad, to public land, using dedicated funds. It is the old 
track from Chicago to Tacoma, Washington with high trestles and 
long tunnels.
    So those are the two issues. What Senator Landrieu and I 
are proposing is that we take about 25 percent of the revenues 
that we get from offshore drilling and devote it to a 
conservation royalty to fully fund the State side of the Land 
and Water Conservation Fund. The game and fish commissions of 
our country fully fund that, fully fund the city parks 
provision that is already in the Federal law, and create a new 
section that takes care of wetlands and other coastal 
mitigation issues.
    We have deliberately left out of our legislation the 
provision for the Federal side of the Land and Water 
Conservation Fund because we have not been able to reach a 
consensus among members of the committee and other Senators on 
how to deal with that, and we are hopeful that today what we 
hear is some good suggestions about how to fashion that in a 
way that will not just get it out of committee but will past 
the U.S. Senate.
    The Chairman. How much money is that?
    Senator Alexander. The Federal side is $450 million a year. 
That is what is authorized in law today. So if you added the 
$450 million a year, Senator Domenici, to the proposals we 
have, it would be $1.45 billion plus $450 million, $1.9 billion 
a year.
    Now, to conclude, if I could show the chart of how much 
money now is available from offshore oil drilling, about the 
amount I believe that we get from Saudi Arabia every year, it 
is about $6 billion this year.
    [Chart.]
    Senator Alexander. The Department of the Interior's 
estimates are it will be about that for the foreseeable future. 
If you take the amount of money that is now appropriated for 
these same kinds of programs for the Land and Water 
Conservation Fund, it is $4 million to $5 million a year. If 
you added what we are doing, that would take it up to $1.45 
billion or $1.9 billion. So that is between 25 and 33 percent 
of the anticipated offshore revenues would go into this 
royalty.
    Mr. Chairman, you have been generous with your time. I 
believe I have made my major points. I would simply say I 
believe there is a huge conservation majority in this country. 
I believe that there are legitimate budget issues and there are 
legitimate issues in western States where the Federal 
Government owns a lot of land. What we hope to do is fashion 
legislation that will look ahead for a generation and help us 
find a steady stream of money to fund our game and fish 
commissions, our city parks, and the State, and once we get 
more of a consensus, the Federal side of the Land and Water 
Conservation Fund, as well as provide some funding for 
mitigation in those States that now produce the oil and gas 
offshore.
    Those are the organizations to date that support what we 
are doing, and I hope we can reach a consensus on the 
committee.
    Thank you very much for scheduling the hearing and thank 
you for being generous with the amount of time you have given 
me.
    The Chairman. Thank you very much, Senator. My generosity 
on time stopped when you stopped. We will have 5 minutes per 
Senator from now on.
    Senator Landrieu.
    [Laughter.]

       STATEMENT OF HON. MARY L. LANDRIEU, U.S. SENATOR 
                         FROM LOUISIANA

    Senator Landrieu. Well, I am just happy he made all the 
right points. So I will just try to fill in.
    First of all, Mr. Chairman, thank you for agreeing to hold 
this hearing and for your support of this general concept and 
your willingness to help us work through some of the challenges 
that still remain. I thank the Senator from Tennessee for his 
great leadership and partnership.
    I want to, before I begin, thank the folks from Louisiana 
that are here. Not only do we have our Secretary of Natural 
Resources that will testify in a minute, Mr. Scott Angelle, who 
has been a tremendous and effective advocate as he stepped into 
this position just a year ago with our new Governor's help and 
support, but also we have 2 of our 19 parish presidents, one 
from Lafourche Parish and one from Saint Bernard Parish. Both 
of these parishes have been directly and dramatically, 
drastically impacted by the loss of land, thousands and 
thousands of miles of wetlands, which both Senator Bingaman and 
Senator Domenici have actually seen as they have flown over 
those parishes. So we thank them.
    As Senator Alexander said, colleagues, there are really two 
charts that tell the whole story, and I would particularly like 
the Senator from Oklahoma to look at this chart of the status 
of OCS leasing.
    [Chart.]
    Senator Landrieu. It is fairly dramatic. Not only are the 
numbers dramatic. It has been $140 billion since 1955, $140 
billion that the Outer Continental Shelf of this country has 
produced for the Federal Treasury. It has produced more money 
from this portion of Federal land than any portion of land in 
the entire United States of America by far. As Senator 
Alexander pointed out, it provides more energy and more 
resources to this Nation than any country in the world, 
including Saudi Arabia, in terms of energy production.
    The Senator from Oklahoma will notice the red dots. That is 
the only part of the country where offshore oil and gas 
drilling is currently allowed. So not only is it the only part, 
but it is the only part because all the other parts are 
prohibited and off limits. So this platform of Texas, 
Louisiana, Mississippi, and Alabama basically produce off of 
our shores, with Alaska coming on line just slightly but open 
as the technology improves, for us to provide this amount of 
money for the Federal Treasury. Yet, year after year, these 
States or these programs that we are talking about receive 
basically no royalty whatsoever.
    Last year, Conrad, the State of Louisiana off of our shore 
alone produced for the Federal Treasury close to $6 billion and 
got less than 1 percent of the money, after serving as a 
platform for this offshore oil and gas drilling.
    We think it is a simple but profound idea to take what is a 
depleting resource, which will be gone one day and reinvest it 
in coastal programs, in wildlife programs, and in State and 
Federal land if we can come to some meeting of the minds about 
the Federal land.
    So I think this chart shows it all. There is only one place 
in America that is drilling offshore. There is only one place 
that is contributing this amount of money, and it is time that 
some of those revenues be redirected, as they are into the 
interior States.
    The other chart I would like Sharon to put back up, if she 
would, which is the chart that Senator Alexander showed, 
because I want to make one point before closing, Mr. Chairman--
and you have been generous--about the private property issue. 
And it is this chart.
    [Chart.]
    Senator Landrieu. Clearly, in the West, there are acres and 
acres, thousands of acres that are owned and under the control 
of the Federal Government and State governments, but clearly, 
Senators, in the East there are still some great needs, through 
the Great Smoky Mountains, through Illinois, through New York. 
In our State, only 2.5 percent of the land is under Federal 
ownership. Clearly there is a need. And I could provide other 
evidence to suggest, not the least of which is the list of the 
billions of dollars of land that comes to us requesting from 
willing sellers and from Governors and from mayors all over the 
Eastern part of this country asking, please, help us with 
getting Federal property.
    And the final point is this. This effort is not to take 
land out of private property and diminish it or not care for 
it. This is to balance the needs of private property owners 
which we believe built this country. No one is arguing that. We 
want to support that concept. But we want to provide a steady, 
reliable stream of revenue to all States, particularly those 
eastern States, which will create and enhance, not diminish 
economic prosperity for this Nation.
    So we think this is a balanced bill. We look forward to 
working with the colleagues of this committee who have shown 
themselves to be far-sighted Senators in many ways and look 
forward to working with you particularly, Mr. Chairman, as we 
fashion a bill that is good for everyone. Thank you.
    The Chairman. Thank you very much.
    I was wondering, Senator, since you mentioned all of the 
money we have that comes from that one little offshore drilling 
area, if we might not consider a trade. You get us another area 
for offshore drilling and we will give you that money for this.
    Senator Landrieu. Mr. Chairman, I am a good Senator, but I 
am not sure I am that good. So we will just stick with our bill 
and move forward. But I hear what you are saying.
    [Laughter.]
    The Chairman. Senator Burns.

         STATEMENT OF HON. CONRAD BURNS, U.S. SENATOR 
                          FROM MONTANA

    Senator Burns. Mr. Chairman, thank you very much. Thanks 
for the hearing.
    I want to just make a point. If you all do not have enough 
Federal lands back East, if you want to figure on a little 
trade, we might wrangle that for you because there is some land 
out there we would like to turn into private lands, and if you 
want it back there, we will just make you a little trade and 
solve that problem.
    Of course, I think the same arguments that were made for 
and opposed to CARA still apply in this piece of legislation. 
When we take a look, it does open a flood gate of $1.4 billion 
from the Secretary of the Treasury for programs, while ignoring 
the investment that is needed in other areas, other programs, 
and policy initiatives. So the notion that a select group of 
Interior bill programs should be allocated significantly 
increase fixed funding on multi-year bases assumes that these 
programs are currently effective without any oversight.
    I think that is where we have a real problem because 
basically what we are setting up here is another entitlement, 
an entitlement that is written into law that prevents any 
oversight if it is abused or not being used in the way that 
maybe the law should allow.
    We do have needs for that money. We need it in Indian 
health. We need it in Indian schools. All of these appropriated 
accounts out of appropriations that sometimes we have to be 
versatile enough to take some money away from some programs and 
put it into others to address a specific crisis or situation. 
This legislation does not allow us to do that with those funds 
that come into the Treasury and usually allocated under the 
appropriated method and budget.
    I congratulate Senators Alexander and Landrieu because this 
does need to be addressed, but are we doing it the right way. 
That is where we sort of run afoul. So I look forward working 
with both Senators to pass the legislation that we think is 
probably good policy and good for our country. Thank you.
    The Chairman. Thank you very much, Senator.
    I am going on the order of arrival. As I have it up here, 
Senator Thomas arrived next.

         STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR 
                          FROM WYOMING

    Senator Thomas. Thank you very much, Mr. Chairman.
    This, of course, uses the OCS revenues to fund programs in 
the Land and Water Conservation Act. I expect that you will 
have additional amendments which would fund the Federal Land 
and Water Conservation program, very much like the CARA 
decision we went through before.
    I am concerned about this idea of turning it into mandatory 
spending. I am concerned about the aspect of having additional 
lands. This is one that has an impact on property rights. Our 
State of Wyoming is half owned now by the Federal Government. I 
have had for a long time the notion that we ought not to have 
any additional. We ought not to have a net increase of Federal 
lands. If we are going to take some in, we ought to reduce it 
in some other places.
    I certainly think there are opportunities for inholdings of 
Federal lands. I just returned from spending some time at 
Glacier Park, and of course, I work on the parks all the time. 
It is, I think, pretty clear that we have a lot of backlogs to 
fund before we acquire more properties. So I think we have to 
take a long look at this bill and make sure that we are 
fiscally responsible, that we are responsible in terms of the 
total needs and what really ought to be done by the Federal 
Government, as opposed to some other governments. Everything 
you want to do is not the responsibility of the Federal 
Government, and we have expanded ourselves beyond where we want 
to go in a lot ways, and I think we need to be careful that we 
do not do it in this one as well.
    So I hope we focus on the fiscal responsibility, as well as 
the total land responsibility of private land, and I think we 
have to do a lot of work on this before it is acceptable to 
most of us.
    The Chairman. Thank you very much.
    My recording here has Senator Nickles, Senator Johnson, and 
then Senator Murkowski.
    Senator Nickles.

          STATEMENT OF HON. DON NICKLES, U.S. SENATOR 
                         FROM OKLAHOMA

    Senator Nickles. Mr. Chairman, thank you very much. I am 
pleased to join this hearing today, and I want to compliment 
Senators Alexander and Landrieu for their persistence, also 
compliment them on changing the title of the bill. I happen to 
like the Americans Outdoors Act a lot better than CARA. I 
opposed CARA. Maybe I should support this because it has a 
great title, but I will not.
    [Laughter.]
    Senator Nickles. I saw the list of people who are 
sponsoring this, and I can see a lot of people saying, hey, we 
can get a chunk of this money. We want this because this is 
going to help us build parks or do projects that, frankly, they 
are not getting money for now. So sign me up. And I can see 
lots of organizations joining, just as they supported CARA.
    But I think it is fatally flawed legislation. I think it 
would be a mistake for Congress to pass it for a couple of 
reasons.
    I asked former Chairman Byrd on the appropriations process, 
what percentage of the budget today is discretionary, i.e., 
controlled by the appropriators that we actually really do 
control, and what part of it is mandatory. Since 1990 
entitlement spending has increased from 45 percent to 54 
percent. Entitlement spending has really been on an increase. I 
used to be chairman--and I think Senator Burns is chairman. Are 
you still chairman of Interior Appropriations now?
    Senator Burns. Yes.
    Senator Nickles. Interior Appropriations is a great 
committee. It has charge of most of those lands that are 
Federal lands. Frankly, we do not do a very good job. We do not 
do a good enough job in controlling our parks. This is saying 
that these projects that are funded here have a higher priority 
than Yellowstone or any of our national parks, some of which 
are not maintained as well as they should be maintained. But we 
are going to say that these items should have entitlement 
status.
    Just to give you an example, the Urban Park Recreation 
Program would be declared mandatory funding. It would receive 
$125 million a year. That is more than it has received since 
1985, but we are going to give them that much money every year 
and we are going to place that as a higher priority than taking 
care of our existing parks or existing wildlife refuges? We 
have one wildlife refuge in Oklahoma. We say it has more 
visitors than any other wildlife refuge in the country. But we 
are going to say, no, no, we are going to have new parks or new 
addition that have a higher priority than taking care of 
adequate maintenance and so on for existing facilities.
    The State Land and Water Conservation Fund would receive a 
guaranteed $450 million a year, which is $350 million more than 
it received in 2004. I hate to tell anybody this, but we have 
about a $400 billion deficit. So if you take a program that 
received, what, $100 million or something last year and now we 
are going to make it $450 million and we are making it an 
entitlement, that is not very good. That is just not very 
responsible.
    Somebody might say, well, wait a minute, we want to fully 
fund it because it is authorized. I will tell you if you fully 
funded everything that is authorized in the Federal Government, 
you would have a deficit that would be many multiples of what 
it is today. Thank goodness we do not fully fund everything 
that is authorized. We could not come close to affording it, 
whether you are talking about education, whether you are 
talking about other programs. It will not add up.
    And then there is the idea of, well, okay, we also want to 
do the Federal portion of the Land and Water Conservation Fund, 
so there will be additional land acquisition when we are not, 
frankly, maintaining the existing lands that we have control 
over today in a way that we should be proud of.
    So I just mention these concerns. I do not know how you can 
take some of these programs and turn them into an entitlement, 
make them a higher priority than existing programs. Those 
existing programs may be Park Service, they may be Fish and 
Wildlife Service, you name it. Those are all funded through the 
appropriations process, and I do not know that we should be 
saying these individual programs should be funded from an 
entitlement status, a higher status, you might say, than 
others, plus the fact they would add about $2 billion a year to 
the national deficit. So I have serious reservations about 
this.
    I appreciate the concerns that were addressed. Senator 
Landrieu I think has some points, although I want to be 
educated or make sure I am correct, but I think coastal States 
have 100 percent of the royalty within 3 miles.
    Senator Landrieu. Yes, that is correct.
    Senator Nickles. I believe that is correct, and I believe 
they have 27 percent of the royalties the next 3 miles. Correct 
me if I am wrong, our experts in Interior. It is legitimate. 
Should that be extended? I think that is a legitimate debate. 
Should the States that are bearing the ``environmental risk'' 
have a larger boundary for that 3 miles? I think that is a 
legitimate debate and maybe we should consider that. But I am 
concerned about taking this ``pool'' of money for a few 
projects that are listed and turning those into an entitlement 
status.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator.
    Senator Johnson.

          STATEMENT OF HON. TIM JOHNSON, U.S. SENATOR 
                       FROM SOUTH DAKOTA

    Senator Johnson. Thank you, Mr. Chairman, for holding this 
hearing. I will submit a full statement, and I will be brief 
with a few observations here.
    I have to say that as a member of both the Budget Committee 
and the Appropriations Committee, and as a Western State 
Senator, I am very supportive of the extraordinary work that 
Senator Landrieu and Senator Alexander have done and the 
leadership that they have provided. I am grateful for what they 
have been doing to put this legislation together.
    I also have to smile a bit at some people who are always 
willing to extend massive tax cuts for America's wealthiest 
families, but when it comes time to provide resources for 
ordinary middle class to hunt, to fish, to enjoy the outdoors, 
then they become great fiscal conservatives. This is a 
legitimate philosophical debate about the role of government 
and what our priorities are. I understand that, but I do not 
think there is one side of this issue that is on the side of 
the fiscal prudence and one side that is not. It is a question 
of priority about where those next dollars should go.
    In South Dakota, a Western State, we have an enormous 
demand for public and open areas for recreation that is 
outstripping the available capacity.
    The Federal Government's efforts to enhance and protect 
wildlife habitat rests I believe on a three-legged stool. One 
is management and restoration of habitat for game species 
through the longstanding Pittman-Robertson Act. Second is 
dedicated Federal funding for sports fish restoration through 
the Sports Fish Restoration Act. And what is missing is the 
third leg of the stool, a dedicated funding source for State-
based efforts to enhance non-game species.
    Title IV of the Americans Outdoors Act establishes a 
dedicated funding source that States and tribes can leverage 
for the conservation and enhancement of both game and non-game 
species that are threatened with Federal protection. A 
permanent, stable funding source is extremely important to the 
efforts of States to better manage valuable resources to avoid 
the need for costly and burdensome Federal remedies. 
Cooperative and voluntary conservation agreements require long-
term funding commitments, and title IV ensures that State and 
local partners will finally have all the tools necessary to 
enhance the sustainability of many of our most threatened 
species.
    I also believe that the rationale for preventing species 
from becoming endangered is practical, economical, and rooted 
in the common sense belief that an ounce of prevention is worth 
a pound of cure. The wildlife conservation provisions in this 
bill provide funds for a diverse array of fish and wildlife 
species with an emphasis on preventing species from becoming 
listed through the Endangered Species Act. Ensuring that fish 
and wildlife do not become endangered will go a long way to 
helping private property owners who otherwise will face severe 
limitations on the management of their own lands due to 
endangered species.
    We in South Dakota right now are struggling with a 
management plan for the black-tailed prairie dog with a goal of 
creating the State solution instead of relying on the far more 
restrictive Federal remedies that would otherwise occur if in 
fact this species were listed as endangered. So a program like 
this is going to give State and local governments a greater 
level of resources which will permit them to keep species that 
are on the cusp of becoming endangered off the list and thereby 
not only preserving that species but also making certain that 
private landowners are not faced with severe Federal rules 
because of whether it be the black-tailed prairie dog or other 
species that otherwise may well become endangered.
    Senator Nickles. The black-tailed prairie dog?
    Senator Johnson. We have millions of them. A lot of South 
Dakotans would raise an eyebrow at the thought that these 
critters are endangered, but the fact is that they are on the 
list of next to be listed if we do not do something. And our 
State is in the process in a multi-State plan right now to 
create sufficient habitat that we can assure our friends that 
indeed this species is not endangered, but we need some 
additional resources to make sure that that happens. Otherwise, 
we face very severe restrictions if in fact that animal were 
listed.
    Senator Nickles. I have been worried about it. Thank you.
    Senator Johnson. An animal that hunters come to shoot from 
miles around and that ranchers curse daily--I appreciate that 
there are many who wonder about the endangered nature of that 
species, but the fact is if you look at the collapse of the 
nationwide population compared to what it was 100 years ago, 
the Endangered Species Act could, in fact, become operative in 
all of our States, and certainly in South Dakota if we do not 
have a proactive plan to prevent that from happening.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Johnson follows:]

         Prepared Statement of Hon. Tim Johnson, U.S. Senator 
                           From South Dakota

    Thank you Chairman Domenici and Ranking Member Bingaman for 
convening today's hearing on the Americans Outdoors Act. As a member of 
the committee who worked hard in previous years to enact similar 
legislation, and who was disappointed when we came up a little bit 
short in 2000, I am pleased that my colleagues from Louisiana and 
Tennessee have reintroduced this landmark conservation and recreation 
funding bill.
    The public continues to demand clean and abundant areas to 
recreate, hunt, fish, or simply enjoy the outdoors. Approximately 40 
million Americans hunt and fish, generating $70 billion in annual 
expenditures for their sport. In South Dakota, the demand for public 
and open areas to recreate outstrips the available capacity; 
diminishing the experience for long-time sportsman, as well as the next 
generation of South Dakotans who derive such enjoyment from our open 
spaces. In a time of such great uncertainty abroad, Americans are 
looking to spend their vacations closer to home and states, counties, 
and cities are racing ahead to plan and develop local park and 
recreation facilities.
    The Americans Outdoors Act also fulfills a decades-long effort to 
bridge the gap in fully-funding wildlife conservation programs, and it 
is this section of the bill that I am particularly interested in 
finally accomplishing.
    The federal government's efforts to enhance and protect wildlife 
habitat rest on a three-legged stool: management and restoration of 
habitat for game species through the long-standing Pittman-Robertson 
Act and dedicated federal funding for sportsfish restoration through 
the Sportsfish Restoration Act have proved highly successful at 
restoring declining species and their habitats. These long-standing and 
highly successful efforts paid for in part by anglers and hunters have 
created a solid model for the restoration of key fish and wildlife 
species. What is missing is the third leg of this stool: a dedicated 
funding source for state-based efforts to enhance non-game species.
    Title IV of the Americans Outdoors Act, establishes a dedicated 
funding source that states and tribes can leverage for the conservation 
and enhancement of both game and non-game species threatened with 
federal protection. A permanent stable funding source is extremely 
important to the efforts of the states to better manage valuable 
resources and to avoid the need for costly and burdensome federal 
remedies. Cooperative and voluntary conservation agreements require 
long-term funding commitments and title IV ensures that state and local 
partners will finally have all the tools necessary to enhance the 
sustainability of many of the most threatened species.
    I also believe that the rational for preventing species from 
becoming endangered is practical, economical, and rooted in the common 
sense belief that an ounce of prevention is worth a pound of cure. The 
wildlife conservation provisions in this bill provide funds for a 
diverse array of fish and wildlife species, with an emphasis on 
preventing species from becoming listed through the Endangered Species 
Act. Ensuring that fish and wildlife do not become endangered will go a 
long way to help private property owners. For example, in South Dakota 
the state is working with several counties, as well as landowners and 
producers to develop a management plan for the black-tailed prairie dog 
with the goal of creating a state solution instead of relying on more 
restrictive federal remedies. Preventing fish and wildlife now from 
becoming endangered later is an investment that will save landowners 
valuable time and money that would occur after a species has been 
depleted.
    The Americans Outdoors Act is an important investment in our 
states, cities, and local communities. Although we have few legislative 
days remaining in this Congress it is my hope that the committee will 
move forward on this bill in the same collaborative and bipartisan 
manner that greeted our previous efforts. Thank you and I look forward 
to hearing from our panel of witnesses.

    The Chairman. Thank you very much.
    Senator Murkowski.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. I appreciate 
the effort that you, Senator Landrieu and Senator Alexander, 
have made on this issue. I need to echo some of the concerns 
that have been expressed here this morning, the financial 
implications, as well as the impact on land ownership. In 
Alaska, about two-thirds of our State is owned by the Federal 
Government. We quite honestly do not think that they need to 
have any more of that, and we would like to change that 
equation a little bit. So, Senator Burns, I concur with you 
that we might be interested in figuring out a way that we can 
swap some of this around.
    But I am eager to learn more about the proposal that we 
have before us, how it can benefit us in Alaska, how it can 
benefit us across the country. We have 6,000 miles of coastline 
in Alaska. 6,000 miles is a lot of coast. Right now we are not 
doing much in the offshore production area, as you have noted, 
Senator Landrieu. That red dot is not yet visible in Alaska, 
but we anticipate that that is going to change over the next 
period of years.
    But again, I look forward to hearing the testimony this 
morning and to work with the two of you and the chairman on 
this issue. I think that there have been some comments raised 
this morning that whereas we might not agree on exactly what we 
have before us, there is certainly a need to be discussing the 
issues that are presented here today and this is a good format 
for it. So I appreciate you, Mr. Chairman, scheduling the 
hearing.
    The Chairman. Thank you very much.
    With that, Senators, we are going to proceed to the 
witnesses. Our first witness is Lynn Scarlett, Assistant 
Secretary for Policy, Management and Budget, U.S. Department of 
the Interior. We welcome you and we are sorry you had to sit 
there so long, but that is the way it is.
    [Laughter.]

STATEMENT OF P. LYNN SCARLETT, ASSISTANT SECRETARY FOR POLICY, 
       MANAGEMENT AND BUDGET, DEPARTMENT OF THE INTERIOR

    Ms. Scarlett. Mr. Chairman and members of the committee, 
thank you for inviting me here today to discuss the Americans 
Outdoors Act of 2004. The act, as the Senators have noted, 
presents an ambitious vision. It proposes a permanent stream of 
funding using Federal offshore oil and gas revenues for grants 
and assistance to States, tribes, and local communities for 
recreation, habitat restoration, and other related purposes.
    The administration strongly supports the goals of these 
activities, but we cannot support moving funding for these 
programs off the discretionary spending ledger and converting 
funding into non-discretionary, automatic spending.
    The legislation highlights many goals the administration 
has pursued through a variety of cooperative conservation 
grants. One of the criticisms of previous legislation on 
related topics was the focus on Federal land acquisition and 
its implications for private land ownership. Our cooperative 
conservation approach offers an alternative to land acquisition 
as the central way to achieve conservation.
    To implement our cooperative conservation vision, working 
with Congress, Interior has provided since 2002 over $1.3 
billion in grants to States, tribes, local governments, and 
private landowners. Through these partnerships we have removed 
invasive weeds, replanted native grasses, improved riparian 
habitat along thousands of miles of streams, conserved limited 
water resources, and protected many threatened and endangered 
species. To continue these efforts, the President's 2005 budget 
for Interior proposes over $500 million for cooperative 
conservation programs.
    I would like to focus for a moment on a few of these 
provisions that reflect many of the goals and purposes of the 
Americans Outdoors Act. Our approach focuses on grants that 
leverage Federal dollars, sometimes as much as 4 to 1, 5 to 1, 
even 6 to 1. Our efforts enhance local innovations in 
conservation, drawing on the local knowledge of folks on the 
ground that live near and love places. They target high 
priority projects through a competitive process. They advance 
alternatives to land acquisition as the central way to achieve 
conservation and outdoor recreation goals, and they provide the 
kind of continual oversight for program results that has been 
mentioned here this morning.
    The grants include grants that facilitate local and private 
conservation efforts, including $50 million for competitively 
awarded cost-share grants to States for landowner incentive 
programs. Our 2005 budget also proposes grants that enhance 
habitat for fish and wildlife and for projects that support 
wildlife-based recreation, a goal of title IV of the Americans 
Outdoors Act. Indeed, more than 50 percent of the Fish and 
Wildlife Service budget is currently devoted to payments and 
grants to States, local communities, and landowners to help in 
species protection and habitat conservation.
    One cornerstone of our suite of cooperative conservation 
programs is our challenge cost-share grant programs. These 
grants enable our land management bureaus to partner with local 
communities, gateway communities to achieve common conservation 
goals and resource management goals. Through our Partners for 
Fish and Wildlife program, Interior has worked with nearly 
9,000 landowners and communities over the last 3 years to 
protect over 150,000 acres of wetlands and over 700,000 acres 
of prairie and grasslands. Over the last decade or more, we 
have partnered with nearly 30,000 landowners and communities.
    A central focus of the Americans Outdoors Act is protection 
of coastal areas in States with offshore energy activities. 
While we recognize the importance of and are investing in 
coastal conservation, we would also like to mention that 
coastal communities enjoy benefits from these offshore 
development activities. Rather than establish a process for 
automatically distributing receipts from offshore activities to 
coastal States, the President's budget proposes to allocate 
funds to priority coastal conservation needs through existing 
conservation programs. The Fish and Wildlife Coastal Program is 
one such program, a program that leverages Federal dollars on 
average by 4 to 1.
    Other programs in other Departments also provide coastal 
assistance, such as the Department of Commerce's Coastal Zone 
Management grants.
    The administration strongly supports discretionary spending 
for conservation programs that are consistent with many of the 
principles set forth in the Americans Outdoors Act. However, as 
I noted earlier, we cannot support the mandatory nature of the 
funding mechanism which removes the ability of both Congress 
and the administration to weigh the programs funded under this 
legislation against other national priorities and trends such 
as parks maintenance, the forest and rangeland health issues, 
particularly adjacent to wildland/urban interface communities.
    I can pledge to you that this administration's willingness 
to work with this committee and others in the Congress on 
issues embodied in the Americans Outdoors Act is strong. Those 
issues focus on working in partnerships with States, local 
governments, tribes, and individuals to conserve natural and 
historic resources and provide outdoor recreation 
opportunities.
    Mr. Chairman, I would be happy to answer any questions you 
or members of the committee might have. Thank you.
    [The prepared statement of Ms. Scarlett follows:]

Prepared Statement of P. Lynn Scarlett, Assistant Secretary for Policy, 
            Management & Budget, Department of the Interior

    Mr. Chairman and Members of the Committee, I appreciate the 
opportunity to appear before you today to discuss S. 2590, the 
``Americans Outdoors Act of 2004.''
    The Americans Outdoors Act presents an ambitious vision. It 
proposes mandatory spending for a stream of funding, using revenues 
from oil and gas development from federal offshore lands, to (1) 
establish a Coastal Impact Assistance Program; (2) provide Land and 
Water Conservation Fund (LWCF) Act assistance to states; (3) conserve 
and restore wildlife; and (4) provide grants to local governments 
consistent with the Urban Park and Recreation Recovery Act. The bill 
would provide for the automatic funding of four programs at levels 
higher than they have been funded in the past. The Administration 
strongly supports the goals of these activities. However, we cannot 
support moving funding for these programs off the discretionary 
spending ledger and converting it into non-discretionary automatic 
spending. The total cost of the bill would be $1.425 billion annually.
    A central goal of S. 2590 is to better enable local communities to 
carry out activities that benefit conservation and recreation. In this 
respect, the legislation highlights goals that the Administration has 
pursued in recent years through a suite of cooperative conservation 
grants. By partnering with states, tribes, community organizations, and 
citizens, the Department of the Interior is achieving conservation 
through cooperation. communication, and consultation--what Secretary 
Norton calls the 4 C's.
    These partnerships exemplify Secretary Norton's cooperative 
conservation vision. By applying a caring hand to the local lands where 
they live, work and play, citizen stewards are working with federal 
agencies to conserve habitat and enhance outdoor recreation 
opportunities while maintaining working landscapes that support dynamic 
economies and thriving communities.
    To implement this vision, the Department has provided since 2002 
over $1.3 billion in grants to states, tribes, local governments, and 
private landowners through programs that conserve open space, restore 
habitat for wildlife, and protect endangered species. With our 
partners, we have restored millions of acres of habitat; removed 
invasive exotic species; replanted native grasses; improved riparian 
habitat along thousands of miles of streams; conserved limited water 
resources; and developed conservation plans for endangered species and 
their habitat. To help meet this challenge, the President's fiscal year 
(FY) 2005 budget includes $507 million for cooperative conservation 
programs.
    These cooperative conservation grants leverage non-federal funding 
and the initiative of landowners, nonprofit organizations, tribes, and 
other governments to achieve conservation results and outdoor 
recreation opportunities. The Department has a strong interest in 
enhancing these efforts.
    We appreciate the efforts put forward in S. 2590 to support 
conservation at the local level, but we believe funding allocation 
decisions should be made through the appropriations process and not 
through new mandatory spending. Mr. Chairman, I would like to take a 
few minutes to walk you through the provisions of our recent budget 
proposal that reflect many of S. 2590's purposes and goals.

          LAND AND WATER CONSERVATION FUND STATE GRANT PROGRAM

    Title III of S. 2590 would provide for $450 million in LWCF state 
conservation grants to be apportioned among states, the District of 
Columbia, and territories to be used for the planning, acquisition (but 
not condemnation), and development of projects under the LWCF. Tribes, 
through a competitive grant program to be developed by the Secretary, 
and political subdivisions, through grants from states, would also be 
eligible to receive funds. The legislation would also require states to 
develop ``action agendas'' that describe priorities and criteria for 
selection of outdoor recreation and conservation acquisition and 
development projects, among other things.
    The President's FY 2005 Budget proposes, through the appropriations 
process, $900 million in LWCF funding for a mix of programs that 
advance many of the goals set forth in S. 2590. Over the past several 
years, we have developed a comprehensive approach to funding a wide 
array of state recreation and conservation needs through grant 
programs. This approach offers states, tribes, local governments, and 
citizens the flexibility to determine priorities among various program 
purposes. These grants also encourage innovation in conservation tools. 
Conservation of wildlife and habitat is a major component of conserving 
and enjoying our natural resources. States, tribes, and local partners 
should be able to use these funds for projects that protect or enhance 
habitat for an array of fish and wildlife, including wetlands for 
migratory birds and other species.
    One of the criticisms of previous legislation like S. 2590 was the 
increase in funding for federal land acquisition and its implications 
for private land ownership. Our cooperative conservation approach 
offers an alternative to land acquisition as the central way to achieve 
conservation of land. The Administration's Land and Water Conservation 
Fund's budget for FY 2005 includes $679 million for such grant and 
cooperative programs. Secretary Norton strongly believes that 
conservation dollars can go farther and conserve more open space and 
wildlife habitat if more land is left in private ownership and private 
landowners are provided with incentives for private stewardship. The 
President's budget proposal funds a number of programs to facilitate 
local and private conservation efforts, including $50 million for 
competitively awarded cost-shared grants for state landowner incentive 
programs, and $10 million for competitively awarded private stewardship 
grants to support individuals and groups engaged in local, private, and 
voluntary land and wildlife conservation efforts.

                 CONSERVATION AND WILDLIFE RESTORATION

    Title IV of S. 2590 would provide $350 million in funding to the 
Wildlife Conservation and Restoration Account established under recent 
amendments to the Pittman-Robertson Wildlife Restoration Act. These 
monies would be made available to states, the District of Columbia, 
territories, and tribes for use in fish and wildlife conservation and 
related recreational opportunities.
    The Department's FY 2005 budget proposes a number of grant programs 
that enhance habitat for fish and wildlife and for projects that 
support wildlife-based recreation. More than 50 percent of the U.S. 
Fish and Wildlife Service's budget is currently devoted to payments and 
grants to states, local communities, and landowners.
    One of the cornerstones of the Department's partnering program is 
the Cooperative Conservation Initiative (CCI) challenge cost-share 
grants. These challenge cost share grants fund conservation 
partnerships with our land management bureaus, enabling them to work 
with local communities to achieve common conservation goals. Our CCI 
program also includes the coastal program, Migratory Bird Joint 
Ventures, and Partners for Fish and Wildlife, all in the Fish and 
Wildlife Service; and Take Pride in America, a public lands volunteer 
program. In FY 2005, we propose $129.5 million for CCI-related funding. 
Through the Partners for Fish and Wildlife program alone, the 
Department has worked with nearly 9,000 landowners and communities to 
restore over 150,000 acres of wetlands and over 700,000 acres of 
prairie and grasslands from 2001 to 2003.
    Our FY 2005 budget also includes S90.0 million for the Cooperative 
Endangered Species Conservation Fund and $54.0 million for the North 
American Wetlands Conservation Fund. A significant portion of the 
remaining request will support technical assistance at the local level 
under programs such as Endangered Species Act Consultation and Habitat 
Conservation Planning and Fish and Wildlife Assistance.

                       COASTAL IMPACT ASSISTANCE

    Finally, Title II of S. 2590 would establish a new $500 million 
program of payments to states with approved coastal impact assistance 
plans. The bill delineates several purposes for these funds, including 
projects and activities related to the conservation, protection, 
infrastructure, or restoration of coastal areas. The funds protect 
wetlands, mitigate of damage to fish and wildlife or natural resources, 
as well as mitigate the impact of OCS activities. Generally, funds 
would be allocated to states in the proportion that the amount of 
qualified OCS revenues generated off the coastline of the producing 
state bears to the amount of qualified OS revenues generated off the 
coastline of all producing states. In addition, 35 percent of the funds 
allocated to each state would be further payable by the Secretary 
directly to coastal political subdivisions in the producing state.
    While we recognize the importance of and are investing in coastal 
conservation, we would also like to mention that coastal communities 
enjoy benefits from offshore development activities. Rather than 
establish a new and complicated process for automatically distributing 
receipts to coastal states, the President's Budget proposes to allocate 
funds to priority coastal conservation needs through existing 
discretionary programs. Our proposed FY 2005 budget includes $13.1 
million for the Fish and Wildlife Service's Coastal program, through 
which the Fish and Wildlife Service and its partners work to conserve 
fish and wildlife and their habitats to support healthy ecosystems. 
This program provides assessment and planning tools to identify 
priority habitats for protection and restoration; conserves coastal 
habitat through voluntary conservation easements and locally initiated 
land acquisition; restores degraded coastal wetlands, uplands, and 
stream habitat; and focuses resources through partnerships that 
leverage financial and technical resources. On average, the Coastal 
program leverages federal funding at a rate of 4:1. In addition, the 
Department provides coastal wetlands grants, over $90 million for 
refuge operations in coastal areas, and over $50 million in U.S. 
Geological Survey science, mapping, and hazards programs that pertain 
to coasts and ocean areas. Our Coastal Program protected over 200,000 
acres of wetlands and more than 750,000 acres of uplands in 2001 to 
2003.
    In addition, the Department of Commerce's proposed FY 2005 budget 
includes a request for almost $64 million for Coastal Zone Management 
grants to states. These grants are intended to provide matching funds 
to support state and local projects that address a broad spectrum of 
coastal management issues.

                               CONCLUSION

    The Administration strongly supports discretionary spending for 
conservation programs that are consistent with many of the principles 
of set forth in S. 2590. As you know, the cost of this legislation, 
over $1.425 billion per year over the next 5 years, is not in keeping 
with the President's budget for FY 2005 or with the Administration's 
efforts to control increases in federal spending over the next several 
years. Moreover, the Administration has stressed the importance of 
strong conservation funding under the programs listed above, under the 
conservation title of the 2002 Farm Bill, for wetlands projects, for 
National Parks operations and maintenance, and for forest and rangeland 
fuels reduction. However, the Administration opposes the mandatory 
nature of the funding mechanism, which removes the ability of both 
Congress and the Administration to weight the programs funded under 
this legislation against other national priorities and needs.
    I can, however, pledge to you this Administration's willingness to 
work with this Committee and others in the Congress on the issues 
embodied in S. 2590, those of working in partnership with states, local 
governments, and individuals in conserving the Nation's natural and 
historic resources and providing outdoor recreation opportunities. This 
Administration has a clearly developed record of success with 
cooperative conservation initiatives. I believe that as more of the 
public becomes involved, our Nation will have healthier lands and a 
whole new generation of self-motivated citizen stewards.
    Mr. Chairman, this concludes my prepared statement. I am pleased to 
respond to any questions that you or other Members of the Committee 
might have.

    The Chairman. Thank you very much, Madam Secretary.
    Senator Bingaman, do you have any questions? Then we will 
go down the line one and one.
    Senator Bingaman. Thank you, Mr. Chairman.
    Let me first ask something I raised with Secretary Norton 
when she testified earlier this year, I believe. As I 
understand the proposed budget that you have given us for 2005, 
it contains no funds for Federal land acquisition. Is that 
accurate?
    Ms. Scarlett. No, that is not accurate. Our Land and Water 
Conservation proposal has a modest amount of Federal land 
acquisition in it.
    Senator Bingaman. How much is that?
    Ms. Scarlett. In Interior, we have about $153 million 
proposed, of which about $40 million is for some proposed 
acquisition of oil and gas subsurface mineral rights. There is 
an additional portion of land acquisition in the Forest Service 
budget.
    Senator Bingaman. My impression--and correct me if I am 
wrong on this--is that the law that established the Land and 
Water Conservation Fund required that half go to the States for 
their land acquisition needs and half be retained by the 
Federal Government for its land acquisition needs. Essentially 
what you are doing each year and what you are proposing to do 
next year is to take the funds that by law are required to be 
spent on land acquisition and using them for these various 
things that you call cooperative conservation grants instead of 
land acquisition. Am I wrong? Do you read the law differently?
    Ms. Scarlett. Senator, as we read the law, the Land and 
Water Conservation Fund in 1965 proposed $900 million in 
spending for land acquisition or--and these are the exact 
words--unless otherwise allotted in the appropriations act for 
purposes consistent with the conservation and recreation goals. 
We believe that the proposal that we have put forth is indeed 
consistent with the provisions of the Land and Water 
Conservation Act and does, in fact, achieve those purposes. 
There are many hundreds of millions of dollars in our proposals 
that go to States, tribes, and local communities for recreation 
and conservation purposes, using partnerships rather than 
strictly emphasizing one tool, land acquisition.
    Senator Bingaman. But it is fair to say that your budget 
proposal recommends to Congress that most all of the funds that 
are supposed to be on the Federal side of the Land and Water 
Conservation funding not be used for land acquisition, be used 
for cooperative conservation grants of one kind or another, and 
then if the Appropriations Committee agrees to that, then your 
view is that is legal?
    Ms. Scarlett. Senator, just to clarify, the total Federal 
land acquisition piece is over $200 million, combining Forest 
Service and Interior, which is a substantial portion.
    But yes, we have been working with Congress and the 
appropriators. Indeed, in 2003 and 2004, they significantly 
agreed with this approach and did allot funding for our 
landowner incentive program, our private stewardship grant 
program, our partners program, and others through Land and 
Water Conservation, consistent I believe with the language that 
I read earlier.
    Senator Bingaman. Following the CARA debate, Congress 
established what was called the conservation spending category 
as part of the fiscal year 2001 Interior appropriation bill. 
Under this conservation spending category, there was a certain 
amount of funding that was fenced off in the budget each year 
for land conservation and related activities as critical 
national priorities. That was sort of a fall-back, as I recall 
it. Since CARA did not become law, there was a general 
agreement, okay, let us at least put it in the budget.
    This program has been in place now for 4, 5, 6 years. The 
amount has been decreasing. This year, as I understand your 
fiscal year 2005 budget request, you have asked for no funds 
for the conservation spending category. Am I right about that?
    Ms. Scarlett. Senator, that would be inaccurate. This 
conservation spending category is a category that includes a 
lot of different programs within it, and in fact in 2004, I met 
with Congressman Dicks and walked through the programs that we 
have that fit within that conservation spending category. 
Overall, since 2001, our conservation spending in the 
Department of the Interior for our cooperative conservation 
programs is up some 240 percent, significant increases in 
conservation spending.
    Senator Bingaman. But in the budget submission that we 
received from you, there is no longer a conservation spending 
category identified for this upcoming fiscal year.
    Ms. Scarlett. For this fiscal year, we did not present the 
budget in that way. I would be happy to go back and, as we have 
done in the past, align the programs that come under that 
category and provide you that information and that alignment.
    Senator Bingaman. I think that would be useful because then 
we can determine whether, as I believe is the case, we have 
seen a drop-off in spending for those activities over the last 
several years since we last had the CARA debate here.
    That is all I have, Mr. Chairman.
    The Chairman. Madam Secretary, would you supply that 
information to each member of the committee please?
    Ms. Scarlett. We will be happy to do that.
    The Chairman. Senator Thomas.
    Senator Thomas. Thank you, sir.
    When we talk about acquisitions and so on, do you have any 
interest in sort of the no net gain thing? In other words, if 
we are going to add Federal here, can we reduce some over here, 
particularly inholdings and things that have no particular 
significance?
    Ms. Scarlett. Senator, this was a concept that I heard for 
the first time today expressed, and we certainly would be 
interested in discussing it with you. It is not something that 
we have discussed yet at Interior.
    Senator Thomas. You know, we have always some expansion and 
so on, generally justified, but on the other hand, seldom do we 
ever see any exchange. For instance, we are exchanging in 
Yellowstone a State section. Then maybe we ought to reduce 
some.
    What about the backlog? I just returned from a weekend at 
Glacier National Park and about all they talked about was 
trying to catch up. How would this impact your efforts to use 
the money for maintenance and pick up the backlogs?
    Ms. Scarlett. Senator, let me first thank you for your 
strong efforts in the maintenance backlog arena, both focusing 
on the management needs we have there and also supporting the 
President's efforts to address that backlog.
    I think there are two responses. One, as I said in my 
testimony, we are concerned that we maintain the discretion and 
flexibility to address priorities as they emerge over time. For 
this administration, addressing that maintenance backlog has 
become a significant priority.
    We are on target to spend the $4.9 billion to address that 
backlog, and with those dollars expended, to date we have 
either accomplished or have underway some 4,000 maintenance 
backlog projects across our 388 park units. We are continuing 
that effort and look forward to working with Congress to get 
the Transportation Efficiency Act reauthorized to get the road 
portion which will allow us to address road maintenance.
    The Chairman. Senator Thomas, would you yield for a moment 
on land acquisition/land disposal?
    Senator Thomas. Yes, sir.
    The Chairman. I am getting the statute to ask her a 
question. But you might recall when we acquired in New Mexico 
that beautiful piece of property that we call the Baca 
location. We spent a lot of money for it. The second title to 
it required the Federal Government dispose of all the 
inholdings, which there was no use for and were determined 
already to be useless. That would have been very many thousands 
of acres. I do not believe they have done anything with it, but 
we will ask her as soon as we get the statute.
    Senator Thomas. That is great. Thank you, Mr. Chairman.
    I have no further questions. Thank you.
    The Chairman. Senator?
    Senator Landrieu. Yes, thank you. I appreciate your 
testimony and understand that there are some programs within 
the Department that you all are proud of in terms of the grant 
program. But I was just wondering if I could just focus with 
you for a minute just on the coastal programs.
    I note, Madam Secretary, this is the Interior budget brief, 
which you are familiar with, and on page 48 here I just want to 
be sure under the Land and Water Conservation Fund that I am 
reading this correctly. It says coastal programs, 13060, which 
would be $13 million for coastal programs. that would be for 
the whole country. As you might recall, we had put up that map. 
Only four coastal States are producing, which is approximately 
$6 billion.
    So I just want the committee to be aware that while there 
are, in fact, coastal programs underway, it is $13 million for 
the whole country, and from what I understand, the Federal 
Government puts up $1 and the private sector has to put up the 
other $4 of this program. Considering that just for Louisiana, 
the cost of our restoration estimated just for Louisiana's 
restoration is $14 billion over the next 20 years. Clearly, I 
just wanted to show this is not adequate.
    So I wanted to ask you, given the great need of Louisiana, 
which is America's wetlands, and our coast, is the 
administration arguing that this money is a sufficient 
investment in coastal conservation programs in the Nation?
    Ms. Scarlett. Yes, thank you, Senator, for raising that 
issue. Actually our coastal program is one small program of 
many that actually benefit coasts. For example, we spend some 
$90 million each year on our wildlife refuges on coasts. We 
spend about $50 million in our U.S. Geological Survey in 
specific activities relating to coastal mapping, coastal 
protection, coastal science. The Department of Commerce has $64 
million for additional coastal programs. And then as many are 
aware, because so many of our wetlands are along the coasts, 
our North American Wetlands Conservation Act fund also invests 
significantly in coasts. So when you put those funds together, 
it amounts to in the hundreds of millions rather than the $13 
million.
    Senator Landrieu. Well, I realize that is just one program, 
but even when you add them up and it is $100 million and it is 
for the coast of the entire United States, it still does not 
seem to me to take into account particularly the coastal States 
that are serving as a platform for the oil and gas and how 
limited the investments seem to be in that particular area. I 
would argue when you spread that couple of hundred million 
around the whole United States, it really falls short 
considering two-thirds of our population in this country live 
within 50 miles of the coast.
    So in addition, Mr. Chairman, I would like to ask the 
Secretary if she is aware of the volatility in funding, which 
is what we are attempting to solve with this piece of 
legislation. In 1965, the State side of Land and Water, which 
there does not seem to be much disagreement on this committee--
there is disagreement about the Federal side and how much it 
should be, how it should be allocated. But on the State side, 
did you know that one of our intentions is to try to level the 
funding to give States some planning opportunities?
    In 1965, this Government only allocated $10 million to the 
State side of Land and Water. In 1978, it went up to $305 
million. In 1982, it went down to 0. Then in 1996, 1997, 1998, 
1999, 0, 0, 0, and then back up to 1997. This chart, which I 
did not have blown up, but I would like to show the committee, 
is what happens to the State side of Land and Water.
    So my question is, do you think it is possible for the 50 
States to plan a very good conservation program with their own 
money with this kind of volatility in funding of the State side 
of Land and Water? And if not, what is the administration's 
position about trying to give some reliability to this stream 
of funding?
    Ms. Scarlett. Senator, we have tried to significantly 
invest in the State-side Land and Water Conservation program, 
and over the last 3 years, the administration has consistently 
proposed over $90 million for that program. In addition, we 
have actually significantly funded the State and tribal 
wildlife grant program, something that we heard from States 
about a strong need for. Together those programs bring over 
$150 million to States.
    On the one hand, I understand the challenges of changes in 
the spending flow. On the other hand, it is precisely the 
flexibility that allows us to address emerging priorities or 
trends on an ongoing basis as they surface.
    Senator Landrieu. Well, I would just end with this, Mr. 
Chairman, that while flexibility is always desirable, it is 
equally desirable to have reliability and to be a partner to be 
there year in and year out, not be a partner in the sunshine 
and then not a partner in the rain, to be a solid partner with 
the State governments to provide much needed land and 
recreation efforts for the 50 States. With volatility in 
funding that they cannot count on, it makes it very difficult. 
So I just wanted to point that out and thank you for the 
questions, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Burns.
    Senator Burns. Thank you, Mr. Chairman.
    Whenever we get into mandatory type spending or entitlement 
type spending, here is the problem we run into. We run into a 
situation where it is almost a perfect storm. I have requests 
on my desk right now for 347 acres that they want to sell to 
the Federal Government. The Federal Government wants to own it 
at a cost of $5.5 million. Right across the river is 147 acres 
that they want $1.5 million for. Whenever you get entitlement 
spending--and here is the problem we run into. We always say, 
well, there is a clause in there that says, Senator, it is 
willing seller/willing buyer. In this case we got both. And 
that costs lots of money. It just throws reason and logic out 
the door.
    So I do not have a question of Ms. Scarlett, but I am 
saying that we have to watch our policy here when we write it 
into law. I have seen some awfully high priced land that you 
would never make a living on it like that even from--they say, 
well, you ought to see the view. Well, if that is all they are 
buying now, we are going to start selling view in the grocery 
store.
    Senator Landrieu. Senator Burns, would you yield just a 
moment?
    Senator Burns. Yes.
    Senator Landrieu. Since you were not directing the 
question, I would like to take a shot at answer that because 
part of Senator Alexander's and my bill is exactly that, to 
give the taxpayer a good bargain for the money that they spend. 
And what happens when we do not have a steady stream of 
revenue, when money becomes available, the managers and people 
that are looking at what land should the Federal Government buy 
or what lands should they not are so desperate that they will 
overpay for property. Why? Because they do not know they will 
have the money next year.
    That is exactly the point of our bill, to give a steady 
stream of money so we do not have to overpay for property, so 
we can wait out sellers if their property is too high and say, 
no, we are not paying you $100 an acre. We are going to wait 
till the price comes down or to you offer it to the taxpayers. 
The taxpayers get a good deal. That is part of this bill.
    So I just wanted to share that with you because I do think 
we overpay for property and we do because nobody ever knows 
from year to year how much money we are going to have to buy 
it. So if we allocate it, we can plan better and save the 
taxpayers some money.
    The Chairman. Senator Burns.
    Senator Burns. I will pass on this. I think just the 
opposite will happen. I think just the opposite will happen, 
Senator. I am just going from past experience of buying and 
selling.
    So I thank the chairman.
    The Chairman. Thank you.
    Senator Murkowski. Senator Alexander, questions?
    Senator Alexander. Yes.
    The Chairman. Go ahead.
    Senator Alexander. Thank you very much, Mr. Chairman.
    Ms. Scarlett, thank you very much for your testimony today. 
I thought it was helpful and constructive. I understand your 
point about mandatory spending.
    And I want to say that I have carefully looked at the 
information you gave me about the administration's work on 
cooperative conservation and I think it is impressive. Senator 
Bingaman was asking questions about this. Generally speaking, 
you spent a lot more money on these cooperative projects while 
not as much money has been spent on the Land and Water 
Conservation Fund.
    I want to go back, though, as much for the record as 
anything else. President Bush said in 2001 that in outlining 
his budget proposal for that year, ``I propose fully funding 
the Land and Water Conservation Fund. $900 million will fully 
fund the fund. It is the highest request in the fund's history 
and half the money will go to the States, just like the authors 
of the law intended.'' So am I not correct that in President's 
first budget, he did ask full funding of the Land and Water 
Conservation Fund?
    Ms. Scarlett. Senator, we believe the President has asked 
for full funding in each year. The 2002 budget of the President 
actually did distribute the funds, $450 million for Federal and 
$450 million for State-side. Working with Congress, we ended up 
with a different mix, and subsequently have moved forward with 
the alternatives that I have described here this morning.
    Senator Alexander. Maybe it is easier for me to say than 
for you, but some Members of Congress were not willing to 
appropriate $900 million for the Land and Water Conservation 
Fund. So you took a different tack. Is that close to right?
    Ms. Scarlett. As I noted, in 2002, we provided a very 
traditional approach, and Congress gave us other directions. 
Subsequently we have worked with that direction to provide a 
different mix and focus on our cooperative conservation 
efforts.
    Senator Alexander. Diplomatically stated.
    [Laughter.]
    Senator Alexander. But President Bush did say in his 
campaign and, as you said, he through his definition believes 
he has continued to, but in his first budget he put 450 and 450 
in the traditional way of funding the Land and Water 
Conservation Fund.
    While we will hear more from Henry Diamond in the next 
panel, I want to emphasize that my own experience with the Land 
and Water Conservation Fund came when President Reagan asked me 
to be chairman of the President's Commission on Americans 
Outdoors in 1985 and 1986. While we recommended a broad number 
of proposals that were mainly outside Washington, the one 
proposal we agreed on was to spend at least $1 billion a year 
from offshore drilling on the Land and Water Conservation Fund.
    I only have one question about that. You say that the 
administration opposes mandatory funding, and so did several 
other Senators. But would you not agree that the program that 
has been in place since the 1920's, which gives 50 percent of 
royalties from drilling for oil and gas onshore, not mandatory 
funding? That money goes directly the States. The 
appropriations committees of Congress never get a penny of it. 
Would that not be considered to be mandatory funding?
    Ms. Scarlett. Senator, as was noted in several of the 
comments by other Senators, there certainly are a number of 
areas where we have mandatory spending, and the 50 percent 
share that is automatic might fall into that kind of category.
    Senator Alexander. Does the administration propose taking 
the $500 million that goes to Wyoming each year and the other 
onshore oil and gas drilling money that automatically goes to 
States and putting it in the Federal Treasury for appropriation 
each year in order to deal with the budget deficit?
    Ms. Scarlett. Senator, I think we are certainly not 
proposing changing any of the current allocations. We look at 
each proposal as it comes forward, and in this particular 
instance, of course, Congress has a long history of opining on 
the appropriate allocation of those moneys offshore, dating 
back I think to the 1940's when the Submerged Land Act actually 
determined that rather than having those first 3 miles be 
Federal, they would be State and 100 percent of those moneys 
would go to States, again automatically. Subsequently the 
change to the law allowed the next 3 miles to have a 27-plus 
percent distribution to the coastal States. So we look forward 
to continuing to work with Congress on what the appropriate 
ongoing distribution is.
    Senator Alexander. Is it not true that there is something 
called Pittman-Robertson and Dingell-Johnson, which are Federal 
laws passed several years ago, through which hunters and 
fishermen pay license fees that automatically go for wildlife 
conservation? And would that not also be considered mandatory 
spending that does not go through the appropriations process?
    Ms. Scarlett. Senator, as noted before, there certainly are 
many programs that are mandatory. I think our concern is that 
of adding to those programs, particularly at a time with a lot 
of other Federal priorities. We are increasingly seeing, as we 
put our budget together, the important ability to flexibly meet 
needs such as law enforcement, such as maintenance backlog as 
they surface. So our concern would be adding to the mandatory 
programs that already exist.
    Senator Alexander. I accept that.
    Mr. Chairman, as a concluding comment, I think it is a 
matter of priorities really, and since it was President 
Reagan's commission that recommended this and President George 
H.W. Bush endorsed that commission, and since this President 
Bush has said he wants to fully fund the Land and Water 
Conservation Fund, and since we already create a State royalty 
for onshore oil and gas drilling, it seems to me a little 
different and appropriate, even in light of budgetary 
considerations, to say let us take 25 or 30 percent of offshore 
oil drilling and devote that to a State royalty for 
conservation purposes. Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Just a very quick question on the coastal impact assistance 
program. Alaska received in 2001 a little over $12 million in 
coastal impact assistance. I am trying to understand under the 
proposal that we have before us by Senator Alexander and 
Landrieu, what would the coastal impact assistance be to Alaska 
on an annual basis?
    Ms. Scarlett. I am afraid I will have to get back to you 
with that specific amount because there is a formula and it is 
somewhat complicated, but we would be happy to go through the 
numbers and figure out what that might be.
    Senator Murkowski. Well, it is complicated and you want to 
know whether you are going to be better under the new proposal 
than you are under the status quo. Quite honestly, I cannot 
determine that. So I would like an answer on that if we could 
get that from you. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Will you get that answer as soon as you can?
    Ms. Scarlett. Yes, we will. Thank you.
    The Chairman. Senator Craig.
    Senator Craig. Lynn, maintenance backlogs on all of our 
public lands, BLM, Forest Service, Parks, continues to grow, 
and is estimated now to be over $23 billion. And some of those 
backlogs are considered to be life-threatening or hazardous to 
humans who might traffic those areas. Although we do not know 
how much Federal land this bill would add to the Federal 
estate, the sponsors have indicated that they plan on a Federal 
land acquisition provision to be added. If like in past 
proposals we add $450 million to $500 million of direct Federal 
land acquisition spending over the next 6 years in the bill or 
20 years in the House version, we are talking about $2.7 
billion to $10 billion over the potential life of this 
legislation.
    At the same time, in 3 of the last 4 years, we have 
expended more than $1 billion on fire fighting and this year 
with what is going on in the West and in Alaska, we have the 
chance of a record burn year and a record cost year. The good 
news is I guess that in Nevada the fire is under control. A 
variety of homes and small businesses, but no lives lost.
    Lynn, do you really believe that we can continue to acquire 
Federal land when we do not have the funding to maintain the 
land we have got?
    Ms. Scarlett. Senator, thank you for raising the matter of 
the maintenance backlog. Secretary Norton's No. 1 priority is 
to invest in maintaining the lands that we have, and President 
Bush, of course, committed to addressing the $4.9 billion 
estimated backlog on the national park lands and that is what 
we are focused on doing.
    It is for this reason that we have focused our conservation 
efforts on partnerships, that is, rather than land acquisition, 
working in partnership with private landowners to achieve 
conservation goals, rather than putting additional land into 
the Federal dominion.
    Senator Craig. The conservation partnership approach is 
such a positive one because in that relationship a great deal 
is learned and a cooperative environment is created. Out West, 
if it is Fed land, oftentimes the sign goes up, the gate goes 
closed, and do not tread, all in the name of the environment. 
That can be tremendously frustrating at times in a State like 
mine that is 63 percent owned by the Federal Government, and 
you are one of our larger landlords, and sometimes we do not 
like you very much in the style of your stewardship.
    Do you think it is responsible for the Government to 
suggest that any additional Federal land acquisition be 
reasonable and prudent in the context with its ability to 
maintain it?
    Ms. Scarlett. Senator, first, I hope that our stewardship 
has created improved relations.
    Senator Craig. It is improving.
    Ms. Scarlett. We have certainly focused on trying to do 
that.
    Again, our priority is to focus on caring for the lands 
that we have. We do have an opportunity, at the request of the 
House Appropriations Committee, to create a land transaction 
strategy or plan that we are to submit in December. We expect 
that that plan will help to set priorities and give some 
greater focus to how we undertake our land transactions and 
where we focus dollars, and I look forward to sharing that with 
you.
    Senator Craig. In the development of that strategy, let me 
ask then one other thing. I would like you to provide to this 
committee a list of the Federal land acquisitions that have 
been made over the last 10 years. I think as we talk about 
acquiring more land, it is important we know what we are doing 
now. I have not seen the grand total of 10 years' worth of 
Federal acquisition, but I think it would be quite surprising 
in the total volume and number of acres acquired. So I think it 
would be important to do that.
    And in doing so, how much of its cost is in acquisition? 
How about new maintenance costs? And of course, we know the 
fire suppression costs. Right now we are stealing from all 
kinds of accounts within the system to fight fires, and then we 
do not replenish the money back into the accounts. So the 
stewardship programs, the conservation programs, fire 
suppression programs, or pre-fire programs are not being 
funded. What we are doing out there right now, my guess is if 
it were fully exposed to the public, there would be a 
phenomenal argument about mismanagement in the first order. And 
that is not just on your watch. That has been happening for 
some time because you have to do what you do at the time fires 
are underway, and then we here in Congress do not have the 
money to replenish the funds. So then you cannot contract out 
to do the kind of work that Congress by law and you by 
definition of good stewardship are allowed to do, and the cycle 
goes on. And here we want to acquire more land? That to me is a 
phenomenal frustration.
    As the chairman and others know, I am a bit obsessed at 
times with invasive weeds. Small item. You are losing 10,000 to 
15,000 acres a year, wipe-out, to invasive weeds, just BLM 
alone, not counting the Forest Service, and you do not have the 
money to fight them. You will not fight them. You cannot fight 
them. We are trying to change things so that you will fight 
them. These are weeds that are so obnoxious that even wildlife 
no longer inhabit the area. Erosion sets in because they become 
the dominant species on the land. Under any reasonable 
conservation-minded person's attitude, it would suggest that 
that is phenomenal mismanagement, and yet it goes on today and 
it continues to go on, and under greater acquisition, it will 
go on on that land also. That is one example.
    Last idea here. Somewhere in my memory, I recall that the 
original Land and Water Conservation law indicated that only 15 
percent of Land and Water Conservation funds would be expended 
in Western States. Has that been the case over the last 20 
years? Do we know that we have held at that 15 percent level?
    Ms. Scarlett. Senator, I do not know. We would have to go 
back and evaluate that.
    Senator Craig. Hit the total button, if you would, and give 
us a number. That would be valuable. And would you provide the 
committee a State-by-State and a year-by-year accounting of the 
funds expended under the Land and Water Conservation Fund? That 
ought to be a reasonably easy task to do.
    I think as we ask--and I know what the Senator from 
Louisiana is about, and I would suggest to her that when money 
comes off from offshore drilling, that States that are willing 
to allow that to happen ought to be the recipients of some of 
those benefits. I am quite amused by States who come and ask me 
to join in on Land and Water Conservation funding to acquire 
lands in their State, but they have a prohibition to offshore 
drilling. They want to take somebody else's money to benefit 
their State but they will not allow the money to be generated 
offshore of their States. And that example is replete up and 
down the east coast and the west coast. Take somebody else's 
money so that we can stay pristine. Well, thank you, Louisiana, 
for supplying a huge supply of oil so all you folks could get 
here today in your automobiles.
    Those are some of my frustrations about how we handle these 
resources. I am not quite sure I can get to the idea of an 
entitlement or dedicated funds, especially when we are not 
funding properly good stewardship and management today at the 
level that almost any reasonable person would suggest ought to 
be. Thank you.
    The Chairman. Madam Secretary, let me first say to you I 
was pleasantly surprised with your grasp of the issues and I 
commend you for it. I did not know you very well and I had no 
dealings with you, but I think on this complicated issue, you 
have done a very good job.
    I have some questions of you that have to do with the 
partnership activities, but I am going to submit them so you 
can answer them.
    But I do have something I would like to lay before you and 
put in the record.
    Public Law 106-248 was adopted 3 years ago and it provided 
for two things. First, it acknowledged that in the United 
States there were millions of dollars of inholding lands, lands 
which were completely surrounded by the Federal Government of 
no use to anyone but the Government. The Government had 
indicated an interest in condemning them and there were 
millions that were condemned, neither of which had been paid 
for. So we said in this legislation we have surplus Federal 
land. Now, this is not land that anybody should get excited 
about in the conservation community, and I do not think they 
did because this land is not good for anything. It is on the 
maps already as surplus. We suggested that that ought to be 
sold in an orderly manner and the proceeds be used to pay these 
Americans who had not been paid.
    I would like to know from your Department whether that law 
has been used, either of the two, and if so, how, and if not, 
why not. Would you do that for us?
    Ms. Scarlett. Yes, Senator. I believe you are referring to 
what we sometimes call the Baca legislation?
    The Chairman. That is correct.
    Ms. Scarlett. We have utilized the Baca legislation but we 
have not utilized it to the extent originally anticipated. If 
my memory serves me correctly--and we will have to get back to 
you on the right number--I think we may have only done 
something like $4 million worth of transactions in recent years 
through the Baca legislation.
    We are actually very interested and Secretary Norton has 
made it a priority to explore working with Congress on some 
changes to that which would give a stronger incentive and 
ability of our agencies to utilize that legislation so that we 
can achieve the goals set forth.
    One of the elements of it was a restriction on addressing 
lands that were in existing resource management plans up to a 
certain date, and because we have now revised those plans, it 
puts some of those areas off limits and we would like to 
explore working with you on that.
    The Chairman. Well, ma'am, let me tell you one thing I 
really have learned in my years around here is to make sure 
that the executive branch does what it is told. We are all 
arguing about new things, but there are many things that the 
executive branch does not do that are already on the books. 
This was an important part of acquiring that huge property 
called the Baca location. I do not think the Republicans would 
have bought that had we not had this provision in the law, and 
so I ask you to give us the information.
    But I want to tell you that I expect--and I will be here a 
while--to see you do this. This is not so difficult. It is just 
you do not want to devote the time and energy to do it, and the 
field people do not want to either.
    Now, having said that, I want to say to my friend, the 
Senator from Louisiana, when I went to your State and you 
showed me how the coast lands were eroding and you suggested 
this new source of funding, I guess I should have known, but I 
did not, that the State of Louisiana is getting a lot of money 
from the offshore drilling. I thought you were really getting 
nothing, as you explained what the inland States got from 
either royalties there or distribution of some of your 
resources. But I have found that your State got $969,276,130 
from the years 1986 to 2003, which I think is 17 years.
    Now, what is that money used for? I do not have to ask you. 
I can ask Mr. Angelle, but I do want that on the record because 
we are talking here as if you get nothing, while as a matter of 
fact you get a lot. Do you use it for any of these conservation 
issues that we are talking about?
    Senator Landrieu. Can I answer that, Mr. Chairman?
    The Chairman. You sure can.
    Senator Landrieu. I think you are referring to the amount 
of money that we get between 3 and 6 miles, which is referred 
to as the 8(g) track.
    The Chairman. That is correct.
    Senator Landrieu. It was an agreement that was reached in 
prior Congresses. It sounds like a lot of money. $900 million 
is not small change, but relative to what we have produced in 
that time, it works out to be just a few percentage points 
because from those years, if you go back to 1986, in terms of 
offshore oil and gas production--and I can give you these 
numbers. The staff can figure them up now. Mr. Chairman, it 
sounds like a lot of money, but relatively it is minor. It 
would be less than just a few percentage points. So the case 
remains the same, that Louisiana produces billions of dollars 
every year for the Federal Treasury and, even with the 8(g) 
settlement, still only gets a very few percentage points.
    That money, though, is used for an education trust fund 
which was basically established under the direction of Senator 
Johnston, with the help of Senator Breaux, before I got here, 
which has been used very wisely by our State, Mr. Chairman, to 
help support our universities, to promote early childhood 
education, and unlike Western States that have great 
flexibility in how that money is used, that money in our State 
is dedicated to education, as is a lot of the Texas offshore 
oil and gas money or onshore oil and gas money. They put it in 
a trust fund for education as well.
    The Chairman. But that was your choice.
    Senator Landrieu. Yes, it was. Let me tell you we are happy 
for the 8(g) money because if it was not for 8(g), we would not 
get anything. But still, even counting that, it is a fairly 
small percentage, extremely small percentage of what we 
produce.
    The Chairman. Okay.
    Any other questions of the Secretary?
    [No response.]
    The Chairman. Thank you very much. We are sorry it took so 
long. You are excused.
    Oh, Senator Cantwell, did you have any questions?
    Senator Cantwell. Thank you, Mr. Chairman. I do not have 
any. I will ask the next panel.
    The Chairman. I am sorry I missed you.
    Senator Cantwell. That is all right, Mr. Chairman.
    The Chairman. You got here a little late and I missed you.
    Senator Cantwell. I just arrived, Mr. Chairman.
    The Chairman. You are excused.
    The next panel is: Scott Angelle, secretary of the 
Louisiana's Department of Natural Resources; John Baughman, 
executive vice president of the International Association of 
Fish and Wildlife Agencies; and Nancie Marzulla. We are going 
to do all six of you, if you would get there, please. Charles 
Jordan, chairman of the Conservation Fund, Portland, Oregon; 
Henry Diamond, chairman of Americans for Our Heritage and 
Recreation; and Daniel Clifton, Federal affairs manager for 
Americans for Tax Reform.
    I think we have your cards there. Daniel Clifton. You start 
on this side please. Nancie, you are next. Can we call you in 
the order that I announced you, if you do not mind? So the 
first witness will be Scott Angelle. There you are on the right 
side. Go ahead.
    Now, would you all put your statements in the record? I am 
just ordering that they be made a part of the record, as if you 
read them, and if you can make them shorter than reading them, 
we would greatly appreciate it.

STATEMENT OF SCOTT ANGELLE, SECRETARY, LOUISIANA DEPARTMENT OF 
               NATURAL RESOURCES, BATON ROUGE, LA

    Mr. Angelle. Good morning, Mr. Chairman, members of the 
committee. I bring greetings to you from the great State of 
Louisiana and Governor Kathleen Blanco. My name is Scott 
Angelle. I am the secretary of the Louisiana Department of 
Natural Resources. And while you may wonder where some of the 
people who will speak today are from, my accent will give you 
no doubt as to where I come from.
    [Laughter.]
    Mr. Angelle. I thank you for the opportunity to speak in 
enthusiastic support of the Americans Outdoors Act. I 
appreciate so much the comments of the Senators today 
recognizing Louisiana's vital role in providing the energy that 
this Nation needs. I want to especially thank Senator Landrieu 
for her assistance and her untiring efforts in trying to pass 
this type of legislation that is so crucial to Louisiana.
    We believe this act is a sound concept, to take non-
renewable, one-time resources in the form of OCS revenues and 
to invest them in our renewable resources.
    The coastal States that host our Nation's offshore oil and 
gas production play a critical role in this country's economic 
and energy security. Louisiana, like other producing States, is 
proud to contribute to the fueling of this great Nation. That 
is precisely why we are here today, to put us in a position to 
allow us to continue the oil and gas production that this 
Nation needs.
    But there are costs that come with the national benefits 
that we provide, costs to our environment and costs to maintain 
onshore infrastructure that supports offshore energy 
activities. Sharing OCS revenues with the producing States will 
provide the steady stream of revenue needed to plan and 
mitigate the effects of this production.
    Offshore oil and gas production in the Gulf of Mexico has 
provided close to $140 billion to the Federal Government, as 
Senator Landrieu has said. Up to 90 percent of that figure has 
come from Louisiana. This is the second largest source of 
revenue to the Federal Government, the first being taxes.
    In 2002, more than $7.5 billion in offshore revenues went 
into the Federal Treasury. More than $5 billion, or two-thirds 
of that amount, came from offshore Louisiana. Yet, due to the 
fact that this production was outside the 3 mile jurisdiction, 
we received less than 1 percent of that. The same year, other 
States together received more money, or 50 percent of the 
revenues generated, from mineral production on Federal lands 
within those States. We believe because the Nation benefits 
from drilling on Federal lands and because non-coastal States 
like Wyoming and New Mexico incur impacts from that production, 
we fully support the share of revenues they receive. However, 
Louisiana and other producing States are feeling the full 
impact of offshore oil and gas activity and are not sharing in 
the revenues. I respectfully point out the inequity because it 
is profound.
    Distinguished committee members, Louisiana is losing its 
coast at a staggering rate of 25 square miles a year, a 
football field every 30 minutes. We have lost more than 1,900 
square miles in the last 70 years, an area the size of the 
State of Delaware. And the U.S. Geological Survey predicts we 
will lose another 1,000 if action is not taken now. Natural 
processes like subsidence and storms, combined with the 
unintended consequences of Federal actions like the leveeing of 
the Mississippi River and impacts from offshore oil and gas 
exploration and development, have led to an ecosystem on the 
verge of collapse.
    Louisiana truly is America's wetland. It is not a beach but 
a vast landscape of wetlands, the seventh largest delta on 
earth where the Mississippi River drains much of the United 
States. It is one of the most productive ecosystems in America, 
producing more seafood than any other State in the lower 48. It 
is the nursery ground for the Gulf of Mexico and habitat for 
one of the greatest flyways in the world for waterfowl and 
migratory song birds. These wetlands protect the largest port 
system in the world by tonnage. They protect 2 million people 
and a unique culture from storm surge. They protect America's 
strategic oil reserve. They protect oil and gas infrastructure 
that was designed and built with the expectation of this 
protection. While difficult to imagine, almost 30 percent of 
the oil and gas that is consumed in this country comes through 
the wetlands of Louisiana to be distributed to the rest of the 
Nation. These are truly working wetlands.
    Through the Breaux Act of 1990, we have initiated or 
completed more than 100 coastal restoration projects and gained 
great technical and scientific knowledge. We have also seen 
many long-term partnerships with our five Federal agency 
partners.
    Last year the citizens of Louisiana passed three 
constitutional amendments to address the State cost-share 
capabilities and to limit liability to the State due to coastal 
restoration activities. We have worked hard with the U.S. Army 
Corps of Engineers, producing a comprehensive, long-term plan. 
We will continue to struggle to restore America's wetlands, but 
the cost of restoring is in the billions and neither Louisiana, 
nor any other State in this Union, can do it alone. The 
revenues generated by offshore oil and gas production should be 
shared to help mitigate the impacts, and they should benefit 
from this production and the Nation will surely lose if it is 
not restored.
    On behalf of my State of Louisiana and other coastal 
producing States, I urge Congress to enact the Americans 
Outdoors Act. It would show foresight, vision and would be a 
gift to our Nation for generations to come and put Louisiana in 
the position to continue to aggressively provide the oil and 
gas this country so desperately needs.
    Thank you.
    [The prepared statement of Mr. Angelle follows:]

            Prepared Statement of Scott Angelle, Secretary, 
               Louisiana Department of Natural Resources

    Mr. Chairman and members of the committee, I am Scott Angelle, 
Secretary of the Louisiana Department of Natural Resources. Thank you 
for giving me this opportunity to speak in enthusiastic support of the 
Americans Outdoors Act. I'd like to offer a special thanks to Senator 
Landrieu for her untiring efforts to pass this type of legislation, so 
crucial to Louisiana, a state that is experiencing perhaps the greatest 
environmental crisis in our nation today.
    The Americans Outdoors Act is a sound concept--to take non-
renewable, one-time resources in the form of OCS revenues and to invest 
them in our renewable resources--through the preservation of our 
coasts, our wildlife, our parks, and our history. This legislation is 
vitally important to all coastal producing states and it is absolutely 
critical to my state of Louisiana.
    The coastal states that provide our nation with its offshore oil 
and gas supply play a critical role in this country's economic and 
energy security. Louisiana, like other producing coastal states, is 
proud to contribute to the fueling of this great nation. But there are 
costs that come with the national benefits we provide--costs to our 
environment and costs to maintain onshore infrastructure that supports 
offshore energy activities.
    Sharing OCS oil and gas revenues with the producing states is the 
obvious and appropriate way to provide the steady stream of revenue 
needed to mitigate the effects of this production. As the distinguished 
Members of this committee know, there is precedence for this.
    Offshore oil and gas production in the Gulf of Mexico has provided 
close to $140 billion to the Federal government. Up to 90 percent of 
that figure has come from offshore Louisiana. This is the second 
largest source of revenues to the Federal government. The first is 
taxes.
    In 2002, more than $7.5 billion in offshore revenues went into the 
Federal treasury. More than $5 billion, or two-thirds of that amount, 
came from offshore Louisiana. The same year, Wyoming and New Mexico 
together received about $800 million, or 50% of the revenues generated 
from mineral production on Federal lands within those states. However, 
because the activity off Louisiana's coast was outside the state's 
three-mile jurisdiction, we received only $30 million in 2002, less 
than one percent of what was generated off our coast.
    Because of the benefits the nation receives from drilling on 
Federal lands on shore and the impacts those states incur from that 
production, we fully support their share of revenues. However, 
Louisiana and other producing coastal states are feeling the full 
impact of supporting offshore oil and gas activity, but are not sharing 
in the revenues. I only point out the inequity because it is profound.
    Every coastal state that serves our country through hosting 
offshore oil and gas production must deal with the impacts of that 
activity and both impacts and needs are as unique as their individual 
coastlines. I can only share with you why Louisiana could serve as a 
model for the case to reinvest OCS revenues in our natural resources 
through the Americans Outdoors Act.

                           LOUISIANA'S STORY

    Louisiana is losing its coastal land at the staggering rate of 25 
square miles a year. That's square miles, not acres. That's a football 
field every 30 minutes. We've lost more than 1,900 square miles in the 
past 70 years and the U.S. Geological Survey predicts we will lose 
another 1,000 if decisive action is not taken now to save it. The 
effects of natural processes like subsidence and storms combined with 
the unintended consequences of Federal actions like the leveeing of the 
Mississippi River and impacts from offshore oil and gas exploration and 
development, have led to an ecosystem on the verge of collapse.
    Louisiana's coast is truly America's WETLAND. It is not a beach, 
but a vast landscape of wetlands. It is the seventh largest delta on 
earth, where the Mississippi River drains two-thirds of the United 
States. It is one of the most productive ecosystems in America, 
producing more seafood than any other state in the lower 48. It's the 
nursery ground for the Gulf of Mexico and habitat for the one of the 
greatest flyways in the world for waterfowl and migratory song birds.
    These wetlands provide protection for the largest port system in 
the world by tonnage and protection from storm surge for two million 
people and a unique culture. They also provide protection for America's 
strategic oil reserves and for 80% of the nation's offshore oil and gas 
supply, with almost 30% of all the oil and gas consumed in this country 
coming through these wetlands to be distributed to the rest of the 
nation.
    This country's richest oil and gas resources are located off our 
shore and the majority of support infrastructure runs through 
Louisiana's coast. In 1995, the Deepwater Royalty Relief Act was 
passed. With its passage and the advancement of new technology, the 
deepwater in the Gulf of Mexico became the new frontier for oil and gas 
exploration. By 2002, deepwater production had surpassed production on 
the OCS and there is an estimated 71 billion barrels of reserve in the 
deepwater Gulf--more than Alaska.
    In addition to domestic production, Louisiana's coast is the land 
base for LOOP, America's only offshore oil port that handles about 15% 
of this country's foreign oil and is connected to more than 30% of the 
total refining capacity in the U.S. Much of the support infrastructure 
is located in the most rapidly deteriorating coastal areas.
    Port Fourchon is the geographic and economic center of offshore 
drilling efforts along the Louisiana Gulf Coast. Port Fourchon supports 
75% of the deepwater production in the Gulf. This port and much of the 
nation's energy supply is connected to the mainland by a 17-mile 
stretch of two-lane highway--LA 1--that is inundated by flooding in 
relatively mild storms and is vulnerable to being washed out 
completely. In 2002, Tropical Storm Isidore and Hurricane Lili shut 
down much of the Gulf production off the Louisiana coast. In only 8 
days, more than one billion dollars of raw product was unavailable to 
the U.S. market. Would the American public stand for paying an 
additional $2 to $3 a gallon for gasoline should LA 1 and its 
surrounding wetlands and infrastructure continue to degrade?

                              THE IMPACTS

    The United States depends on the oil and gas shipped through and 
produced in Louisiana's coastal zone. Wetlands and barrier islands 
protect the billions of dollars worth of infrastructure that supports 
the industry from wave and storm damage and is an integral part of the 
nation's energy system. The industrial uses associated with offshore 
exploration and production, pipelines, and canal developments have 
directly and indirectly contributed to marsh destruction, putting the 
industry itself at risk.
    Navigation channels and canals dredged for oil and gas extraction 
have dramatically altered the hydrology of the coastal area, allowing 
salt water into fresh marshes, killing vegetation and habitat. Canals 
have also increased tidal processes that impact the marsh by increasing 
erosion. Channel deepening has caused saltwater intrusion, endangering 
the potable water supply of much of the coastal region.
    There are more than 20,000 miles of pipelines in federal offshore 
lands and thousands more inland. They all make landfall on Louisiana's 
barrier islands and wetland shorelines. The barriers are the first line 
of defense against combined wind and water forces of a hurricane, and 
they serve as anchor points for pipelines originating offshore. These 
islands protect the wetland habitants from an offshore oil spill and 
are critical in protecting the state's wetland-oriented oil and gas 
facilities and thousands of jobs directly and indirectly tied to the 
industry.
    If the barrier islands erode entirely, as expected in the next 50 
years, platforms, pipelines and wells will be damaged in increasing 
numbers. More than 58 percent of the region's wells are located in 
coastal parishes. Most of them are more than 50 years old and were not 
designed to withstand the conditions of open water they could face in 
the next 50 years. More than 30,000 wells are at risk within the 20-
parish coastal area. Wells that were on land only a few years ago are 
now surrounded by water, a situation hazardous to boat traffic and an 
environmental liability to habitat and fisheries.
    Workers, equipment, supplies and transportation facilities that 
accompany the rapid growth of the offshore oil and gas industry depend 
on land-based facilities. Roads, housing, water, acreage for new 
business locations and expansions of existing businesses, waste 
disposal facilities and other infrastructure facilities will be needed 
in localized areas along the Louisiana coast. Existing land-based 
infrastructure is already heavily overburdened and needs expansion and 
improvement, requiring extensive financial infusions from state and 
local governments.
    Louisiana ranks first in the nation in total shipping tonnage, 
handling more than 450 million tons of cargo a year through its deep-
draft ports of New Orleans, Baton Rouge, Lake Charles, South Louisiana, 
Plaquemines Parish and St. Bernard. The ports between Baton Rouge and 
New Orleans are the largest by tonnage carried in the world and serve 
the entire eastern part of the country.
    The state's wetlands and barrier islands protect this 
internationally important port system, as well as navigation channels, 
waterways and anchorages from winds and waves. At present land loss 
rates, more than 155 miles of waterways will be exposed to open water 
in 50 years, leaving this key port system at risk and businesses 
throughout the nation losing preferred links to European and Pacific 
Rim markets.
    Because of our coastal marshes and barrier islands, Louisiana's 
commercial and recreational fisheries are among the most abundant in 
America, providing 25 to 35 percent of the nation's total catch. 
Louisiana is first in the annual harvest of oysters, crabs and 
menhaden, and is a top producer of shrimp. Some of the best 
recreational saltwater fishing in North America exists off Louisiana's 
coast. The reason for this abundance is that our coastal marshes 
provide the nursery for young fish and shellfish.
    The long-term impacts of wetland loss relate to many species of 
fish and shellfish that depend on these habitats, translating into 
economic losses that affect the entire region and the nation. Nearly 
all Louisiana commercial species use the marsh at some stage of their 
life cycle, and fisheries loss will be proportional to marsh loss. By 
the year 2050, the annual loss of commercial fisheries will be nearly 
$550 million. For recreational fisheries, the total loss will be close 
to $200 million a year.
    Louisiana's coastal wetlands provide a diverse habitat for many 
wildlife communities. The wetlands provide life cycle needs for 
resident species and wintering habitat for migratory waterfowl and 
other birds. Land loss and habitat change by the year 2050 will affect 
the nation's wildlife population. Sea birds, wading birds and shore 
birds are expected to decrease, along with raptors and woodland birds. 
Alligators and furbearers will decrease in certain areas of the coast, 
as will the abundance of ducks and geese.
    Louisiana's cities and coastal communities are at great risk as the 
wetlands and barrier islands disappear, leaving people with no buffer 
from storm surges and the force of high winds. Miles of hurricane 
protection levees will be exposed to open water conditions, forcing 
widespread relocation and abandonment of coastal communities.
    Wetlands create friction and reduce high winds when hurricanes hit. 
They also absorb hurricane storm surges. Scientists estimate that every 
2.7 miles of wetlands absorbs one foot of storm surge. The 3.5 million 
acres of wetlands that line Louisiana's coast today have storm 
protection values of $728 million to $3.1 billion.
    A direct hit of a hurricane on New Orleans would be devastating. 
Because the city is literally below sea level and sits ``in a bowl'', 
the potential loss of life and property is incomprehensible, and the 
threat of disaster was not lost on the city's residents.
    With the loss of barrier islands and wetlands over the next 50 
years, New Orleans will be a Gulf Coast city and will lose its wetland 
buffer that now protects it from many effects of flooding. Hurricanes 
will pose the greatest threat, since New Orleans sits on a sloping 
continental shelf that makes it extremely vulnerable to storm surges.
    More than two million people in inland south Louisiana will be 
subject to more severe and frequent flooding than ever before. Coastal 
communities will become shorefront towns, and the economic and cultural 
costs of relocation are estimated in the billions of dollars.
    South Louisiana's unique culture is a national treasure, and the 
very fabric of its distinct way of life is being eroded with the coast 
at great intangible cost to the nation and the world.

                             THE SOLUTIONS

    Louisiana began work in earnest to restore its coast in 1989 when 
the legislature created the state's coastal restoration program. In 
1990, Congress enacted the Breaux Act, or CWPPRA (The Coastal Wetlands 
Planning Protection and Restoration Act). Since then, more than 100 
restoration projects have been initiated or completed. We have gained 
the technical know-how, and, by working with our federal partners, we 
are cementing long-term partnerships as we build projects together.
    Several years ago, the Coast 2050 Plan was developed in partnership 
with the public. It has served as a blueprint to rehabilitate the 
Louisiana coastline, to sustain our coastal resources and to provide an 
integrated multiple-use approach to ecosystem management. The main 
strategies of the plan are watershed structural repair, such as 
restoration of ridges and barrier islands, and watershed management, 
such as river diversions and improved drainage. In making 
recommendations, the process did not view the number of coastal wetland 
acres saved as the only priority, but considered other resources as 
well, such as roads, levees, fish and wildlife resources, and public 
safety and navigation, in making recommendations.
    During the past two years, the state has created the Louisiana 
Coastal Area plan in a 50-50 partnership with the U.S. Army Corps of 
Engineers. The LCA plan addresses the critical near-term needs during 
the next five to ten years and creates a Science and Technology Program 
to ensure the best science and engineering continues to lead the way. 
We are now in the process of putting together a comprehensive plan to 
address the long-term efforts needed to save this coastal landscape.
    Last year, the citizens of Louisiana passed three constitutional 
amendments to address the state's cost share capabilities and to limit 
liability to the state due to coastal restoration efforts.
    Louisiana will continue its struggle to restore America's Wetland, 
a landscape so rich in natural resources and of such benefit to the 
entire nation. To continue to let it disappear is a national tragedy. 
The cost of will be in the billions and Louisiana, like other coastal 
producing states, cannot do it alone. The revenues generated by the 
offshore oil and gas production off their shores should be shared with 
these states to mitigate the impacts. The nation is the beneficiary of 
this production and the nation will surely be the loser if the 
investment is not made now to invest in the preservation of our 
renewable natural resources.
    On behalf of my state of Louisiana and the other coastal producing 
states, I urge Congress to enact the Americans Outdoors Act. It would 
show extraordinary foresight and vision and would be a gift to our 
nation for generations to come.

    The Chairman. Thank you very much.
    Before we go to the next witness, let me say to you and to 
those residents of your State and the public officials that 
this Senator is fully aware of what you do for our Nation. I 
tell you, if some of our other States who are coastal States 
just knew what is happening to America's future because we will 
not maximize our oil production, if they just knew it and could 
see it, it probably would be impossible for them to maintain 
their current posture.
    But let me tell you how difficult it is. We had an item in 
a bill, you might remember, Larry, that merely said let us 
inventory the value, the resources that are on our coastal 
States that are not being explored. Let us just find out how 
much might be there. That was stripped from the bill by a vote 
because there are States who are even frightened that we would 
know how much is there.
    But your State is bearing the burden and producing huge 
quantities, and frankly I would like to do everything I can to 
help you. I am not sure that this year is the right time or 
this bill is the right one. But you know that you have a 
Senator that truly believes that we owe you a lot, and I will 
get back in a minute to asking you a question about what you do 
with the moneys that you get now.
    Let us proceed to John Baughman. Would you please give us 
your statement and abbreviate it please. Oh, I am supposed to 
take Charles Jordan. Excuse me.
    [Laughter.]

    STATEMENT OF CHARLES JORDAN, CHAIRMAN OF THE BOARD, THE 
                CONSERVATION FUND, PORTLAND, OR

    Mr. Jordan. If I was standing, you would not have missed 
me.
    [Laughter.]
    Mr. Jordan. Thank you very much, Mr. Chairman.
    The Chairman. My brain told me what I should do.
    [Laughter.]
    Mr. Angelle. Thank you very much and also to Senator 
Landrieu and Senator Alexander for this opportunity.
    Mr. Chairman, thank you for my opening remarks. I really 
appreciate you not requiring me to read this document because 
you have more copies than I do.
    You talked about the threat to America, America's future. 
That is what I want to talk about. Today I am not representing 
the Conservation Fund. I am speaking for State-side Land and 
Water and that includes local areas. When you talk about 
America's future, you have got to look at State and local 
parks.
    Lamar, in 1985-87, as we, along with 14 others, traveled 
all around this country for 18 months talking to Americans 
about the great outdoors, thousands of them came and they 
shared with us their dreams and their hopes for the future. And 
we were so excited because we thought we were going to make a 
difference. We completed this report, and this is chapter 2. It 
says our greatest recreation needs are in urban areas close to 
home. How quickly we forget.
    And I will tell you I have come 3,000 miles to share these 
moments. I am not going to be able to finish, so cut me off 
when you please.
    But talking about a threat, our young kids, 80 to 85 
percent of all Americans live in and around cities. Now, who is 
serving those people? We are. They are not going to national 
parks. They are the ones who are going to inherit these 
national parks. All of these national treasures you are now 
talking about setting aside and we are arguing about today, who 
is going to assume responsibility for those? The people that I 
am serving today in urban parks, and they do not know anything 
about this responsibility you are going to drop on them. They 
are not factoring those costs into their future. They want to 
buy a home. They want a car. They want to travel. But when they 
realize the responsibility they have, they are not prepared. So 
you cannot forget urban parks and State parks. That is where 
the people are.
    I sat there and as I listened to you talk about the 
national parks--and I used to hear the President talk about 
national treasures, and I would just wait for him to say 
something like, well, all of our national treasures are not at 
the national level. We have urban treasures. We have State 
treasures. No one ever talks about our State and our local 
treasures. We have parks there that carry quite a story that we 
like to share with our young people.
    I just became a grandfather, and I will tell you it changed 
my life because now at the age of 66, I wanted to rest. I 
wanted to retire and give up, but I cannot. When Mia came into 
this world, I looked at that little girl and I said, boy, in 
order to give her a fighting chance, I have got to get back in 
the race. I have got to try to do all I can to make this a 
better place.
    I take her to the park often, local parks. She is too young 
to go to national parks, but I am counting on that because the 
national treasures are just as important to me as the urban 
treasures. It is not going to be enough for me to take her 
where she can have fun and games and play. It is coming a time 
when I need to take Mia to some of our national treasures, to 
the underground railroad. I need to tell her what went on in 
this place. I need her to feel proud of Harriet Tubman, but 
also I need Mia to know that she and her white friends are 
going to do a lot better than you and I have done. And I want 
her to bring her white friend along when I take her to these 
places so as we tell the stories--Harriet Tubman could not have 
succeeded without white friends. You and I both know that.
    So we do have a history of succeeding by working together, 
but all we talk about are the negatives, the slavery and 
discrimination. When are we going to talk about the positives? 
We have a history of doing things together. I want Mia to know 
about those. Yes, I want her to know about slavery and 
everything else, but I need to take her to those special 
places. We need the place. The books are not enough. I want to 
take her to the grounds and I want to show her what happened 
here and why it is important that you never forget this, Mia.
    I want her to know about the responsibility that we have 
and that we want to make sure that our national parks and our 
State parks and our urban parks work together, which they do 
not now. We talk it. We got a lot of verbiage, but we really do 
not collaborate. That is why we all need lots of money.
    Senator Landrieu is right. In the last 3 to 4 years, we 
have not had any UPARR money, and therefore the city would not 
invest in those capital projects because they know they cannot 
complete them. I heard a lot of talk about partnership. That is 
what we want. We are not asking you to pay for everything. But 
these are challenging times for us in urban areas. And I will 
not get so excited. I will slow up and try to calm down now.
    But we need partnerships and I know it appears as if you 
are supporting the State-side Land and Water. But let me tell 
you, it is needed, but I also want to protect those 17 sites in 
the National Park System that are of significance to African 
Americans. I do not need to tell you. Look around this room. 
Look around this room. There are 73 million blacks and browns 
in America. Now, can we win this one without them? Can we win 
the conservation war without them? No. 73 million people are 
not involved in the great outdoors movement. Look at it.
    We are facing some challenges, and where are these people 
now? In and around cities. And who is serving them? We are in 
our urban parks, and we are having to close down parks. Now, 
that is not a good testimony.
    That is where Mia goes. That is where she meets people of 
different colors and different backgrounds, and they learn to 
play together. They learn to win together. And if they learn to 
play and win together, they are going to continue that through 
their adult lives.
    Every kid cannot dunk a basketball or hit a home run or 
kick a football, but every kid has a need to at least one time 
in his or her life to run home that day and say, Mom, today I 
was No. 1. That is what we do in urban parks. We help kids win. 
We give them a taste of victory. We help them to learn to work 
together. You cannot do that in national parks.
    We need an effective national system of parks. We have a 
National Park System, but we do not have a system of parks. 
There are certain things that are not appropriate for national 
treasures, but maybe we can say for this reason, we prefer that 
you not use that machine in this park simply because it 
destroys this. However, our State parks or our urban parks 
allow you to do that. If we work together, we could collaborate 
a lot more. We do not have that.
    So today when you read my report, you already know 
everything that is in there. You have heard it many times 
before. But, Mr. Chairman, I just would hope that you would 
give some very strong consideration to the challenge that we 
face at the State and local level. I hate competing with 
police, fire, homeless, houses. I cannot compete. Parks and 
recreation are considered to be fun and games. We are not 
considered a basic service. And yet, there is no greater 
partner in an urban area than parks and recreation.
    And I will close with this. Tonight at this very moment, 
there are thousands of kids running up and down community gyms, 
soccer fields, baseball fields, thousands, different colors, 
different backgrounds. They are not harming themselves nor are 
they harming other people. Where are they going to go? When we 
close, are they going to go the library and sit down and study? 
We know better.
    So today I am asking that you would give us some assistance 
and maybe with a little help, we can keep our promise not to 
Mia and her generation, but to the Roosevelts and the Pinchots 
and all of the others because we made a commitment and we hope 
that maybe just with a little help we can ensure that our 
legacy would be no less than our inheritance.
    Thank you.
    [The prepared statement of Mr. Jordan follows:]

     Prepared Statement of Charles Jordan, Chairman of the Board, 
                  The Conservation Fund, Portland, OR

    Chairman Domenici, Ranking Member Bingaman and Members of the 
Committee, I wish to express my appreciation to you for holding today's 
hearing on the Americans Outdoors Act (S. 2590) and for the opportunity 
to testify on the provisions in the bill relating to the ``stateside'' 
component of the Land and Water Conservation Fund (LWCF) and the Urban 
Park and Recreation Recovery Program (UPARR).
    My testimony is based on my thirty-year career as a park official 
in Portland, Oregon and Austin, Texas, where I worked to provide 
recreational opportunities directly to the public. My testimony also 
draws upon my work with state and local park directors, the National 
Park Service and other federal land managing agencies. Currently, I 
serve as the Chairman of the Board of The Conservation Fund, a national 
non-profit organization with a mission to protect wildlife habitat, 
historic sites, working landscapes and community open space. I am 
testifying in my personal capacity.
    Before discussing the Americans Outdoors Act, I wish to express my 
appreciation to the Senate and the Congress for including funds for the 
stateside LWCF program in the Interior appropriations bills for the 
last several years. At the state and local level, these funds 
strengthen and promote partnerships between state, county and local 
governments and between public agencies, the non-profit sector, 
businesses and other stakeholders. Most importantly, these funds give 
local governments the financial tools they need to provide access to 
affordable leisure opportunities in a clean and safe environment.
    President Bush's commitment to fund the stateside program in his 
budget requests, coupled with Congress's support for the President's 
requests, has revived the stateside program. This recent funding has 
also laid the foundation to fulfill the promise of the Land and Water 
Conservation Fund through dedicated funding, as embodied in the 
Americans Outdoors Act.
    Senator Alexander and Senator Landrieu have performed a great 
service to our country by introducing the Americans Outdoors Act. This 
bipartisan legislation requires annual allocations of $450 million for 
stateside LWCF and $125 million for UPARR, along with funding for state 
wildlife grants and impact assistance to coastal communities.
    Almost twenty years ago, I had the opportunity to serve as a 
commissioner with Senator Alexander, who chaired President Reagan's 
Commission on Americans Outdoors. To carry out the vision outlined by 
President Reagan, the Commission recommended expanding federal 
investments in state and local parks and open space conservation. 
Today, Senator Alexander's bill implements one of the Commission's top 
recommendations--to make the Land and Water Conservation Fund a 
dedicated trust to pay for land acquisition and for state and local 
facility development and rehabilitation.
    In the fourteen years since the Commission's report, the need for 
federal support for our states, counties, cities and towns has only 
grown.

                             STATESIDE LWCF

    Following my work on the Commission, I served as the director of 
the Department of Parks for the City of Portland, Oregon. During that 
time, I worked with my staff and partner organizations to ensure 
affordable and accessible recreational opportunities for all the city's 
residents.
    To meet these goals across the country, park and recreation 
agencies at the state, regional, county and local levels are working to 
conserve open space, provide recreational facilities and promote 
outdoor recreation.
    State and local parks provide the public with opportunities to go 
for a walk, run along a trail, bike along a stream or river, play team 
sports on a ball field, go for a swim in a municipal pool, enjoy a 
family picnic and engage in other activities. State parks also provide 
opportunities for camping, boating and hiking within a short drive of 
our cities and suburbs.
    Thanks to the vision and leadership of Congress and this Committee, 
our country has the world's greatest system of National Parks, National 
Forests, National Wildlife Refuges and other public lands. These 
national treasures are complemented by our country's great system of 
state and local parks, to form a network of parks and open space from 
the inner cities to the highest mountain peaks.
    For most Americans, their only park and recreational experience is 
close to home, in their local neighborhood at a basketball court, 
tennis court, playground or local beach or within a days drive from 
home.
    Mr. Chairman, at a time of international uncertainty and threats to 
our security at home, Americans need places in their neighborhood to 
escape from the stress of daily life more than ever.
    Through parks and recreational programs, we build communities. 
Building communities means connecting people to their neighborhoods, 
one another and to the land.
    Mr. Chairman, for over thirty years as I've traveled the country 
and visited my colleagues at the state and local level. I've seen the 
challenges facing many state and local parks agencies and community 
organizations along with the benefits that stateside and UPARR funding 
can provide to cities, towns, small communities and to urban 
neighborhoods.
    Unfortunately, conserving land and developing recreational 
infrastructure is expensive. These capital expenses must compete with 
increasing budget pressures to ensure public safety, educate our 
children and provide for other local infrastructure needs. Cities, 
counties and states are struggling to pay salaries for public safety 
personnel, teachers, park and recreation employees and other municipal 
employees. Despite these budgetary challenges, state and local 
governments are working to ensure that local recreational facilities 
and state parks are open, clean and safe.
    In addition to providing recreational opportunities, many states 
are working to manage urban sprawl, changes in land tenure and 
decisions by large forestland owners to consolidate land holdings. In 
many states in the east, changes in land ownership patterns have 
created one-time opportunities to conserve large tracts of land for 
recreation, water quality and fish and wildlife habitat.
    To meet these challenges, local leaders and the public have voted 
to support parks and open space conservation. Out of a total of 134 
ballot measures in November 2003, voters approved 100 ballot 
initiatives to raise $1.8 billion in non-federal funding for land 
conservation. In many communities, the public understands that parks 
and recreational opportunities are not just amenities; they are 
necessary to promote local economic development to attract and retain 
businesses and jobs.
    The Bush Administration and the Congress have also supported the 
stateside program in recent years. These dollars benefit people 
directly, by supporting a variety of projects on the ground, in all 
fifty states.
    As a former parks director, I can testify that these annual 
appropriations are very much appreciated. Since 1971, Portland, Oregon 
has received $5.5 million to acquire land at six parks. While in the 
grand scheme of the federal budget this figure may seem small, at the 
local level this funding has had a big impact.
    State and local governments are not asking the federal government 
to pay for operations and maintenance at state and local parks. State 
and local governments are asking the federal government to support this 
legislation to help pay for the one-time cost of land acquisition and 
facilities development through the 50/50 match program and to provide 
greater predictability for budgeting and long-range planning.
    Supporters of full funding of the stateside program include the 
National Governor's Association, National Association of Counties, U.S. 
Conference of Mayors, National Recreation and Park Association, 
National Association of State Parks Directors, National Association of 
State Outdoor Recreation Liaison Officers and other organizations 
representing municipal governments and officials. In addition to local 
agencies, these funds will benefit many of our partners--the local Boys 
and Girls Clubs, YMCAs, YWCAs and other groups.
    By passing this bill, Congress can fulfill the original promise of 
a program that has a forty-year track record of success and which has 
funded over 40,000 projects in every corner of our country.
    The funds that Congress provided for stateside LWCF have helped 
underserved neighborhoods and state open space programs throughout 
America and have yielded tremendous dividends for children, young 
people, young adults, families and senior citizens. These dividends are 
enjoyed by every income and ethnic group.
    The stateside program works. It works in big and small cities, 
suburban areas, and rural counties. Examples include:

  <bullet> Bozeman, Montana. A $50,000 LWCF grant was part of a 
        successful project to complete the development of Sundance 
        Springs Park to enable the acquisition of 10.25 acres and to 
        promote access to Bozeman's urban ``Main Street to the 
        Mountains'' trail.
  <bullet> Willcox, Arizona. The City of Willcox received LWCF funds to 
        install a new sprinkler system and lights for the Rodeo and 
        lights for the Quail Drive Sports Park.
  <bullet> Transylvania County, North Carolina. The State of North 
        Carolina received stateside funding to support a partnership to 
        acquire 10,000 acres of lands in and around the Jocasse Gorges 
        to establish Gorges State Park.
  <bullet> Juneau, Alaska. The City of Juneau Parks and Recreation 
        Department received stateside LWCF funds to help open a new ice 
        skating rink at the Treadwell Arena in 2003.

    State and local governments seek federal assistance to defray some 
of the costs for these types of projects. They ask Congress to provide 
greater certainty and predictability for planning and funding long-term 
capital projects and other initiatives, which would be provided by this 
bill. Land acquisition and facilities development are capital 
expenditures and state and local officials need greater certainty to 
budget and plan for these improvements.
    As provided for in the bill, the Land and Water Conservation Fund 
deserves permanent funding, because the LWCF is tied to a dedicated 
funding source--offshore oil and gas royalties. Fully funding LWCF is 
consistent with other federal wildlife and conservation programs that 
enjoy dedicated funding, such as the Dingell-Johnson and Wallop-Breaux 
programs. In addition, the federal transportation reauthorization bill 
is funded via its own funding source--the federal gasoline tax. Last 
year, Congress approved spending for airport improvements which are 
paid for by airport user fees and other revenue sources. Four years 
ago, Congress approved mandatory spending for payments to rural 
counties which rely on timber receipts from federal timber harvests.
    S. 2590 does not seek special treatment for park, wildlife and 
coastal programs. By providing dedicated LWCF funding to states, Indian 
tribes and Alaska Native Corporations from 2005-2010, the bill puts 
stateside LWCF, urban park, wildlife and coastal funding on par with 
other federal programs which have dedicated funding sources.
    With the 50/50 match requirement for stateside LWCF, the Alexander-
Landrieu bill will also leverage significant non-federal funding--
approximately $2.25 billion over the life of the bill.

               URBAN PARK AND RECREATION RECOVERY PROGRAM

    I commend Senators Alexander and Landrieu for including funding for 
UPARR in the bill. When it established the UPARR program in 1978, 
Congress authorized the National Park Service (NPS) to provide federal 
matching grants and technical assistance to help ensure that young 
people in economically-distressed cities and neighborhoods have access 
to high quality recreation facilities.
    In the last twenty-five years, UPARR has provided 1,461 grants to 
380 local jurisdictions in 43 states, the District of Columbia and 
Puerto Rico. These grants have rehabilitated existing facilities, 
promoted innovative programs, and funded planning activities.
    Most of the UPARR grants have been used to rehabilitate 
playgrounds, recreation centers, ball fields, neighborhood parks, 
swimming pools, picnic areas and basketball and tennis courts. These 
grants are matched by the local jurisdiction on a 70/30 basis.
    With the Congressional appropriations between FY 2000 and FY 2002, 
the National Park Service has worked in close partnership with our 
cities--both large and small in many regions of our country to fund on 
the ground improvements.
    I know first hand the benefits that UPARR provides. In Portland, 
UPARR funding allowed us to convert an abandoned fire station into the 
Interstate Fire House and Cultural Center and to rehabilitate the 
University Park Community Center.
    Other recent examples include:

  <bullet> Covington, Kentucky. The NPS provided a $120,000 grant to 
        rehabilitate a 6.3 acre park by installing a new play surface, 
        new playground equipment and replace a picnic shelter.
  <bullet> Kansas City, Missouri. The NPS provided a $500,000 grant to 
        rehabilitate the pool facility at Swope Park, in an 
        economically-depressed neighborhood.
  <bullet> Las Vegas, Nevada. The NPS provided $425,000 to rehabilitate 
        basketball courts, a skateboard rink, playground equipment and 
        restrooms.
  <bullet> Phoenix, Arizona. The NPS provided a $500,000 grant to 
        replace the current recreation building, water play area, 
        playground equipment and softball field lighting.

    To build on the past success of the program, our cities need the 
$125 million provided in the bill.

                              FEDERAL LWCF

    In my capacity as Chairman of The Conservation Fund, a nationwide 
non-profit organization, I've learned that our nation's landscape is as 
diverse and varied as our nation's population. Our landscape 
encompasses the coasts, the cities, piedmont and foothills, mountain 
valleys and the backcountry. Our nation's built environment is also 
diverse and varied, from the downtowns of our large and small cities, 
to the suburbs, to rural county land, working landscapes and remote 
communities.
    Over the last forty years, this Committee and the Congress have 
recognized the diverse needs of our lands and our people. Starting 
forty years ago with the Land and Water Conservation Fund Act, Congress 
passed a series of bills authorizing a suite of federal grant programs 
to address our most pressing conservation and recreation needs. To 
build on these legislative accomplishments, we need adequate resources 
to carry out the programs that Congress has authorized.
    We also need the flexibility provided by the federal LWCF program. 
On the ground, local governments, conservation organizations and their 
partners are using all available tools to preserve our lands and 
waters. Full funding of the federal LWCF program is an important tool 
for land conservation, especially as acquisitions grow more creative 
and complex.
    Successful conservation initiatives often require a mix of federal, 
state, local, or private funding. Federal LWCF is an essential 
ingredient for projects that are locally supported and respectful of 
the needs of landowners.
    By fully funding the stateside and federal LWCF, we can ensure that 
our people can enjoy a nationwide network of local, state and national 
lands dedicated to recreation and land and water conservation. By 
approving this bill, Congress can protect, enjoy and pass on America's 
great natural resources to future generations.
    Thank you for the opportunity to testify in support of the bill. I 
would be pleased to respond to question.

    The Chairman. Thank you very much.
    Senator Landrieu. Amen.
    The Chairman. If we were not in a Senate hearing, we would 
applaud you.
    [Laughter.]
    Mr. Jordan. I thank you for hearing me.
    The Chairman. I have 11 Mias. So I have a bigger job than 
you.
    Mr. Jordan. That means you are wealthier than I am right 
now.
    [Laughter.]
    The Chairman. We are going to John Baughman.

     STATEMENT OF JOHN BAUGHMAN, EXECUTIVE VICE PRESIDENT, 
    INTERNATIONAL ASSOCIATION OF FISH AND WILDLIFE AGENCIES

    Mr. Baughman. Thank you, Mr. Chairman, and thank you for 
trying to put me on before Mr. Jordan. It would have been a lot 
easier.
    [Laughter.]
    Mr. Baughman. My name is John Baughman. I am the executive 
vice president of the International Association of Fish and 
Wildlife Agencies. Our association was founded in 1902 and we 
are the organization of all the public agencies charged with 
the protection and management of North America's fish and 
wildlife resources. Our governmental members include the fish 
and wildlife agencies of all 50 States, plus the provinces and 
territories and Federal Governments of the United States, 
Canada, and Mexico.
    The association sincerely appreciates the opportunity to 
appear before you today to share with you the collective and 
continued strong support of the 50 State fish and wildlife 
agencies for the assured wildlife conservation and outdoor 
recreation funding reflected in S. 2590, the Americans Outdoors 
Act. I would like to start by thanking you, Senator Domenici 
and Senators Alexander and Landrieu, for again elevating and 
reengaging this discussion on what we think is a very important 
merits of the conservation outdoor recreation funding in this 
country.
    At your request, Mr. Chairman, I will be brief. I will 
summarize my written testimony, and I think I can do that in 
three points.
    First, natural resource conservation and outdoor recreation 
are important issues to America, typically ranking right up 
there with national security, the economy, and social programs. 
I wish I could say that as well as my colleague here did. As 
our population approaches 300 million in this country, wildlife 
conservation just does not happen. Like clean air and clean 
water, it takes a reliable and ongoing commitment of human and 
financial resources.
    Second, unless Congress makes a multi-year commitment, 
history shows that we will continue to postpone conservation 
efforts which then cost more and result in substantial impacts 
on public and private lands and on our local communities. We 
need only to look at the 1,200 species right now on the 
threatened and endangered species list to witness the 
financial, administrative, and regulatory burdens that 
accompany underfunded conservation.
    Finally, history also clearly demonstrates the tremendous 
success of fish and wildlife conservation in this country when 
dedicated and assured funding is available. At the turn of the 
century, we could look at white-tailed deer, wild turkeys, elk, 
pronghorn antelope, most of the water fowl in this country, 
many species of migratory fish. They were all depleted, some of 
them near extinction. With the assured and dedicated funding 
from the State hunting and fishing licenses plus Federal excise 
taxes on sporting arms and ammunition that came along in 1937 
with the Pittman-Robertson Act, the excise taxes on fishing 
equipment that came along in 1950 with the Dingell-Johnson Act, 
supplemented by motorboat fuel and small engine Federal-side 
tax in 1984 with the Wallop-Breaux amendments, the States have 
been able to join with our Federal, nonprofit, and corporate 
partners, along with the private landowners of this country, to 
restore all these species I mentioned and their habitats. And 
likewise, the 20 or so species that we have already removed or 
should be removed, could be removed from the threatened and 
endangered species list are those species where adequate 
funding has been devoted. You can look at the examples of 
peregrin falcons, bald eagles, grizzly bears, species where we 
put the money and we have made the progress.
    Now it is time to provide conservation for all of America's 
wildlife, not only those species of fish and wildlife 
considered game or those already listed as threatened and 
endangered but also the two-thirds of the Nation's wildlife 
which presently receive too little attention and many of which 
could be tomorrow's next threatened and endangered crises.
    America's wildlife agencies have the expertise, they have 
the will, and with assured funding, they would have the 
resources to work with our Federal and private partners, 
including the Nation's landowners, to continue our successes 
which made America's system of fish and wildlife conservation 
the model which other countries seek to emulate.
    In closing, Mr. Chairman, the International Association of 
Fish and Wildlife Agencies stands ready to assist you and the 
committee in whatever way we can to help make the programs 
under the Americans Outdoors Act a reality for all our 
citizens. I thank you and we would be happy to answer 
questions.
    [The prepared statement of Mr. Baughman follows:]

    Prepared Statement of John Baughman, Executive Vice President, 
        International Association of Fish and Wildlife Agencies

    Thank you, Mr. Chairman. My name is John Baughman of the 
International Association of Fish and Wildlife Agencies. The 
International Association of Fish and Wildlife Agencies was founded in 
1902 as a quasi-governmental organization of public agencies charged 
with the protection and management of North America's fish and wildlife 
resources. The Association's governmental members include the fish and 
wildlife agencies of all 50 states, plus the provinces and territories 
and federal governments of the U.S., Canada, and Mexico. The 
Association has been a key organization in promoting sound resource 
management and strengthening federal, state, and private cooperation in 
protecting and managing fish and wildlife and their habitats in the 
public interest.
    The Association sincerely appreciates the opportunity to appear 
before your Committee today to share with you the collective and 
continued strong support of the 50 State Fish and Wildlife Agencies for 
assured funding for wildlife conservation and outdoor recreation as 
reflected in S. 2590, The Americans Outdoors Act, a bill that will 
ensure a conservation legacy for all Americans. This bill is 
unquestionably one of the most significant legislative initiatives for 
fish and wildlife (and other natural resources) conservation in the 
last several decades. Whether an American hunts, fishes, bird watches, 
hikes, plays soccer or just enjoys the peace and tranquility of being 
outdoors appreciating the vast natural bounty of our Nation, this bill 
will ensure that our children and future generations will enjoy this 
bountiful natural wealth.
    Let me also thank you, Chairman Domenici and Senator Alexander and 
Senator Landrieu for re-engaging serious deliberations over the merits 
of and need for assured funding for conservation and outdoor 
recreation. You have created the momentum that brings us back here 
today to consider a bill that is desperately needed and strongly 
supported by the majority of the American public and members of 
Congress, as reflected in the progenitor to S. 2590, CARA. Mr. 
Chairman, we stand committed to working with you and this Congress as 
we have in the past.
    Natural resource conservation is an extremely high priority for the 
American people as recent polls again affirm. Support for S. 2590 sends 
an unmistakable message that funding certainty for conservation has 
finally achieved the standing in the national budget that it truly 
deserves. As you know and appreciate, Mr. Chairman, natural resource 
conservation and recreation programs contribute significantly to our 
quality of life, our socio-economic stability, and our Nation's health 
and well-being. Just as Social Security is a financial safety net, 
conservation of our natural resources is the safety net for American's 
quality of life and their environment. Unless Congress makes a multi-
year commitment, history indicates that we will continue to postpone 
conservation efforts which then cost more and result in substantial 
impact on private and public land because many species ultimately 
become threatened and endangered.
    Stewardship of our fish and wildlife, land, and coastal resources 
is important to every one of our citizens. It is particularly important 
to future generations who will either benefit from our prudent care for 
these resources or be burdened by our failure to do so. Good 
stewardship cannot be imposed from Washington, DC, or defined by 
regulation; it needs to be nurtured and supported at the state and 
community level where we live. It is clear that our nation's long-term 
resource conservation challenges cannot be solved by one-time fixes, 
cookie-cutter answers, or simply passing more regulations. The history 
of fluctuations and constantly shifting priorities as reflected by 
year-to-year appropriations underscores the fact that annual funding 
simply is not adequate to meet current needs or address future 
problems. There needs to be a comprehensive and sustained federal, 
state and local stewardship commitment. For these reasons, assured 
funding and state-based decision making are the most important 
fundamental provisions of the Americans Outdoors Act.
    As you know, Mr. Chairman, restoring declining species to a 
sustainable level is a complex, multi-year endeavor that requires the 
certainty of available funding for success. As an example, restoring 
the nation's symbol--the bald eagle--to its current status has taken 
four decades and it took a lot more than just banning the use of 
certain pesticides to achieve this goal. In this case, funds were 
available under the Endangered Species Act, but no secure funding is 
currently available for the many imperiled non-game species from whose 
ranks will come the next listed species. With assured and dedicated 
funding, we can implement proactive conservation to address the early 
warning signs of decline. It is far less expensive to restore species 
before they become threatened or endangered, and our opportunities to 
use voluntary incentive-based, non-regulatory programs are much 
greater.
    Our experience with game and sportfish clearly demonstrates the 
tremendous success of fish and wildlife conservation efforts when 
dedicated and assured funding is available. As you know, Mr. Chairman, 
at the beginning of the last century, America's fish and wildlife 
populations were in dire circumstances from several factors. Through 
the efforts of America's sportsmen and women, working with the hunting 
and fishing equipment industry and state and federal fish and wildlife 
agencies, Congress statutorily established the Federal Aid in Wildlife 
Restoration Act (Pittman-Robertson) in 1937 and Federal Aid in 
Sportfish Restoration Act (Dingell-Johnson/Wallop-Breaux) in 1950 to 
provide dedicated and assured funding to the State fish and wildlife 
agencies for game and sportfish species. Those funds, along with 
license fees paid by hunters and anglers, have provided the foundation 
for America's successful fish and wildlife conservation programs over 
many years and brought back species like the white-tailed deer, 
pronghorn antelope, wood duck, wild turkey and striped bass. Now is the 
time to build on that success to help all the nation's wildlife with 
funding provided under the Americans Outdoors Act. We have the 
expertise, we have the will, and with assured funding we will have the 
resources to continue our successes which make America's system of fish 
and wildlife conservation the model which other countries seek to 
emulate.
    Also, as you are aware, private land habitats are instrumental in 
maintenance an restoration of much of our nation's wildlife. Assured, 
long-term funding is necessary to create voluntary incentives for 
private land stewardship, to provide technical assistance, and to 
develop cooperative conservation agreements. These efforts would be 
designed to reduce the need to list endangered species by funding 
preventative conservation programs that restore declining species 
before they reach a point where listing is necessary. This helps 
landowners to become part of the solution through non-regulatory, 
incentive-based programs that help integrate their land management 
intentions with fish and wildlife conservation efforts.
    The Association has testified several times before this Committee 
(and others) in the previous Congresses on CARA and other proposals 
that would have dedicated Outer Continental Shelf (OCS) revenues to 
State-based enhancement programs for fish and wildlife conservation, 
conservation education, and wildlife-associated recreation; land and 
water conservation; general outdoor recreation; and coastal 
conservation and impact assistance. The Association strongly supports 
the Americans Outdoors Act because it is a bipartisan, consensus-built, 
common sense approach to conservation. It makes good economic sense, 
good common sense, and good political sense.
    The coalition of organizations that has come together (again) in 
support of the Americans Outdoors Act truly represents a broad and 
diverse grass-root alliance of the business community, conservation 
organizations, elected officials at all levels of governments, 
industry, the recreation community and other interests. Citizens from 
``soccer moms'' to hunters and wildlife photographers strongly support 
S. 2590. The Americans Outdoors Act places decisions on identifying 
needs and spending priorities at the State and local level which we 
believe can best reflect the interest of our citizens. This coalition 
truly represents America's interest in our natural and cultural 
heritage, and our need to conserve that heritage for future 
generations.
    Also, as you know, Mr. Chairman, outdoor recreation is one of the 
fastest growing industries in this country, and the Americans Outdoors 
Act will position the State fish and wildlife agencies to help local 
communities identify and develop wildlife-related tourism 
opportunities. Programs to capture these opportunities can 
significantly enhance the economy of these rural communities.
    Let me briefly share with you today two perfecting amendments the 
Association would urge be made to the Wildlife Title (Title IV) of the 
Americans Outdoors Act. The Association staff will continue to work 
closely with your Committee staff on the details.
    First, we ask for your serious consideration of eliminating the 
existing (in statute) 10% spending cap restriction on wildlife-related 
recreation expenses. In 1996, over 62 million Americans participated in 
wildlife viewing with an economic impact of nearly $30 billion. 
Wildlife-related recreation fosters understanding, appreciation, and 
support, and it significantly contributes to building the public's 
commitment to wildlife conservation which is essential to achieving the 
on-the-ground conservation goals.
    Second, we strongly encourage you to allow, at the discretion of 
the State fish and wildlife agency, the expenditure of up to 10% of the 
Title IV funds for conservation law enforcement activities. As you 
know, state fish and wildlife conservation officers have many 
opportunities to work with landowners and the public to implement 
voluntary, proactive fish and wildlife protection and public education 
and outreach programs. They also prevent poaching, or over-utilization 
of fish and wildlife resources, thereby reducing the likelihood that a 
species may become threatened or endangered in the future. Further, 
they provide for public safety, security, search and rescue functions, 
and resolution of outdoor user conflicts. In short, conservation law 
enforcement is an integral component of a comprehensive state program 
for conservation of all wildlife and should, at the discretion of the 
State, be eligible for up to 10% funding under the Wildlife title of 
the Americans Outdoors Act.
    Mr. Chairman, in closing, the Association stands ready to assist 
you in whatever way we can to make programs which would be funded under 
Americans Outdoors Act a reality for all of our citizens. Let's work 
together to advance this legislation as expeditiously as possible and 
provide a future for our citizens that we can all be proud of passing 
on.
    We would be pleased to answer any questions the Committee may have.
    Thank you for the opportunity to share the Association's 
perspectives with you.

    The Chairman. Thank you. I am very sorry on your name.
    Mr. Baughman. I should spell it differently.
    The Chairman. That is right.
    [Laughter.]
    The Chairman. Henry Diamond.

             STATEMENT OF HENRY L. DIAMOND, CHAIR, 
           AMERICANS FOR OUR HERITAGE AND RECREATION

    Mr. Diamond. Mr. Chairman, thank you for having us. I 
represent the Americans for Our Heritage and Recreation, which 
is a very broad coalition of folks, ranging from urban people 
to wilderness advocates. We, of course, thank the committee for 
having us and we thank, of course, Lamar Alexander and Senator 
Landrieu.
    Our basic thrust is we applaud the introduction of this 
bill but urge that Federal funding be added to it to fund our 
national parks and forest and wildlife areas.
    The Land and Water Fund really has a wonderful, long 
history. In 1958, Congress created the Outdoor Recreation 
Resources Commission. It made recommendations to the President 
and the Congress, and the centerpiece was the Land and Water 
Fund. The chairman of the Outdoor Recreation Commission was one 
of America's great conservationists, Laurance S. Rockefeller. 
We lost Laurance last week. He always cited the creation of the 
fund as one of his proudest achievements, and indeed, it is a 
monument to his leadership.
    By the way, your colleague, Senator Kyl's father was a 
member of that commission. So there is a long-term connection.
    In response to the recommendations of the commission and to 
the growing need, Congress created the Land and Water 
Conservation Fund. As has been noted but cannot be stressed too 
much, a basic principle of the fund is that when one public 
natural resource is sold, at least some of the proceeds should 
be used to buy another public resource. Thus, Congress 
dedicated a portion of the receipts of OCS to buy more public 
land.
    The fund has been a success. It has brought about 
conservation and protection of more than 5 million acres of 
land and water across the country. It has created and 
consolidated or improved more than 700 different Federal land 
areas. The State side of the program has funded more than 
40,000 projects in 98 percent of the counties in America. My 
testimony focuses on the Federal side, but AHR strongly 
endorses the State side as well.
    The Land and Water Fund has provided a lot for the American 
people, but its future is uncertain. The need for a permanent, 
adequate fund is urgent. Many decisions will be made over the 
next 6 years that cannot be put on hold for lack of money. 
Already we see the losses and already we pay the consequences 
in threatened water quality, loss of wildlife habitat, lack of 
neighborhood parks, and indeed quality of life.
    The fund must have a guaranteed revenue stream so that 
cities, States, and Federal managers can keep up and plan 
ahead. A dependable funding source also provides for a timely 
process in dealing with private landowners, many of whom are 
waiting for this. The inconsistent record in providing the 
promised $900 million of the fund during the past decade 
dramatically demonstrates why this legislation is now 
essential.
    We realize that there are very real questions about the 
budget impacts and the increased Federal landholding this bill 
might entail. We look forward to discussing this issue and 
because of the importance, working with you to resolve them.
    The Federal part of the Land and Water Fund is a key force 
in conserving our precious places and providing recreation 
opportunities for the American people. Thus, we urge the 
committee to amend S. 2590 to include $450 million for the 
Federal side of the fund and report the bill favorably.
    Thank you.
    [The prepared statement of Mr. Diamond follows:]

            Prepared Statement of Henry L. Diamond, Chair, 
               Americans for Our Heritage and Recreation

    Mr. Chairman, and members of the Committee, my name is Henry 
Diamond, and I am pleased to appear before you today on behalf of 
Americans for our Heritage and Recreation (AHR). AHR is an unusually 
broad and diverse organization ranging from urban communities to 
wilderness advocates.
    I appear here today as Chairman of AHR, but my primary occupation 
is as a partner in the law firm of Beveridge & Diamond. I have been 
involved with the Land and Water Conservation Fund for a long time. As 
Commissioner of the New York State Department of Environmental 
Conservation, I administered the Fund for New York and saw its great 
impact. As editor of the reports of the Outdoor Recreation Resources 
Review Commission, I helped formulate the Commission's recommendations 
which led to the creation of the Fund.
    The Chairman of the Outdoor Recreation Resources Review Commission 
was Laurance S. Rockefeller, whom we lost last week. He always cited 
the creation of the Fund as one of his outstanding achievements, and 
indeed it is a monument to his leadership. Now more than ever, we must 
re-affirm and rededicate ourselves to the Land and Water Conservation 
Fund.
    Mr. Chairman, I would like to thank you and the full Committee for 
holding this hearing on S. 2590, and for providing AHR with the 
opportunity to testify on the importance of permanent and adequate 
conservation and recreation funding. We salute the sponsors of S. 2590, 
Senators Alexander and Landrieu, for introducing this legislation and 
reaffirming Congress' commitment to the Land and Water Conservation 
Fund.

                 THE LAND AND WATER CONSERVATION FUND--
              RESPONDING TO A NEED FOR OUTDOOR RECREATION

    In 1958, Congress created the Outdoor Recreation Resources Review 
Commission to inventory and identify natural resources, and make policy 
recommendations to meet the growing public demand for outdoor 
recreation. The report was presented in 1962 and called on a 
partnership among all levels of government--the centerpiece being the 
Land and Water Conservation Fund.
    Three years later in response to the Commission's report, Congress 
passed the ``Land and Water Conservation Fund Act of 1965,'' and with 
it, the promise to protect our natural and recreational resources for 
future generations. For more than 40 years, LWCF has faithfully 
fulfilled its mission to conserve, develop, and utilize outdoor 
recreation resources for the benefit and enjoyment of the American 
people.
    Initially, three sources of revenue to the fund were designated: 
proceeds from sales of surplus federal real property, motorboat fuel 
taxes, and fees for recreation use of federal lands. The level of 
funding from FY 1966 through FY 1968 reached about $100 million per 
year, which was far short of Congress' expectations. To remedy this 
shortfall, Congress amended the Act to include Outer Continental shelf 
(OCS) mineral leasing receipts as part of the funding stream. LWCF's 
increase in authorized funding to its current level came in June 1977, 
when Congress augmented it to $900 million.
    In 1985, President Ronald Reagan called on Senator Lamar Alexander, 
then governor of Tennessee, to chair a new Commission on Americans 
Outdoors. The Commission report issued in 1987 found many threats to 
the opportunity to enjoy the outdoors, including loss of space through 
urban growth, pollutants, and disappearance of wetlands. Most 
importantly, it found that budget cuts to conservation programs were 
undermining efforts to provide access to recreation and that ``the 
quality of the outdoor estate remains precarious.'' The report went on 
to recommend that Congress should dedicate at least $1 billion a year 
from offshore oil and gas drilling revenues to provide a steady and 
reliable flow of funds to the Land and Water Conservation Fund.
    The success of the Land and Water Conservation Fund has resulted in 
the conservation and protection of more than five million acres of land 
and water areas across the country. Since its inception in 1964, LWCF 
has created, consolidated, and improved more than 700 different federal 
land areas. Notable projects to which LWCF funds have gone include:

  <bullet> Denali National Park & Preserve, AK (country's highest 
        mountain; more than 300,000 visitors per year)
  <bullet> Grand Canyon National Park, AZ (4 million visitors per year)
  <bullet> Golden Gate National Park, CA (one of the largest urban 
        national parks in the world; 16 million visitors per year; 33 
        federally protected or endangered species)
  <bullet> Everglades National Park, FL (1 million visitors per year)
  <bullet> Great Smoky Mountains National Park, NC/TN (9 million 
        visitors per year)
  <bullet> Appalachian National Scenic Trail, 14 states (LWCF funding 
        key to multi-state project; much loved by the public; more than 
        99 percent protected through federal or state land ownership or 
        by rights-of-way)
  <bullet> Martin Luther King, Jr. National Historic Site, GA 
        (birthplace and home of Martin Luther King in Atlanta, 600,000 
        visitors per year)
  <bullet> Hawaii Volcanoes National Park, HI (world's most active 
        volcano; 1 million visitors per year)
  <bullet> Santa Fe National Forest, NM (1,000 miles of trails for 
        hiking, horseback riding, 4-wheeling, skiing, snowmobiling; 
        more than 629 miles of streams and lakes)
  <bullet> Women's Rights National Historical Park, NY (home of 
        suffragist Elizabeth Cady Stanton)
  <bullet> Kirtlands Warbler National Wildlife Refuge, MI (preserves 
        the endangered neotropical Kirtlands Warbler, a migratory song 
        bird)

    Coupled with the stateside LWCF program, more than 40,000 projects 
have been developed in 98 percent of the counties in America. While my 
testimony today will concentrate on the federal side of the Land and 
Water Conservation Fund, I want to point out that AHR is committed to 
full funding of the entire program at its $900 million authorized 
level, with an equitable allocation of funds between its federal and 
state grant programs. In addition, AHR supports a revived and 
substantially funded Urban Park and Recreation Recovery program 
(UPARR). We view all three programs as integral tools in providing 
Americans places to get outdoors.
    AHR also supports the addition of the Historic Preservation Fund 
(HPF) to the final bill. The HPF provides matching grants to encourage 
private and non-federal investment in historic preservation efforts 
nationwide. The HPF is legislatively authorized to receive OCS revenues 
and complements the work of state recreation and wildlife grants 
through conservation of historic and cultural treasures.
    A new conservation program, called Forest Legacy, was developed in 
the 1990's to preserve working forestlands and protect critical forest 
resources. The program has a proven record of assisting private 
landowners, leveraging non-federal funds, and ensuring conservation 
benefits like many of the other programs included in S. 2590. AHR 
believes this program provides creative and innovative land protections 
for the twenty-first century. In fact, the demand for this program has 
exceeded $250 million for the past several years. As the Committee 
considers additions to S. 2590, we would encourage including Forest 
Legacy in the reported bill.

          40 YEARS OF BIPARTISAN PRESIDENTIAL SUPPORT FOR LWCF

    LWCF continues to be the premier tool available to the American 
people to permanently protect our most valuable and vulnerable lands. 
The LWCF federal land acquisition program has been integral in 
establishing and maintaining our country's priceless network of 
national parks, forests, and wildlife refuges that is the envy of the 
world.
    Every President of the United States since Lyndon B. Johnson has 
submitted annual budgets calling for Congress to expend a portion of 
the authorized Land and Water Conservation Fund to acquire conservation 
lands. Just this year, President Bush submitted in his FY 05 budget 
request to Congress that $220 million be spent for federal land 
acquisitions. President Bush has said, ``Our legacy should be an 
unwavering commitment to preserve and conserve our treasured lands--a 
commitment I intend to keep.''
    Congress has worked hand in hand with the White House during these 
40 years to honor the principle of the Land and Water Conservation 
Fund--using the sale of proceeds of one capital asset to buy another--
into an ongoing program for park and open space protection. In fact, 
federal funding of LWCF is less than four-tenths of one percent of the 
total U.S. Budget.
    To date, there is still approximately a $10 billion backlog in land 
acquisition projects that have been identified by the federal land 
agencies. Most of these projects come about due to the interest of a 
willing private landowner and the cooperation of the state's 
congressional delegation. In fact, in FY 02 and 03 combined, 84 percent 
of LWCF appropriations went to the purchase/acquisition of inholdings 
as opposed to expansion or dedication of new areas.

   FEDERAL LWCF--FLEXIBLE INTEGRATED SOLUTIONS FOR THE TWENTY-FIRST 
                                CENTURY

    The ability to preserve land across a continuum of jurisdictions--
federal, state, and local--is critical to the increasing struggle to 
preserve what remains of our nation's dwindling open space. Indeed, the 
need is now more urgent than it was in 1965 at the inception of the 
Fund. Population has boomed beyond projections; land has been gobbled 
up faster than we thought, and we have come to understand better the 
vital role protected lands play in the health of our ecosystem and our 
own well being.
    On March 25, 2004, a representative from the Department of the 
Interior testified before Congress that ``certain acquisitions of land 
or interests in lands are necessary, not only to achieve Departmental 
goals, but also to meet collaborative agreements with private property 
owners, States, local governments, and third party groups, improve or 
provide legal access to existing land, provide rights-of-way, and 
protect historical recreational and natural resources.'' [Statement of 
Robert Lamb, Senior Advisor to the Assistant Secretary of Policy, 
Management and Budget]
    One reason that federal LWCF has worked so well during the past 40 
years is because of its flexibility. It is not simply a land-buying 
program, it does much more. The federal LWCF Act provides the authority 
to acquire land, provide agencies with the authority to make minor 
boundary changes, receive donated land, purchase land with donated 
funds, purchase easements on private lands, or transfer or exchange 
lands from other federal agencies.
    For example, the Administration's FY 05 budget request includes a 
$2,000,000 request for Bureau of Land Management's (BLM) Upper Snake / 
South Fork Snake River project in Idaho. Since 1991, Congress has 
appropriated $13 million to purchase more than 1,100 acres of fee and 
conservation easements on more than 3,000 acres. Other investments in 
this project area have been made by the Bonneville Power 
Administration, the Wetlands Reserve Program, and private conservation 
organizations.
    Similarly, federal LWCF can be used for purchase of small, but 
strategic, parcels of land that mitigate future maintenance costs and 
provide safer public access to parks.
    For example, at Mt. Rainier National Park, 800 acres, a mixture of 
public and private land would allow a new road to be built on higher 
ground, reducing the maintenance cost of rebuilding the current road 
that is annually washed out by heavy rains. Even this small land 
purchase will receive a specific congressional authorization before 
LWCF funds will be appropriated.
    And, the Columbia River Gorge in Oregon and Washington has been 
funded by LWCF for 15 years to help the U.S. Forest Service implement 
the congressionally-authorized national scenic area, which follows the 
Lewis and Clark expeditionary route along the Columbia River.
    In 2002, Congress passed the Flight 93 Memorial Act to create a new 
unit of the National Park System to commemorate the bravery of the 
passengers and crew of Flight 93 on September 11, 2001 who gave their 
lives in defense of the Nation's Capital. Local partners are working 
with the National Park Service to protect more than 1,000 acres of the 
crash site and associated viewshed, through a partnership involving the 
Commonwealth of Pennsylvania, the local county, landowners, and non-
profit organizations. To begin the federal land acquisition, the 
President's Fiscal Year 2005 budget request to Congress included $2.2 
million from the federal Land and Water Conservation Fund. If the 
federal LWCF funds are approved by Congress, they will leverage 
significant non-federal contributions, including an in-kind donation of 
land.
    New or renovated parks and trails in communities around the country 
are proven catalysts for local economic development. LWCF investments 
in parks, forests, and wildlife areas generate tourism dollars and 
increase real estate values in adjacent gateway communities.
    Finally, we would encourage the federal land managers to think 
creatively and use the federal LWCF for consolidation and land 
transfers among federal, state, and local agencies. Federal land 
agencies need to be given adequate resources to make this a priority 
during the life of S. 2590. These multi-agencies, multi-state transfers 
are tedious and difficult, but in the long-run, federal LWCF dollars 
used wisely could create new recreation opportunities for the public 
that are more cost effective.

                               CONCLUSION

    The Americans Outdoors Act, S. 2590, will provide a conservation 
legacy for the next generation and provide the reliable stream of 
funding that has beleaguered the Land and Water Conservation Fund 
during the past 40 years. By integrating wildlife, coastal, state and 
urban parks, and federal land programs under a dedicated fund guided by 
Congress, future generations will inherit American landscapes 
resplendent with parks, trails, hunting and fishing areas, wetlands, 
and a more pristine environment.
    In addition, the Centers for Disease Control and Prevention has 
indicated that regular physical activity is a crucial part of good 
health. Economists now predict that significant health care savings to 
state and federal governments could be achieved through increased 
physical activity and exercise. By providing access to places for 
physical activity, such as our parks, forests, and trails, LWCF has 
become an important tool in providing Americans access to outdoor 
recreation.
    Given the conservation, recreation, and public health benefits 
inherent in the federal LWCF program, we urge the committee to amend S. 
2590, the Americans Outdoors Act, to include $450 million for the 
federal Land and Water Conservation Fund. The Fund has proven to:

  <bullet> conserve, develop, and utilize outdoor recreation resources 
        for the benefit and enjoyment of the American people;
  <bullet> provide federal land managers with key tools to integrate 
        lands for more efficient management and better public access;
  <bullet> assist private property owners with options to be reasonably 
        compensated for decades of stewardship of their lands and their 
        personal rights to dispense with their land as they wish;
  <bullet> protect and preserve our nation's heritage for future 
        generations and to encourage livable communities for a 
        healthier population;

    The need for a permanent, adequate LWCF is urgent. America's bounty 
is shrinking fast. Since 1960, the number of Americans has increased 
from 179 million to 255 million. Farmland and open space is being 
consumed at twice the rate that our population is growing, losing 2.3 
million acres of open space a year to single family housing. Recent 
polling shows that voters are so concerned about protecting clean air 
and water and conserving the lands that help preserve water quality 
that they would support additional taxes to pay for protecting parks 
and wildlife areas.
    Public investment to preserve the rapidly dwindling resource must 
have a guaranteed revenue stream so that our city, state, and federal 
managers can keep up and plan ahead for our children's future. Also, it 
provides for a timely process of acquisitions and easements to meet the 
requests of private land owners. The inconsistent record in providing 
the promised $900 million of LWCF during the past decade dramatically 
demonstrates why this legislation is essential.
    Many of the decisions that will be made in the next six years 
cannot be put on hold; already we see the losses; already we pay the 
consequences in threatened water quality, loss of wildlife habitat, 
lack of neighborhood parks, and quality of life.
    We look forward to achieving these goals by passage of the 
Americans Outdoors Act, S. 2590, that includes full funding of both the 
federal and stateside of the Land and Water Conservation Fund.

    Senator Alexander. Thank you, Mr. Diamond. Senator Domenici 
has stepped out for a moment. He will be back.
    Ms. Marzulla.

   STATEMENT OF NANCIE G. MARZULLA, PRESIDENT, DEFENDERS OF 
                        PROPERTY RIGHTS

    Ms. Marzulla. Thank you and thank you for the opportunity 
to testify here today. I am testifying on behalf of Defenders 
of Property Rights, as well as the Keep Private Lands in 
Private Hands Coalition, a coalition comprised of over 600 
State and local organizations dedicated to the principle of 
private property ownership.
    Let me say at the outset that we fully support the many 
important objectives and goals that we have heard discussed 
this morning, outdoor recreation, conservation, wildlife 
protection, and the like. However, I am here to testify in 
opposition to S. 2590 to the extent that it provides funding 
for State acquisition of private property. Likewise, to the 
extent that the bill may be amended to provide funding for 
Federal land acquisition, we also oppose any such amendment.
    I have only one point to make and that is that we do not 
need more government land ownership in this country. Whenever 
government acquires more land, it acquires more power. Now, 
this power is not an abstract concept. The architect of 
communism, Karl Marx, wrote about the relationship between land 
ownership and power in his Communist Manifesto, stating that 
you reproach us with planning to do away with your property. 
Precisely. That is just what we propose. The theory of the 
communists may be summed up in a single sentence: abolition of 
private property.
    Today most of the world has abandoned communism as a failed 
idea by reaching out toward protecting private property rights. 
Countries such as Russia, China, and Cuba are moving toward 
capitalism and embracing property rights protection. Yet, 
ironically this bill and the proposed amendment moves this 
country back in the direction of communism to the extent that 
it authorizes abolition of private property.
    I would further add that my rough calculation referencing 
the map that we looked at today showing government ownership of 
land in this country, government in the form of the Federal 
Government, State government, and local government already owns 
almost 40 percent of the land in this country. Now, that is fee 
simple ownership. I do not have any figures on how much land 
government also owns in lesser than fee simple ownership, if 
you look at leases and easements and the like.
    The important thing to note about government ownership of 
land is that the Government not only exercises power over the 
land it owns title to, but it also exercises power over 
adjacent land. The Federal Government relies on Article IV of 
the Constitution, or the Property Clause, for its authority to 
regulate adjacent property. States and local government rely on 
their police power and other provisions in their State 
constitutions. Thus, whenever the government is your neighbor, 
it can reach beyond its borders and control your property in a 
way that no private neighbor could.
    Kathy Stupack-Thrall and her fellow riparian landowners 
found this out in Michigan. There, they had private rights in a 
lake and the Forest Service purchased land adjacent to the lake 
as well, and Forest Service came in and extinguished State-
established, State-created riparian rights in the lake to the 
point where these landowners were told they could engage in no 
use of motorized equipment on the waters of the lake, including 
such things as radios. So marina owners were put out of 
business and outdoor recreational activities were seriously 
curtailed.
    Last but not least, the Federal Government, using its 
commerce power and the State again using its police power, 
today regulates every conceivable aspect of private property 
ownership through environmental laws and State and local land 
use laws. In King County, Washington, for example, one proposal 
would allow landowners to build on only 10 percent of their 
land. Landowners would be required to set aside 65 percent of 
their land and maintain it in its pristine, natural vegetative 
condition, unable to make any changes to their land whatsoever, 
thus leaving the property owner with only a small fraction of 
his ``privately owned land'' with which to put to beneficial 
and productive use.
    Thus, we flatly oppose the creation of a massive slush fund 
for acquisition of additional government-owned land. We 
obviously recognize that there are instances where the public 
good will necessitate the acquisition of specific parcels of 
private property, but we think those instances should be 
targeted and the power narrowly tailored and exercised.
    In closing, I would like to say that I heard the concept 
discussed today by Senator Burns and others, the notion of no 
net loss of private property. We heartily endorse that notion 
and think that would be a very good way of striking a balance 
and preserving the balance, in fact, that our Founding Fathers 
adopted in our Constitution.
    I would be happy to answer any questions.
    [The prepared statement of Ms. Marzulla follows:]

         Prepared Statement of Nancie G. Marzulla, President, 
                      Defenders of Property Rights

    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to testify today regarding this Committee's examination of 
S. 2590, the Americans Outdoors Act.
    My name is Nancie Marzulla. I am President of Defenders of Property 
Rights, the nation's only nonprofit legal foundation dedicated 
exclusively to the protection of individual rights in the ownership and 
use of private property. Founded in 1991, Defenders works in the 
courts, the legislature, and in the marketplace of public opinion to 
preserve private property rights, a cornerstone of individual liberty. 
Defenders of Property Rights is a member of the Keep Private Lands in 
Private Hands Coalition,\1\ chaired by Chuck Cushman, Executive 
Director of the American Lands Right Association. Defenders submits 
this testimony on its own and the Coalition's behalf.
---------------------------------------------------------------------------
    \1\ This Coalition is comprised of over 600 state and local 
property rights and agricultural, and resource--user organizations, and 
organizations representing federal land inholders. Together these 
organizations represent millions of people, in all 50 states.
---------------------------------------------------------------------------
    As we understand it, S. 2590 guarantees that each year $1.425 
billion (collected from offshore oil and gas royalties) that would 
otherwise go directly into the Federal Treasury will instead go to fund 
three existing federal programs as well as the State Land and Water 
Conservation Funds (LWCF). This money would provide ``a reliable stream 
of funding by collecting a conservation royalty on revenues from 
drilling for oil and gas on offshore federal land.'' \2\ A large 
portion of these funds will be used by the states to acquire private 
land.
---------------------------------------------------------------------------
    \2\ Lamar Alexander, Floor Remarks Before the Senate, June 24, 
2004.
---------------------------------------------------------------------------
    We further understand that this bill may be amended and sent to the 
Senate floor with $450 million in funding for federal land acquisition. 
As one sponsor of the bill stated ``there is at least one piece of 
unfinished business. At some point in the process, Senator Landrieu and 
I will offer an amendment to our own legislation that will fully fund 
(at $450 million a year) the `federal side' of the Land and Water 
conservation Fund.'' \3\
---------------------------------------------------------------------------
    \3\ Id.
---------------------------------------------------------------------------
    To the extent that S. 2590 provides federal dollars for more 
government land acquisition, we oppose it. In our view, there is no 
legitimate justification for any government--state or federal--to 
acquire any more private property in this country. For that reason, we 
oppose S. 2590 to the extent that it makes any funds available to the 
states for land acquisition, and further oppose any amendment that 
would allocate supplementary federal funds for additional federal land 
acquisition.
    By providing billions of dollars for more government land 
acquisition, and by depleting the base of American private property 
ownership, this bill moves our country toward socialism and 
collectivism at the very time in history when all the fallen, and some 
still falling, communist regimes in the world are moving in the 
opposite direction. Discovering what the Founding Fathers knew more 
than 200 years ago, most of the world now rejects government ownership 
of private land as a failed experiment.
    In the former Soviet Union, for example, 50 million Russians have 
acquired vast amounts of private land holding rights--the equivalent of 
the size of continental Europe.\4\ The world's most populous nation, 
China, has also recently been moving toward primitive markets and 
private property ownership; in fact, last March, China passed its 
first-ever constitutional amendment protecting private property rights. 
Article XIII of the Chinese Constitution states that ``[l]egal private 
property is not to be encroached upon.'' \5\ Even in Cuba, where Fidel 
Castro confiscated almost all private property in 1959, agricultural 
land reforms have dramatically increased the number of private holders 
of property since 1989.\6\
---------------------------------------------------------------------------
    \4\ Alexei Overchuk, Deputy Head of Federal Land Cadastre Agency, 
Press Conference, March 20, 2003.
    \5\ Chinese Const., art. XIII.
    \6\ Eduardo Moises Penalver, Redistributing Property: Natural Law, 
International Norms, and the Property Reforms of the Cuban Revolution, 
52 U. Fla. L. Rev. 107, 130 (2000).
---------------------------------------------------------------------------
I. WE OPPOSE S. 2590 BECAUSE THIS COUNTRY NEEDS MORE, NOT LESS, PRIVATE 
                                PROPERTY

    That S. 2590, as drafted, provides money to states (and not the 
federal government) to purchase more land is irrelevant to our 
overarching alarm at the loss of private land ownership. Private 
property itself, not simply just compensation for its appropriation, is 
critical in any civil society. This principle applies to state 
governments no less than the federal government. Indeed, one argument 
in favor of enhancing the federal government's power was that many 
founders believed the states to be the greater threat to individual 
liberty. As James Madison warned in the Federalist No. 10: ``The 
smaller the society, the smaller the number of individuals composing a 
majority, and . . . the more easily they will concert and execute their 
plans of oppression.'' \7\ Private property ownership restrains the 
growth and power of states just as it restrains the federal government.
---------------------------------------------------------------------------
    \7\ James Madison, The Federalist No. 10 (1787).
---------------------------------------------------------------------------
    Although S. 2590 contemplates that states will purchase, rather 
than confiscate privately owned land, this does not cure the 
fundamental problem resulting from more government, and less private, 
ownership of land. Indeed, local governments are notorious for their 
abuses of the eminent domain process. One study alone reports 
documenting over 10,000 eminent domain abuses.\8\ According to the 
Hoover Digest, protections against eminent domain abuses in some 
communities are non-existent:
---------------------------------------------------------------------------
    \8\ Clint Bolick, The Monster in Our Backyard, in Hoover Digest No. 
3, 191-198, at 197 (2004).

        ``All a condemning authority has to do is publish a small 
        advertisement in the legal notices section of the local 
        newspaper. It does not have to state the consequences of the 
        owner's failure to act. Yet if the owners happen not to see the 
        notice or fail to act promptly, they will lose their right to 
        challenge the taking on public-use grounds 30 days following 
        the publication.'' \9\
---------------------------------------------------------------------------
    \9\ Id. at 193.

    Nor does S. 2590's contemplation that privately owned land will be 
purchased only from ``willing sellers'' adequately protect private 
landowners, for the state always holds in reserve the paramount power 
of eminent domain that allows it to take any home, farm, business or 
factory it pleases. The individual property owner is virtually 
powerless in negotiating with government. Unfortunately, ``[l]ocal 
governments are abusing their power with increasing frequency, yet the 
typical citizen lacks the resources, knowledge, and skills to take on 
the local leviathan that our local governments have become.'' \10\
---------------------------------------------------------------------------
    \10\ Id. at 192.
---------------------------------------------------------------------------
    The U.S. Supreme Court has repeatedly stepped in to unmask local 
government's extortionate schemes, which falsely claim to be 
``voluntary'' arrangements to acquire private land:

        [T]he right to build on one's own property--even though its 
        exercise can be subjected to legitimate permitting 
        requirements--cannot remotely be described as a ``governmental 
        benefit.'' And thus the announcement that the application for 
        (or granting of) the permit will entail the yielding of a 
        property interest cannot be regarded as establishing the 
        voluntary ``exchange . . . .'' \11\
---------------------------------------------------------------------------
    \11\ Nollan v. California Coastal Comm'n, 483 U.S. 825, 833 n.2 
(1987).

    In another example of state and local abuse, the city of Tigard, 
Oregon decided that it would be in the public interest to have a 
municipally owned pedestrian/bicycle pathway linking streamside 
greenways. The city's planners drafted designs that were formally 
adopted into a comprehensive development scheme. The city then enacted 
an ordinance that on its face extorted from landowners the land 
---------------------------------------------------------------------------
necessary for accomplishing the public objective:

        The City shall review each development request adjacent to 
        areas proposed for pedestrian/bike pathways to . . . require 
        the necessary easement or dedications for the pedestrian/
        bicycle pathways.\12\
---------------------------------------------------------------------------
    \12\ City of Tigard, Comprehensive Plan, Section 8.4.

    The city stated that the privately owned land to be acquired was 
the ``backbone of the open space system<plus-minus> . . . .'' \13\ When 
Florence Dolan applied for a building permit to expand the plumbing 
availability on her land, Tigard tried to condition Ms. Dolan's 
building permit on her willingness to ``voluntarily'' give the city (in 
fee simple) ten percent of her private land to complete the public 
pathway. The city was strongly rebuked in Dolan v. City of Tigard, 512 
U.S. 374 (1994). But if S. 2590 money been available to the city of 
Tigard, it could have attempted to accomplish the same extortionate 
result by simply conditioning Ms. Dolan's permit on her ``voluntarily'' 
agreeing to sell her land to the city.
---------------------------------------------------------------------------
    \13\ Id.
---------------------------------------------------------------------------
A. Private Property Ownership Promotes Stable, Local Communities
    Private ownership of land promotes the beneficial and productive 
use of land, and serves as economic basis supporting local governments 
and communities. Local governments touch the lives of every American 
every day. They operate schools, playgrounds, libraries, and provide or 
control the essential services such as water, electricity, policing, 
and firefighting.
    In contrast, the loss of private property ownership destroys the 
economic bases of both families and communities. For example, in the 
Pacific Northwest, the federal designation of 6.9 million acres of 
privately owned land as federal habitat for the northern spotted owl 
led to what were commonly known as ``green ghettos.'' The University of 
Oregon reported that local taxes were increased by tenfold in five 
Oregon counties to replace the income generated from timber sales.\14\ 
The resulting loss of jobs led to marked increases in affected 
communities in unemployment, alcoholism, suicide, battered spouses, and 
troubled children.\15\ As Chuck Cushman noted:
---------------------------------------------------------------------------
    \14\ J. Heissenbuttel & W. Murray, A Troubled Law in Need of 
Revision, 90 J. Forestry 13 (1992).
    \15\ Id.

        Over time, 10-15 years, they strangle--systematically cut off--
        the community. There is a hardly group of folks willing to deal 
        with the hardships, the drive for 50-100 miles to the grocery 
        store, the fact that there aren't services that companies 
        supply. Over a very short period of time the town turns into a 
        ghost town.\16\
---------------------------------------------------------------------------
    \16\ Interview with Chuck Cushman, Magic City Morning Star, Sept. 
20, 2003.
---------------------------------------------------------------------------
B. Private Property Ownership Promotes Sounds Conservation and Multiple 
        Land Use
    Public ownership of land does not reap the economic or 
environmental benefits that interest groups and government agencies 
expect to accrue once land is taken out of private hands. To the 
contrary, governments make poor ecological stewards. Degradation in 
national parks runs rampant, ecological imbalances often cause 
unexpected declines or disappearances of entire populations of plants 
and animals, and tourism pressures frequently offer perverse incentives 
to government managers of public land.\17\ In short, government is a 
poor substitute for mother nature.
---------------------------------------------------------------------------
    \17\ Terry L. Anderson, How and Why to Privatize Federal Lands, 
Cato Institute Policy Analysis no. 363, Nov. 9, 1999, p. 5-6.
---------------------------------------------------------------------------
    The federal government seems particularly ineffective at managing 
land. But states perform just as badly as the federal government in 
attempting to do the same task. According to analyst Randal O'Toole:

        State governments are no better managers than are federal 
        bureaucrats. They are just as economically inefficient, 
        ecologically short-sighted, and politically driven as their 
        federal counterparts . . . In fact, state governments have been 
        rapidly expanding . . . their land estates . . . \18\
---------------------------------------------------------------------------
    \18\ Randall O'Toole, Should Congress Transfer Federal Lands to the 
States?, Cato Institute Policy Analysis no. 276, July 3, 1997, p. 1.

    State management of public lands poses many of the same problems 
surrounding federal control of land. Moreover, any governmental 
management of land whatsoever tends to cause unexpected consequences. 
Apart from simple land mismanagement, even activities that are pursued 
in good faith by state officials can have profound effects on 
ecological systems. Forest management can disturb delicate habitats, 
increases in population of any given species can devastate others, and 
inefficient resource allocation can increase the likelihood of 
disasters like forest fires.\19\
---------------------------------------------------------------------------
    \19\ Anderson, supra note 16, at p. 5-6.
---------------------------------------------------------------------------
    Private property, however, despite common misconceptions, has a 
good record of balancing ecological and economic interests. Property 
rights provide the foundation for markets, and establishing property 
rights over environmental resources enables individuals and 
organizations to pursue environmental goals in the marketplace. 
Individuals who care most about ecological matters are surely the most 
efficient protectors of those resources. Private groups should take the 
place of politically unstable government agencies.\20\ These groups are 
capable of surviving without the benefit of government aid, are better 
able to protect wilderness land, and are more successful in 
implementing conservationist policies than would be state or federal 
governments.
---------------------------------------------------------------------------
    \20\ Terry Anderson & Donald Leal, Enviro-Capitalists: Doing Good 
While Doing Well (Lanham, Md.; Rowman & Littlefield, 1995).
---------------------------------------------------------------------------
    Regardless of one's opinion of private landowners' ability to 
balance economic and environmental goals, there must be agreement that 
the federal and state land management programs are certainly not 
achieving the goals they set for themselves. Private ownership, in 
addition to preserving the civil rights of American citizens, also 
offers the chance to better effectuate environmental goals than does 
government land management.
C. Private Property Rights Are the Engine of Economic Prosperity and 
        the Foundation of the Free Market
    Economic studies over the last 20 years show that private property 
rights are the cornerstone of a prosperous society.
    One study, completed in 1984 by Freedom House, correlated rankings 
on a scale of political and civil freedom, including private property 
rights, with economic welfare. The study found that a one unit 
improvement on the seven-point liberty scale correlated with a 34% 
decrease in infant mortality and a 49% increase in GNP per capita.\21\
---------------------------------------------------------------------------
    \21\ Milton Friedman, A Statistical Note on the Gastil-Wright 
Survey of Freedom, in Freedom, Democracy and Economic Welfare (M.A. 
Walker, ed.) 1988. Fraser Institute, Vancouver, B.C.
---------------------------------------------------------------------------
    Another study, reported in the Journal of Political Economy, built 
upon the Freedom House measurements, and contributed valuable empirical 
analysis to the earlier data. The study concluded that societies 
committed to the protection of private property ``grow at three times 
(2.73 to 0.91% annually) the rate and are two and one-half times as 
efficient as societies in which these freedoms are circumscribed or 
proscribed.'' \22\
---------------------------------------------------------------------------
    \22\ G.W. Scully, The Institutional Framework and Economic 
Development, 96 J. Pol. Econ. 652, 661 (1988).
---------------------------------------------------------------------------
    Interestingly, studies have also determined that property rights 
encourage equitable income distribution. The author of the Journal of 
Political Economy study noted in 1992 that societies protecting 
property rights ``have much larger shares of income going to the middle 
60 percent of the [population] distribution than is observed in 
societies where men are not free to choose . . .'' Moreover, he added, 
``[t]he income share of the highest income group is much larger in 
nations that repress individual rights than in those where rights are 
protected.'' \23\
---------------------------------------------------------------------------
    \23\ G.W. Scully, Constitutional Environments and Economic Growth 
196-97. Princeton, N.J., Princeton University Press, 1992.
---------------------------------------------------------------------------
    Indisputably, the citizens of less restrictive regimes enjoy a 
higher standard of economic efficiency, growth, and equity.
D. Without Private Property Ownership, Civil Rights and Liberty become 
        a privilege, Not a Right, of Americans
    The U.S. Supreme Court has repeatedly confirmed that property 
rights and civil liberty are interdependent:

        [A] fundamental interdependence exists between the personal 
        right to liberty and the personal right in property. Neither 
        could have meaning without the other. That rights in property 
        are basic civil rights has long been recognized.\24\
---------------------------------------------------------------------------
    \24\ Lynch v. Household Finance Corporation, 405 U.S. 538, 552 
(1972).

    For that reason, the protection of rights in property lies at the 
heart of our constitutional system of government. The Founding Fathers, 
in drafting the Constitution, drew upon classical notions of legal 
rights and individual liberty dating back to the Justinian Code, Magna 
Carta, and the Two Treatises of John Locke, all of which recognize the 
importance of property ownership in a governmental system in which 
individual liberty is paramount. Concurrently, the constitutional 
framers drew upon their own experience as colonists of an oppressive 
monarch, whose unlimited powers vested him with the ability to deprive 
his subjects of their God-given rights of ``life, liberty, and 
property.''
    The United States Constitution imposes a duty on government to 
protect private property rights. Thus, within the Bill of Rights, 
numerous provisions directly or indirectly protect private property 
rights. The Fourth Amendment guarantees that people are to be ``secure 
in their persons, houses, papers, and effects . . . .'' \25\ The Fifth 
Amendment states that no person shall ``be deprived of life, liberty, 
or property, without due process of law; nor shall private property be 
taken for public use, without just compensation . . . .'' \26\ The 
Fourteenth Amendment echoes the Due Process Clause of the Fifth 
Amendment, stating that no ``State shall deprive any person of life, 
liberty, or property without due process of law . . . .'' \27\ 
Additionally, the Contracts Clause of the Constitution indirectly 
protects property by forbidding states from passing any ``law impairing 
the Obligation of Contracts.\28\
---------------------------------------------------------------------------
    \25\ U.S. Const. amend. IV.
    \26\ U.S. Const. amend. V.
    \27\ U.S. Const. amend. XIV.
    \28\ U.S. Const. art I, sec. 10, cl. 3.
---------------------------------------------------------------------------
    The protection of private property receives such strong emphasis in 
the United States Constitution because the right to own and use 
property was historically understood to be critical to the maintenance 
of a free society. To understand this concept, one must understand that 
property is more than just land. Property is buildings, machines, 
retirement funds, savings accounts, and even ideas. In short, property 
is the fruit of one's labor and the ability to use, enjoy, and 
exclusively possess the fruits of one's labor is the basis for a 
society in which individuals are free from oppression. Thus, there can 
be no true freedom for anyone if people are dependent upon the State 
for food, shelter, and other basic needs. Under such a system, nothing 
is safe from being taken by a majority or a tyrant because the 
citizens, as government dependents, are powerless to oppose any 
infringement of their rights.
    John Adams once stated, ``[p]roperty must be secured or liberty 
cannot exist.'' \29\ Others have stated that ``the right of property is 
the guardian of every other right, and to deprive a people of this, is 
in fact to deprive them of their liberty.\30\
---------------------------------------------------------------------------
    \29\ Discourses on Davila, in 6 The Works of John Adams 280 
(Charles Francis Adams ed., Little Brown 1865).
    \30\ Arthur Lee, An Appeal to the Justice and Interests of the 
People of Great Britain, in the Present Dispute with America 14 (1775).
---------------------------------------------------------------------------
    President Reagan, in announcing his intention to sign a 
Presidential Executive Order to protect private property rights, told 
Congress:

        It was an axiom of our Founding Fathers and free Englishmen 
        before them that the right to own and control property was the 
        foundation of all other individual liberties. To protect these 
        rights, the Administration has urged the courts to restore the 
        constitutional right of a citizen to receive just compensation 
        when government at any level takes private property through 
        regulation or other means. Last spring, the Supreme Court 
        adopted this view in Nollan v. California Coastal Commission. 
        In a second case, the Court held that the Fifth Amendment 
        requires government to compensate citizens for temporary losses 
        that occur while they are challenging such a government 
        regulatory ``taking'' in court. In the wake of these decisions, 
        this Administration is now implementing new procedures to 
        ensure that federal regulations do not violate the Fifth 
        Amendment prohibition on taking private property; or if they do 
        take a citizen's property for public use, to ensure that he 
        receives constitutionally required just compensation.\31\
---------------------------------------------------------------------------
    \31\ President's Legislative and Administrative Message to 
Congress, 24 Weekly Comp. Pres. Doc. 91 (Jan. 25, 1988).
---------------------------------------------------------------------------
  II. DESPITE ITS IMPORTANCE TO INDIVIDUAL RIGHTS AND THE FREE MARKET 
       ECONOMY, PRIVATE PROPERTY IS DISAPPEARING IN THIS COUNTRY.

    Approximately 630 million acres, or nearly one-third of the United 
States, is already owned by the federal government.\32\ Much of that 
land is out West, with States such as Idaho, Nevada, Oregon, and Utah 
virtually belonging to the federal government. Nevada holds the record; 
it is almost entirely owned (79%) by the federal government.\33\
---------------------------------------------------------------------------
    \32\ General Accounting Office, Report to Congressional Requesters, 
Land ownership--information on the Acreage, Management, and Use of 
Federal and Other Lands. March 13, 1996. Available at: http://
frwebgate.access.gpo.gov/cgibin/
useftp.cgi?IPaddress=162.140.64.21&filename= rc96040.txt&direct ory=/
diskb/wais/data/gao (last visited, July 19, 2004).
    \33\ Id.
---------------------------------------------------------------------------
    The risk for the outright elimination of private property rights 
was described by Justice Oliver Wendell Holmes in 1922:

        The protection of private property in the Fifth Amendment 
        presupposes that it is wanted for public use, but provides that 
        it shall not be taken for such use without compensation . . . . 
        When this seemingly absolute protection is found to be 
        qualified by the police power, the natural tendency of human 
        nature is to extend that qualification more and more until at 
        last private property disappears.\34\
---------------------------------------------------------------------------
    \34\ Pennsylvania Coal v. Mahon, 260 U.S. 393, 415 (1922).

    This dire scenario is rapidly becoming reality in modern America. 
In recent decades, during the birth and growth of the administrative 
regulatory state, federal government agencies have begun implementing 
policies that deprive owners of the use and benefit of their property. 
Many of these confiscatory measures are based neither upon 
constitutionally granted powers, nor statutes adopted by Congress. 
Rather, the mere ownership of land itself confers power on federal 
agencies to regulate not only what they own, but what private citizens 
own for miles around.
    The Sixth Circuit Court of Appeals summarized the state of the law 
in upholding a Forest Service regulation which put several marina 
owners out of business after the federal government acquired most of 
the shoreline of Crooked Lake, Michigan:

        Contrary to plaintiffs' apparent assertions, Congress's 
        inherent authority under [the Property Clause] is not limited 
        to regulation of purely federal property. In fact, since 1897, 
        the Supreme Court has recognized that ``needful'' regulations 
        ``respecting'' government property will sometimes include the 
        exercise of power over purely private property, in order to 
        ensure adequate protection of the federal interest.\35\
---------------------------------------------------------------------------
    \35\ Stupack-Thrall v. Glickman, 70 F.3d 881, 885 (6th Cir. 1995).

    As of September 1994, the federal government had rights-of-use 
through leases, agreements, permits, and easements to over 3 million 
acres of nonfederal land, usually to support the management of adjacent 
federal lands. In 1995, the federal government held about 52.3 million 
acres in 33 states in trust for Native Americans.\36\
---------------------------------------------------------------------------
    \36\ GAO Report, supra note 31.
---------------------------------------------------------------------------
    Private property, however, is not only burdened by federal 
regulations. Indeed, the notion that states need to take more private 
land from their citizens to carry out their conservation and recreation 
objectives is belied by the myriad regulatory programs at their 
disposal, all of which affect and control private land use. Every 
state, for example, has adopted various environmental protection and 
conservation schemes that mirror, and often exceed, federal 
requirements. State and local governments also have land use 
regulations for historic preservation, battlefield protection, scenic 
designations, setbacks along waterways and streams, farmland 
protection, establishment of ``greenways,'' buffer zones, wetlands, 
resource protection areas, parks, preserves, and restrictions on 
natural resource development. Such regulations reach from the depths of 
bodies of water to the heights of the stratosphere--but apparently not 
far enough. Seemingly, states want it all, leaving nothing for private 
ownership.
    In addition to the extraordinary amount of land owned by the 
federal government, the state and local governments also own and 
control surprisingly large amounts of property. One study noted that 
state governments own 196,924,100 acres of land, comprising 8.7% of all 
land holdings. As of September 1994, the 13 western states owned about 
141.9 million acres. Sadly, federal, state, and local governments own 
fully 39.8% of all the land in this country.\37\
---------------------------------------------------------------------------
    \37\ GAO Report, supra note 31.
---------------------------------------------------------------------------
    I would be happy to answer any questions that you may have.

    The Chairman. Thank you very much.
    Mr. Clifton.

   STATEMENT OF DANIEL M. CLIFTON, FEDERAL AFFAIRS MANAGER, 
                    AMERICANS FOR TAX REFORM

    Mr. Clifton. Chairman Domenici, members of the committee, 
thank you for the opportunity to testify. My name is Daniel 
Clifton. I am the Federal affairs manager and chief economist 
at the Americans for Tax Reform. We are a nonprofit, 
nonpartisan coalition that works for lower taxes, fewer 
regulations, and free markets.
    Americans for Tax Reform strongly opposes S. 2590. As we 
heard in the prior testimony, this is an assault on private 
property rights. We would also argue that this is an assault on 
the taxpayer, and I will give you five major reasons.
    The first, as Chairman Nickles accentuated, we are moving 
from a discretionary program to an entitlement spending. In his 
example, he used from 1990 to 2004, but if we go back, 
mandatory was one-quarter of the budget. Now it is over 50 
percent, and in the future it will be as high as 75 percent. We 
have a real growing need with the mandatory programs to be 
reforming these programs, not adding onto these programs.
    A second issue is moving funds that would come out of the 
Treasury into a dedicated fund. I know that the sponsors of the 
bill have worked hard to avoid this, but money is still 
fungible and the shift to a dedicated fund would ultimately 
require higher taxes or more bonding to pay for it.
    A third is that this would continue the spending spree that 
Congress has started, which has exacerbated the budget deficit 
to $400 billion. I know a lot of people like to make the point 
that this is because of the tax cuts, but the fact is that 
Federal spending is increasing on average almost $100 billion a 
year. No matter how much tax revenue you are going to have, you 
are going to have a deficit. Tax revenues do not grow by that 
much. The fact here is this continues that culture of spending 
in the future.
    At the same time, many people often tell me that this is so 
small relative to the budget, the amount of money spending. I 
would say hardly. We hear this on every program and when these 
programs are compounded on top of each other, that is what is 
leading to these spending increases.
    In addition, as we heard today, there is a push now to add 
the Federal component onto this legislation. Once we get that 
in, they will come back for even more spending and more. We 
have a very big concern with this, watching this process go on 
since 1999.
    Another major sticking point is that this would lose 
flexibility. I know that that was discussed. If there is an 
emergency, revenues would not be able to be offset and moved 
into the general fund quickly. The accountability gets lost 
because this money is now in the bureaucratic shuffle.
    On top of that, the Federal, State, and local governments 
own too much land as it is. And these proposals would hurt 
rural communities and the local property tax base. I know some 
people say that this is needed to lower local property taxes, 
but the fact is by taking more land and stifling economic 
development, it has a harsh impact on local communities and 
their tax bases which are paying for cops and general services.
    Again, I would like to say that the Federal Government 
revenue situation is improving. Revenues are up. Economic 
growth is at its fastest rate in 20 years. Now Congress needs 
to hold the line on spending. This would violate that, 
exacerbate the budget deficit, and I would urge members to 
oppose this legislation.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Clifton follows:]

   Prepared Statement of Daniel M. Clifton, Federal Affairs Manager, 
                        Americans for Tax Reform

    Chairman Domenici and members of the Committee, thank you for the 
opportunity to testify today concerning S. 2590, the Americans Outdoors 
Act.
    My name is Daniel Clifton and I currently serve as Federal Affairs 
Manager and Chief Economist for the Americans for Tax Reform. ATR is a 
non-partisan, not-profit coalition of taxpayers and taxpayer groups 
throughout the country dedicated to lower taxes, fewer regulations, and 
free markets.
    Americans for Tax Reform strongly opposes enactment of S. 2590. As 
we heard in the prior testimony, S. 2590 is an assault on private 
property rights. But in addition to the property rights violations, ATR 
opposes this legislation from a fiscal perspective for four major 
reasons.
    As a starting point, this legislation will exacerbate the current 
bipartisan spending spree that has resulted in a budget deficit of more 
than $400 billion. Second, this legislation removes funding from the 
general fund and transfers revenue to a dedicated fund. The resulting 
shortfall in the general fund will have to be made up with higher taxes 
or more bonding. Third, the matching component for state and local 
governments will require higher taxes in each state. Fourth, the 
government's continual effort to purchase land is removing more 
properties from the local tax rolls and thus driving up property and 
other local taxes.
    As members of this Committee may recall, similar legislation moved 
forward in 1999. At that time, the federal budget was moving from a 
deficit to a small surplus. The idea of moving revenues from the 
general fund to a dedicated fund was a bad idea while the nation was in 
surplus; it's an even worst idea now that the country is facing 
deficits.
    The change in the nation's fiscal outlook during the 1990's was the 
result of three factors. First, strong economic growth resulted in 
higher tax revenues. Second, the rapid acceleration of Americans 
invested in the stock market resulted in a four fold increase of 
temporary capital gains tax revenue. And most importantly, spending 
restraint was the absolute essential key element.
    From 1992-2000, inflation adjusted federal spending increased at an 
average annual rate of $12.4 billion per year. Federal spending (as a 
percentage of income) declined for eight straight years, which reduced 
government spending from one out of every four dollars of national 
income to one out of every five dollars. By 2000, average Americans 
worked 14.3 days less of the year to pay off their federal spending 
burden than in 1992. This enabled the country to move from deficit to 
surplus.
    Yet, as the budget scenario continually improved, a new culture of 
spending took hold. No longer could members tell the Washington 
spending interests ``no'' to new spending requests. Over time the new 
ideas for spending programs continued to increase and when the economy 
started to slow, the promises of new spending continued despite the 
change in the budget outlook.
    In fact, spending has accelerated in the wake of slower economic 
growth. The average annual spending increase from 2000-2004 has been 
$95.4 billion, more than 7 times the average annual rate in the 
preceding eight year period and more than twice the growth of household 
income.
    I would note some of this spending is related to the two wars, 
homeland security, and fighting the War on Terrorism. Moreover, 
mandatory programs such as Medicare and Medicaid are increasing at 
double digit rates. But even with that, non defense, non homeland 
security spending continues to substantially increase.
    And it is exactly because of programs being proposed in S. 2590. In 
speaking with members in both the Senate and the House, I often hear 
``but this is program is so small'' compared to total spending or the 
budget deficit. Yet, this argument misses the main point. Every member 
has their own projects and when they are combined together the 
compounded effect is quite large.
    Moreover, these programs continue to grow over time. As I 
mentioned, many programs continued to come into existence starting in 
1999. The original cost and scope of these programs have grown over 
time. S. 2590 will be very similar. The legislation we are speaking 
about only has a local component and will be in existence for six 
years. The total cost is roughly $1.425 billion a year. Yet, the true 
intent of the proponents of this legislation is just to get the 
legislation in place then extend it to a new federal component. All 
this adds new costs which over time compounds and combined with 
hundreds of other programs also having the same effect at the same time 
results in a deep pressure on taxpayers to pay higher taxes.
    Another major sticking point with the proposed legislation is the 
bypassing of the appropriations process. This is terrible fiscal policy 
for several reasons. First, in case of an emergency, revenues cannot 
easily be moved back into the general fund. Second, accountability of 
spending gets lost in the bureaucratic shuffle and fuels waste and 
mismanagement. Third, a dedicated fund will tie the hands of Congress 
in the future when spending priorities may shift drastically. Budgeting 
should be done so that all proposals must compete for limited funds.
    The federal and state and local governments already own too much 
land as it is. Roughly 40 percent of all land in America is owned by 
the government. This is too much. According to the federal land 
agencies themselves, they have a backlog of billions of dollars in 
operations and maintenance on these federally held lands. But instead 
of addressing this problem, this bill would spend record amounts of 
money on buying more land instead of taking care of the land that the 
government already owns.
    The new purchases of land will stifle economic growth in rural 
communities and further reduce local property tax bases. This is 
important because in almost all jurisdictions, local property taxes are 
the primary funding source for important services such as schools, 
police protection and fire departments. Also, once all of this land is 
bought, taxpayers will have to take care of it. This will add to 
overall federal spending and increase the existing backlog in 
maintenance and operations of land the federal government already 
controls.
    I would also add that many members of this Committee are on record 
complaining about the federal budget deficit and yet voting for this 
legislation will only further exacerbate the situation. This 
legislation is moving revenues out of the general fund and into a 
dedicated fund. The lost revenues to the general fund will need to be 
made up with higher taxes and/or more bonding.
    The federal revenue situation is improving. Despite this Congress 
passing the third largest tax cut in American history federal revenues 
are actually increasing. Revenues in the first nine months of the year 
have increased 3.5 percent compared to same nine month period a year 
ago. Tax collections have increased by more than 10 percent in three of 
the past four months and the Congressional Budget Office (CBO) revenue 
targets for the fiscal year have already been met, despite the fact 
that three months remain in the fiscal year. As a result, ATR is 
forecasting a reduction of deficit of roughly $60 billion when the CBO 
summer update is released next month.
    Yet, as the evidence shows from the previous decade, stronger 
economic growth only gets you so far in reducing the deficit. For every 
new dollar the federal government is taking in two dollars of federal 
spending is being spent. It does not take a Nobel Laureate economist to 
figure out this formula will never bring the budget back into balance.
    Fiscal responsibility starts right here with S. 2590. This program 
is an assault on every American taxpayer from a number of different 
angles. I urge the committee to reject this ill advised policy and 
start the process toward true fiscal accountability.
    Thank you for your time and I will be happy to answer any questions 
from members of the committee.

    The Chairman. Thank you.
    Senator Cantwell, we are going to let you ask first since 
you have not had an opportunity. Are you ready?
    Senator Cantwell. Yes, Mr. Chairman. Thank you for that. I 
appreciate the opportunity to join my colleagues on this 
important hearing. I want to thank you, Mr. Chairman, for 
holding this hearing. I think this is a very important issue to 
people in the West and I would say to people throughout 
America.
    Certainly my colleague has a unique circumstance in 
Louisiana that makes this issue imperative to her, but I can 
guarantee her that there are other issues throughout the West, 
where rapid-growing communities are faced with the challenge of 
preserving and protecting recreational areas in urban areas. I 
think that our challenge has been that we have been basically 
outpaced by the demand. Consequently, this fluctuation in 
funding through the committee process, where funds are actually 
supposed to be dedicated to these resources and then not 
actually authorized and appropriated, has been very 
frustrating, I think, to lots of local governments throughout 
America.
    My question. Mr. Diamond, you seem to have quite a bit of 
history here with this issue. One of my predecessors from the 
State of Washington, Henry Jackson, Senator Jackson, was a very 
big supporter of the Land and Water Conservation Fund.
    Mr. Diamond. A member of the original commission.
    Senator Cantwell. And a member of the original commission. 
At that time, President Kennedy and Senator Jackson and many 
others saw the basic growth patterns of the United States, and 
saw that the West was becoming, with the interstate highway 
system and suburban development, a very rapidly growing part of 
the country. And that is where the Land and Water Conservation 
Fund came from.
    So now here we are today, and I applaud my colleagues for 
coming up with this proposal. Without a process in place, it 
seems to me that what happens is that State and local 
governments are now without the resources that had previously 
been provided by the Land and Water Conservation Fund 
throughout the 1960's and the 1970's. And now demand is 
completely outpacing available resources.
    So if you could comment on this instability of the fund 
that we are currently seeing, and on the fact that, as it seems 
to me, we actually are stealing these resources from Land and 
Water acquisition and using them for other purposes in the 
budget. Am I correct on that?
    Mr. Diamond. We would say that Congress' wisdom is 
reallocating. But yes, it has been taken away.
    You raise a very important point. There was a very precise 
process put into place by the Land and Water Fund where 
governments had to plan the so-called State-wide comprehensive 
outdoor recreation plan and look forward over years to doing a 
well-planned, well-thought-out development of recreation 
resources and parks.
    We saw a chart on the Federal fluctuations earlier. The 
same has been true in the States. The States have not been able 
to plan, and this not only hurts park, it hurts property owners 
who stand in line often and say, when are you going to buy my 
property. So a smoothing out--that is one of the basic precepts 
I think that Senator Landrieu and Senator Alexander have 
brought about, a smoothing out and having a permanent funding, 
which will give certainty and save money.
    Senator Cantwell. And allow us to do better planning.
    I wonder if I could ask Mrs. Marzulla if she supports--I 
was listening to the principles that you were talking about for 
your organization. Do you support the current Land and Water 
Conservation Fund activities?
    Ms. Marzulla. I will not profess to be an expert on 
everything that the Conservation Fund does, but I certainly 
support the principles of conservation and outdoor recreation 
and wildlife protection. My point is really a very targeted 
point, which is enough is enough in terms of government land 
acquisition. The objectives that we have talked about here 
today we fully support, but more government land is not needed 
in our opinion. At least not a wholesale acquisition of land is 
not needed to accomplish these objectives.
    The Constitution has always been and interpretations of the 
Constitution, the way it was formed, has been very clear that 
property rights are fundamental and essential and regardless of 
what objectives we want to accomplish, we should not do so by 
breaking the back of private property ownership.
    Senator Cantwell. I understand that point, but the Land and 
Water Conservation Fund does now partner with State and local 
governments, and land is acquired by partnership between them 
and the Federal Government. So I would think under what you 
were just describing, you would not support this. But maybe you 
could look at that and get back to the committee, because my 
sense is that you probably do not support the current program 
either.
    Ms. Marzulla. Well, that may be true. I would like to have 
a chance to respond to that.
    But the point that I also made toward the end of my 
testimony is one that I would really urge the committee to look 
closely at. I know a number of Senators have bounced the idea 
back and forth, and that is the notion that there be no net 
loss of private property. I think we have all acknowledged that 
there are many States out West, Nevada, 80 percent government-
owned. To the extent that the fund is used to acquire land 
elsewhere, then it seems to me a good principle would be to 
have land that is currently in private ownership restored to 
private ownership.
    Senator Cantwell. Thank you. I see my time is up. Mr. 
Chairman, I wanted the witnesses to have their opportunity to 
respond. But if I could submit a longer statement for the 
record and just say that I think that what our colleagues are 
putting before us is something that is very important. Mr. 
Diamond's point about how to plan over a period of time, for 
many of our western regions that have such rapid growth, is a 
very difficult thing. And then to have local governments go 
through a process, which is actually a very good process of 
prioritization, so that taxpayer money is being spent in the 
right ways. Looking at the demand across the country, 
prioritizing the need, coming up with the criteria--this would 
be a much better process.
    What is very frustrating to local governments in my State, 
and I would assume in other States, is to have none of their 
priorities funded, and then to have one of their Members of 
Congress stick in their favorite park or their favorite 
appropriation bill, and that is the only thing that gets 
funded. This is a very challenging and frustrating thing. So I 
think there is a lot to be gained for the taxpayers in the kind 
of program that prioritizes projects and tax dollars. Thank 
you.
    The Chairman. Thank you, Senator and you might submit your 
statement or questions at your leisure. Whoever they are 
directed at, would you please answer to them to each member of 
the committee?
    Senator Alexander.
    Senator Alexander. Thanks, Mr. Chairman. I want to thank 
each of the six witnesses for traveling some long distances, as 
Charles Jordan did, but all of you have made a special effort 
to be here. You have been succinct. I have read your 
testimonies. It has been a great help to us as we really try to 
work our way through this.
    We are not trying to be a debating society here. We are 
actually trying to see if we can come up with something that 
will create a consensus. So we are doing something Senators are 
not always accused of doing, which is listening and seeing if 
we can find a way through this.
    I have two or three questions. I will try to be brief in my 
questions so I can get to more of the witnesses.
    Mr. Clifton, I respect and understand the point about 
mandatory spending. Given your concern about mandatory 
spending, would you recommend that we repeal the 50 percent 
State royalty for onshore oil and gas drilling that this year 
gave $500 million to Wyoming, $318 million to New Mexico, $62 
million to Colorado, and $54 million to Utah without ever going 
through the Federal budget?
    Mr. Clifton. Senator, Americans for Tax Reform would like 
to see as much go through the Federal budget as possible. We 
just passed a Medicare prescription drug bill. The Congress 
decided that it was important. At the same time, the system is 
going broke in 2018. Social Security is going to go broke in 
2042. Give a year or two----
    Senator Alexander. No. I----
    Mr. Clifton. I am sorry to interrupt. At this point we do 
not think that anything should be added to the mandatory side--
--
    Senator Alexander. But the question is, would you be in 
favor of repealing the mandatory spending? Since you oppose a 
royalty for offshore oil drilling, to be evenhanded, would you 
be in favor of repealing the existing royalty for onshore oil 
and gas drilling?
    Mr. Clifton. I have not looked at it fully, to be honest 
with you. I think it is a great question. I will promise I will 
look at it and get it to the committee.
    Senator Alexander. I would appreciate that.
    Mr. Clifton. My major concern is adding any new types of 
entitlements in the wake of the Medicare prescription drug 
benefit.
    Senator Alexander. Thank you.
    Ms. Marzulla, I appreciate your suggestion, and let me see 
if I can hone in on a few things to understand your position. 
At one point in your testimony, you say in our view there is no 
legitimate justification for any government, State or Federal, 
to acquire any more private property in this country. Is that 
what you mean?
    Ms. Marzulla. I think conceptually yes, but I acknowledge 
and tried to do so articulately in my testimony, and perhaps I 
failed to do so--we acknowledged that there are instances where 
government must acquire more private property, but we urge this 
committee to adopt an approach that is narrowly tailored with a 
heavy presumption, a rebuttable presumption, but nevertheless a 
heavy burden on government justifying a need for more 
acquisition of private property. Personally I think we have 
enough, and that is why we support the notion of a no net loss 
of private property. I think it is an idea with a lot of 
appeal.
    Senator Alexander. Well, that is actually a very 
constructive suggestion. Obviously, if we needed new schools, 
we need new land, or if we need a new park, we new land or a 
new port. But the overall sense I got from you is I think I 
understand your point, and I am not sure I disagree with most 
of it, particularly in the western United States where we own 
so much of the land. Senator Thomas had suggested no net gain 
as one way, to use a word of yours, to try to achieve some 
balance in what we do.
    Another thing Senator Landrieu and tried to do in 
fashioning this bill was to say that in spending in this money, 
there would have to be a willing seller/willing buyer, in other 
words, no land condemnation. Is that also something that would 
help achieve balance in your view?
    Ms. Marzulla. I listened very carefully to that exchange, 
frankly with some surprise to the notion of the willing seller. 
Perhaps in Louisiana they do things differently, but our 
experience has been that the notion of a willing seller is more 
of a fiction than a reality. Typically what we see is the 
Government comes in with the heavy hand of regulation and 
threats of condemnation and then says, gee, we will buy your 
property. Guess how far below the fair market value we are 
going to give you, and that is it, take it or leave it.
    So to the extent that this committee could struggle with 
the notion of ensuring that there be adequate protections in 
place, guaranteeing a true fair market exchange looking at some 
of the principles appraisers use, that would be something that 
we would endorse.
    Senator Alexander. That is very helpful, and as you reflect 
on this, if you have other suggestions that you see that as the 
legislation is making its way through, that would help achieve 
a better balance that protects property rights, recognizing 
that most of what we do here is a conflict of objectives and 
principles, I would welcome seeing them.
    If I may ask one last question of Mr. Diamond. With your 
long experience with the Land and Water Conservation Fund--
maybe this is something you have already said, but looking back 
all the way to 1958 and 1962, what can you say to those who 
would say that it is inappropriate to take a steady stream of 
funding and make it mandatory for spending rather than an 
appropriated year-by-year approach? How would you sum that up 
in the strongest possible way?
    Mr. Diamond. We thought about this, Senator. How can we 
come up here and say with all of the public needs, this one 
should be a dedicated fund? I think there are several reasons.
    One we alluded to earlier, the planning process makes being 
able to know in your bill that for 6 years this is what 
happens.
    But more fundamentally in our view there was a trust made 
with the American people in the original Land and Water 
Conservation Fund whereby some portion of the resources that 
are being extracted and the public owns them, that some of 
those resources would go back to other resources which the 
public wanted, and we think this is the basic justification for 
a dedicated fund. It is rather different. It is not a tax 
source, but it is a revenue source coming from a like kind, and 
we believe that is the sound basis for it.
    Senator Alexander. Thank you, Mr. Chairman.
    The Chairman. Senator Landrieu, I am going to ask my friend 
Senator Alexander, can you stay for a couple minutes?
    Senator Alexander. I can.
    The Chairman. So you can preside while Senator Landrieu----
    Senator Alexander. I will be happy to.
    The Chairman. Because I have to be somewhere, but I would 
like to ask two questions and then excuse me.
    First, I join Senator Alexander in thanking all of you. 
Whatever difficulty it has been for you to come here, I think 
it is worthwhile. The cause is worthwhile, so your presence is 
worthwhile.
    Mr. Diamond, were you the author of the report that we are 
talking about?
    Mr. Diamond. I was the editor, yes, sir. It was a 
commission made up of eight Members of Congress and seven 
private citizens, but I was a staff editor of the report.
    The Chairman. Now, when was that done?
    Mr. Diamond. It was reported to President Kennedy in 1962.
    The Chairman. Have we made any strides since that report?
    Mr. Diamond. Oh, yes, sir. I think we tend to forget that 
the Federal Government did not buy land for park purposes 
really. Cape Cod maybe in 1962 is the first time. It came out, 
as this committee well knows, of the public domain. I think the 
Land and Water Fund has helped the Federal Government fill in 
much needed inholdings, buy new areas which were needed and 
help the States to create this system that my friend Charles 
Jordan referred to.
    The Chairman. Let me say to Ms. Marzulla, I believe you 
have contributed to our discussion. I have noticed that Senator 
Alexander and Senator Landrieu are very willing to accept ideas 
that will make this legislation more palatable to a broader 
section of Senators, and some ideas that you put forth will 
clearly be looked at.
    Let me ask you Mr.--tell me how you say your last name 
again?
    Mr. Angelle. You can call me what you want if we can get 
the right money, but it is Angelle.
    [Laughter.]
    The Chairman. I did not tell you that that was any quid pro 
quo.
    [Laughter.]
    The Chairman. I will call you Scott if that will relieve me 
from the responsibility of assuring you of money.
    [Laughter.]
    The Chairman. I want to ask you--if you know, okay; if you 
do not, will you find out--first, can you cite the leveeing of 
the Mississippi and impacts from OCS oil and gas exploration 
and production as two reasons Louisiana is losing 25 square 
miles of wetlands each and every year?
    Mr. Angelle. Yes, sir. I appreciate the opportunity that 
you had to visit with us in the State. Certainly the leveeing 
of the Mississippi River----
    The Chairman. Were you there when I visited?
    Mr. Angelle. No, sir. Actually I was doing something else 
in local government at that time.
    The Chairman. I think they told me that.
    Mr. Angelle. The leveeing of the Mississippi River 
certainly had great intentions and some of the unintended 
consequences of interrupting the deltaic system--the 
Mississippi River can no longer overflow its banks and 
replenish the coastal marshlands and wetlands of Louisiana. 
Certainly a majority of scientists have come to that 
conclusion.
    When we talk about the oil and gas situation, we talk about 
the gulf intercoastal waterway and the navigation channels that 
have been built and saltwater intrusion. While we are very 
proud of our relationship with the oil and gas industry and 
look forward to continuing our role to serve America's energy 
needs, there is no question that there has been some impact.
    The Chairman. Now, under section 8(g) of the OCS Lands Act, 
Louisiana has received $969 million since 1986. How much of 
that revenue that Louisiana receives from the Federal oil and 
gas activities is spent on wetlands mitigation?
    Mr. Angelle. I am not qualified to answer that at this 
time. I can get that for you and enter it into the record, sir.
    The Chairman. Would you be surprised if it was none?
    Mr. Angelle. I would say that it is my understanding that 
the majority of those funds have been used for education. 
Obviously, in Louisiana we put that at the very top, and we are 
making considerable strides in our education. In fact, here 
recently, one of the accountability acts that was passed in 
Louisiana is now being used as a model in America. So we are 
proud of that, and it has helped us in a lot of areas. But 
certainly coastal restoration is a very important issue for us.
    The Chairman. But you understand the purpose of my 
question.
    Mr. Angelle. Yes, sir.
    The Chairman. Could you also tell the committee--if you do 
not know, if you would get it--how much does the State of 
Louisiana realize in property, payroll, and corporate income 
from the OCS oil and gas exploration and production?
    Mr. Angelle. I will get that answer for you, sir.
    The Chairman. How much does the State of Louisiana realize 
in income from oil and gas exploration and production on State 
lands and how much of that income is devoted to wetlands 
reclamation and mitigation? Now, I mean submerged State land.
    Mr. Angelle. I can answer that question. I think here in 
the current year about $450 million direct to the State budget. 
One of the positive things that we have done in Louisiana is we 
have adopted a constitutional amendment that provides and 
dedicates a portion of those funds to coastal wetlands 
activities. We are using those funds to match some of the 
requirements of our Federal partners.
    The Chairman. Before I leave, I want to also congratulate 
the two lead sponsors of this bill. Senator Alexander, I 
commend you. You have done a lot of work. You told me about 
this when you first came here, and it is extraordinary that you 
have moved this rapidly and understand this so well. But I 
would not be surprised because you have great experience in 
working on these kinds of things.
    Senator Landrieu, I have gotten to know you very well. I 
was very privileged to be in your State. Now all I have to do 
is find a reason for getting you to come to my State.
    [Laughter.]
    The Chairman. Thank you very much, and I thank the 
witnesses.
    Senator Landrieu. Thank you, Mr. Chairman. The chairman has 
been so gracious with his time and has to step out, but I am 
going to be proud to submit what Louisiana has contributed to 
this effort over the last 20 years with virtually little help 
from the Federal Government, to remind the staff and others, 
that we have to put up 25 to 40 percent of all the Corps of 
Engineers projects that go on in our State. A lot of those 
projects are not just for flood protection, but for commerce 
and dredging. So the taxpayers of Louisiana pick up a 
substantial amount of money to manage and maintain this coastal 
area, not for the benefit of just the people that live in 
Louisiana. We drain two-thirds of the continental United 
States, and we are trying to preserve 80 percent of the coastal 
wetlands left in the United States of America. Those coastal 
wetlands do not just benefit the 4.5 million people that live 
in our State, but they benefit the 300 million that live in the 
United States.
    So I will submit more details to the record, but I did not 
want this committee to close, Senator Alexander, with there 
being any thought that the taxpayers of Louisiana have not 
contributed mightily to this effort, basically standing alone 
against the tide, on top of which we are contributing, as I 
said, anywhere from $2 billion to $6 billion, depending on the 
leasing activity, virtually alone in the Nation. And it is a 
tragedy and a crime that we have not been compensated in a fair 
and more just manner than we have to date.
    In addition, for the taxpayers of Louisiana to be willing 
to share this revenue with the rest of the country, even to 
those States who refuse to produce the oil and gas themselves, 
is also a testament to the generosity and the big-heartedness 
of people in Louisiana who understand.
    I just have two questions, and then I will be ready to wrap 
up.
    I want to understand, Mr. Clifton, if the people that you 
represent, given their choices to send the $6 billion either to 
the Federal Treasury for general expansion of operating 
revenues or would they rather see a portion of this revenue 
dedicated to preserving, to be good stewards of the land we 
already have, and purchasing property so that all taxpayers, 
whether you are wealthy or middle income or poor, could 
benefit? Are you testifying before this committee that the 
people you represent would rather see the Federal budget 
expanded as opposed to an investment in conservation?
    Mr. Clifton. Senator, I think that is a great question. Let 
me first say we represent about 100,000 taxpayers who are 
members of Americans for Tax Reform. They have joined our 
membership because they oppose enlargement of the Federal 
budget and Federal spending.
    But with that said, the Federal Government is still 
providing a lot of money right now for conservation. Let me 
give you an example. The National Park Service right now is 
spending an enormous amount of money, despite the backlog.
    But with that said, what we see as the trend happening 
nationally is local governments instituting taxes on top of 
their property tax rate dedicated for open space and 
conservation purposes. We also see State governments now 
branching into that. The common identity of those programs is 
that voters are voting themselves--some of them get rejected, 
some of them get approved, but voters are having a say whether 
they would want higher taxes for those purposes. Do I have an 
exact breakdown of how that has panned out right now? No. But 
the fact is that taxpayers have a choice. Here it is very much 
more diffused from the taxpayer and our members are opposed to 
new spending on Federal programs.
    Senator Landrieu. Well, you may want to just take back one 
of the goals that Senator Alexander and my bill which is to 
keep taxes lower and to use the taxes that we already have in 
ways that the taxpayers tell us that they want those moneys 
spent. I would like to submit to your organization the most 
recent study conducted by Mr. Luntz.
    Mr. Clifton. Frank Luntz.
    Senator Landrieu. Frank Luntz, thank you. It indicates 
exactly that point, that the taxpayers of the United States 
would like to see a portion of the tax dollars already being 
paid, not new dollars, directed to these programs.
    Ms. Marzulla, just one question. Under the philosophy of I 
guess people who have money can own property and those that do 
not do not get the benefits of it, how does your organization 
argue the idea that people with less resources would obviously, 
under your philosophy, have access to open space or lakes or 
streams because unless you can own it, you cannot use it? How 
do you all square your philosophy? Because I hear you say that 
you think that all property should basically be privately 
owned. In that case, only the people that own it could use it. 
So what about the millions and millions and hundreds of 
millions of people that do not own a lake? Where do they go to 
swim?
    Ms. Marzulla. Well, I could spend the rest of the afternoon 
answering that question because it is----
    Senator Landrieu. Well, try to answer it, if you could, and 
I am serious. Where do the people that do not own a lake go to 
swim? I would like to give you a minute and a half to answer 
that.
    Ms. Marzulla. Okay. First of all, I would like to just 
clarify that property, of course, is more than just land, but 
the topic of course is land.
    I think the short answer is that I do not think that the 
only way that we can have outdoor recreation in this country is 
by government ownership of land or water. There have been 
countless studies done. I would be happy to submit reports and 
analyses that talk about private ownership and ways of 
accomplishing many of the objectives, if not all of the 
objectives, that we have talked about here today.
    But I would also like to underscore the fact that my 
testimony is not that we should have no government ownership of 
any land for any reason ever. My testimony today is to urge the 
committee not to create a slush fund to acquire more. The 
balance has been struck. There is a balance between government 
ownership of land and private ownership of land. And it is a 
constitutional balance that is being struck. So let us not go 
off in the direction of extremities.
    Senator Landrieu. I would agree with that. So when you 
refer to communism, that might be something that we would want 
to keep in mind.
    But I would like answer to my question in writing, if you 
would. Where do the people that do not own a lake swim? And you 
can submit that to me anytime in the next couple of weeks. 
Thank you.
    Ms. Marzulla. I would be delighted to.
    Senator Alexander [presiding]. Senator Landrieu, thank you.
    I do not know how the Senator from Louisiana feels about 
it, but we go to lots of hearings. This has been one of the 
better hearings, I think, that I have had a chance to attend 
because we have had a very clear purpose. We have had good 
attendance from a lot of Senators. They provide lots of 
different points of view, and we have had excellent witnesses. 
The administration's testimony was on point and direct and very 
helpful. And then the six of you I think gave us exactly the 
range of thoughts and opinions that we hoped to elicit. We did 
not want to just get one side or we did not want to hear the 
cheerleaders of the opponents. We wanted to hear, in this big, 
complicated country of ours, what should we take into account 
as we try to move ahead with this.
    And we have heard about Louisiana's interests and what is 
happening on the coast.
    Charles Jordan, as he has for years, eloquently talked 
about city parks. I well remember President Reagan's Commission 
on the Americans Outdoors. One of its most important points was 
that so many people live close to home, let us create some 
parks close to where the people live.
    Mr. Baughman reminds us of the great gains we have made 
with our, I still call them, game and fish commissions across 
this country. These are the organizations that our hunters and 
fishermen love because they create sporting and outdoors 
activities that all of us enjoy.
    Henry Diamond has brought us a perspective that spans the 
whole history of the Land and Water Conservation Fund, for 
which we are very grateful.
    Ms. Marzulla, I appreciate your specific suggestions that 
we can consider about how to achieve a better balance, as we 
consider land acquisition.
    Mr. Clifton, thank you for your directness about the 
importance of keeping in mind our budget.
    Senator Landrieu and I now intend to work with our 
colleagues. We are going to fashion an amendment to the 
existing legislation that will include the Federal side of the 
Land and Water Conservation Fund, but we have learned some 
things here today and from our colleagues that we need to take 
into account there. Then we will decide where to go from here.
    She has been working on this for a number of years. I want 
to salute her for that. During her whole first term, this was a 
major priority, and we would never have gotten to this point if 
it had not been.
    I had the privilege of working outside of Congress as a 
Governor with our State commissions and as chairman of 
President Reagan's Commission on Americans Outdoors. I think it 
is worth saying that this idea has had strong bipartisan 
support. It has had Presidential support. Let us see if as 
legislators we can find a way to create a consensus within the 
Senate that recognizes what I believe is the huge conservation 
majority in the United States that supports the Americans 
Outdoors Act.
    My final statement will be I would like to submit to our 
committee hearing a list of the two dozen Americans Outdoors 
bill supporters. These are organizations. Actually it is more 
like three or four dozen, ranging from the U.S. Conference of 
Mayors, the National Wildlife Federation, to the Boone and 
Crockett Club and a variety of outdoor recreation 
organizations. They have letters in support of this activity.
    Senator Landrieu, if you have nothing else, I thank the 
witnesses and the hearing is concluded.
    [Whereupon, at 12:40 p.m., the hearing was adjourned.]

                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

    NOTE: Responses to the following questions were not 
received at the time this hearing went to press.
                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                     Washington, DC, July 22, 2004.
Hon. Gale Norton,
Secretary, Department of the Interior, Washington, DC.
    Dear Secretary Norton: I would like to take this opportunity to 
thank you for sending your delegate, Assistant Secretary for Policy, 
Management and Budget, the Honorable Lynn Scarlett, to appear before 
the Senate Committee on Energy and Natural Resources on Tuesday, July 
20, 2004, to testify on S. 2590, a bill to provide a conservation 
royalty from Outer Continental Shelf revenues to establish the Coastal 
Impact Assistance Program, to provide assistance to States under the 
Land and Water Conservation Fund Act of 1965, to ensure adequate 
funding for conserving and restoring wildlife, to assist local 
governments in improving local park and recreation systems, and for 
other purposes.
    Enclosed herewith please find a list of questions which have been 
submitted for the record. If possible, I would like to have your 
responses to these questions by Tuesday, August 5, 2004.
    Thank you in advance for your prompt consideration.
            Sincerely,
                                          Pete V. Domenici,
                                                          Chairman.
[Enclosures.]

                    Questions From Senator Domenici

    Question 1. You testified that the Department of the Interior's 
cooperative conservation approach offers an alternative to land 
acquisition as the central way to achieve conservation of land. Please 
explain.
    a. Has DOI been able to leverage its federal dollars with this 
cooperative conservation approach? How so?
    b. How were these programs developed?
    c. Can you give me some examples of projects?
    Question 2. Your testimony highlights the Partners for Fish and 
Wildlife Program in which DOI has worked, from 2001 to 2003, with 
almost 9,000 landowners and communities to restore over 150,000 acres 
of wetlands and over 700,000 acres of prairies and grasslands. How does 
this program add value to your efforts?
    Question 3. Do you see any impact on these types of collaborative 
programs if S. 2590 is enacted?
    Question 4. S. 2590 provides a dedicated source of funding for a 
number of conservation projects. Has this Administration advanced 
conservation efforts in any other major way that goes beyond dollars?
    Question 5. You testified that the Administration's Budget proposes 
to allocate funds to priority coastal conservation needs through 
existing discretionary programs. Please explain.

                      Questions From Senator Craig

    The maintenance backlog continues to grow and is estimated to be 
over $23 billion. Although we don't know how much federal land this 
bill will add to the Federal estate, the sponsors have indicated that 
they plan on a Federal Land LWCF Acquisition provision to be added.
    If like in past proposal we add $450 to $500 million of direct 
federal land acquisition spending for the 6 years in this bill, or the 
20 years in its House of Representative companion bill, we are talking 
about $2.7 to $10 billion over the expected or potential life of the 
bill.
    At the same time, in three of the last four years we have expended 
more than a billion on fire fighting and this year has the potential to 
set both acres burned records, as well as a record for costs.
    Question 1. Ms. Scarlett, do you really believe that we can 
continue to acquire federal lands, when we do not have the funding 
needed to maintain these lands? Do you think it is responsible 
government to suggest that any additional federal land acquisition is 
reasonable or prudent.
    Question 2. I would like you to provide for this Committee a list 
of the federal land acquisitions that have been made over the last ten 
years, how much it cost to acquire the lands, how much new maintenance 
back log resulted, how much additional fire pre-suppression, and 
suppression costs were added to your work load, and how many new 
employees had to be added to ensure these lands are managed as they 
should be. I would like that list to be provided on State by State 
basis.
    Question 3. Somewhere in my memory, I recall that the original LWCF 
law indicated that only 15% of the LWCF funds would be expended in the 
Western States. Has that been the case over the last 20 years? Would 
you provide for the Committee a State by State and year by year 
accounting of funds expended under the LWCF program?

                      Question From Senator Thomas

    Question 1. The AOA would provide a significant amount of funding 
toward land acquisition at a time when our country has a tremendous 
maintenance backlog in all public land management agencies. Adding more 
land to the Federal domain should not be a priority at this time. Can 
you explain the maintenance backlog in all bureaus at the Department of 
the Interior, how the National Park Service has been addressing the 
maintenance backlog in the last 3 years, and whether the Park Service 
methods for assessing and prioritizing maintenance requirements would 
work for other bureaus?

                     Questions From Senator Bunning

    Question 1. Kentucky received $1.3 million dollars in State 
allocation from the Land and Water Conservation Fund last year. How can 
we in the Commonwealth and in other States expect both State and 
Federal funding levels to change with this new legislation?
    Question 2. This legislation calls for $1.425 billion in mandatory 
spending to fund these conservation programs. What are your concerns 
with this funding's exemption from the annual appropriations process?
                                 ______
                                 
                 Americans for Our Heritage and Recreation,
                                    Washington, DC, August 4, 2004.
Hon. Pete Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Senator Domenici and Committee Members: Thank you again for 
the opportunity to testify before the committee on July 20, 2004 to 
speak about the importance of the Land and Water Conservation Fund.
    Attached is my response to the series of questions submitted for 
the record from the hearing. I am happy to provide any further 
information to you and the committee.
    We hope that in the near future a markup of S. 2590 will be 
scheduled and that a final bill can be passed by the Senate.
            Sincerely,
                                             Henry Diamond,
                                                          Chairman.
[Enclosures.]

                    Questions From Senator Domenici

    Question 1. In your testimony, you note your organization's support 
for full funding for the LWCF program and UPARR. You also recommend 
dedicated funding for additional programs--namely the Historic 
Preservation Fund and Forest Legacy.
    a. Why were some programs included and not others in S. 2590 as 
introduced?
    b. Should all the programs included in H.R. 701 as reported by the 
Senate ENR Committee be included in S. 2590? If not, why not?
    c. If the answer to (b) is ``no'', are there other programs your 
organization would like to see added to this legislation?
    Answer. The Land and Water Conservation Fund and the Historic 
Preservation Fund are two programs that have traditionally been 
recognized by Congress to receive portions of receipts from the Outer 
Continental Shelf revenues. We would hope that any new trust fund 
created would recognize and honor the original programs tied to the OCS 
receipts and include them in the 21st century conservation trust fund.
    We do not know why the Historic Preservation Fund, along with the 
other programs in H.R. 701, was not included in S. 2590.
    Americans for our Heritage and Recreation did support the Senate 
Energy and Natural Resources Committee reported, H.R. 701, and the 
programs contained within the bill. We believe the Forest Legacy 
Program to preserve working forestlands and protect critical forest 
habitat through easements and we believe it should also be included in 
a permanent trust. The fragmentation of open space. The loss of 
critical habitat in many our states is a serious conservation concern, 
and the success of this program is proving that collaborative efforts 
between states, private land owners, and the federal government can 
make a huge difference.
    AHR also supports the addition of the Historic Preservation Fund 
(HPF) to the final bill. Like the state-side of LWCF, the HPF provides 
matching grants to encourage private and non-federal investment in 
historic preservation efforts nationwide. The HPF is legislatively 
authorized to receive OCS revenues and complements the work of state, 
recreation and wildlife grants through conversation of historic and 
cultural treasures.
    AHR is certainly happy to provide further testimony regarding other 
conservation programs that the Committee might consider adding to S. 
2590.
    Question 2. Some have accused this administration and past 
administrations and Congress of failing to properly manage and maintain 
the current federal estate. Given the current budget deficit that is 
projected to be with us for at least a few more years, do you believe 
it wise to mandate such significant spending on a relatively narrow 
range of programs?
    Answer. The Land and Water Conservation Fund was created to 
preserve our outdoor recreation and natural heritage. It is as 
important to the quality of our American way of life; it reaches into 
all communities (98% of all counties in the U.S. have received LWCF 
funds); and it is an excellent financial investment, by returning a 
tangible asset for a depleting resource.
    In the 1987 Report of the President's Commission on Americans 
Outdoors, the report noted:

        ``Accelerating development of our remaining open spaces, 
        wetlands, shorelines, historic sites, and countrysides, and 
        deferred maintenance and care of our existing resources, are 
        robbing future generations of the heritage which is their 
        birthright.''

    Due to the lack of carrying through on earlier commitments to LWCF 
we find in 2004 the situation remains even more at risk. Furthermore, 
alarming medical reports are finding our population at health risk due 
to lack of physical activity. Preservation of our outdoor resources is 
a foundation for health; competes with economic vitality in our 
communities; stimulates tourism; enhances environmental quality 
especially in protecting our air and water; protects key habitat for 
our plants and wildlife; and enriches our life and culture. Few federal 
programs bring as much return as does the LWCF program.
    We not only believe it is wise to invest and mandate the spending, 
we believe it is imperative. Further, we believe that the federal 
government should be doing more to manage and maintain our federal 
parks, forests, and refuges. We believe that Congress should use more 
appropriated dollars to address the maintenance backlog.
    Question 3. You testified there is a $10 billion backlog in land 
acquisition projects that have been identified by the federal land 
agencies. Please explain what you mean by backlog.
    a. Are these potential projects that the federal government would 
like to do but that have not received Congressional appropriations?
    b. If Congress, as the result of this bill, were to provide the 
full $450 million per year for the Federal LWCF program, after 6 years 
the program will receive $2.7 billion--only a portion of this backlog. 
Is that where you would see this new funding going? To the backlog?
    Answer. In March, 2001, the Natural Resources Policy, Environment 
and Natural Resources Policy Division of the Congressional Research 
Service, released a report on the Land and Water Conservation Fund: 
Current Status and Issues. The report by Jeffrey Zinn reports:

        ``The Department of the Interior has estimated that the overall 
        backlog for acquisitions that await funding exceeds $10 
        billion.''

    The backlog exists because Congress and the Administration has not 
provided enough money over the past 40 years of the annual 
appropriations to meet the need. Furthermore, the approximate $14 
billion appropriated for the Fund has been unevenly allocated among the 
states and four federal land agencies with average appropriations 
during the past 20 years ranging between $200 million and $300 million. 
The states have seen even greater uncertainty in their funding, with a 
number of years zero funds being appropriated.
    Land values have also dramatically changed during the past 40 
years. The purchasing power of federal dollars in 2004 is much less 
than it was in 1965, when the Fund was in its inception, creating even 
more demand on the agencies backload. Today's dollar doesn't buy what 
it once did.
    Congress has been the decision-maker during the past decade in 
deciding how much and where the federal dollars are spent. In FY 02 and 
FY 03 combined, 84% of LWCF appropriations went to the purchase/
acquisition of inholdings as opposed to expansion and dedication of new 
areas. We have consistently encouraged the federal land agencies to use 
their current authority under the LWCF to seek land exchanges, 
transfers, cooperative agreements, and easements, and we would hope 
that the increased spending would allow the federal agencies to work to 
reduce the long waiting period of willing-sellers for the government to 
purchase their inholdings.
    As noted during the hearing, history and natural events are not 
static. Since January, 1993, for the National Park Service alone, 
Congress has authorized the federal acquisition of 2.5 million acres of 
land at a cost of $338.8 million. Most of President Bush's FY 2005 
budget request involves Congressionally supported authorizations. One 
such authorization and budget request involves protection of land to 
commemorate the Flight 93 Memorial site. The flexibility of the Fund to 
be used for purchasing inholdings, conservation easements, and new 
acquisitions is a key to its achievement.
    AHR believes that if the $450 million of federal LWCF was 
guaranteed through this legislation, the federal agencies could do a 
much better job in stretching the federal dollar by collaborating with 
other federal agencies in exchange, transfers, use of easements, better 
appraisals and purchases, and greatly reducing the waiting period for 
the willing seller.

                      Question From Senator Craig

    Question 1. Mr. Diamond, In your testimony, you note your 
organization's support for full funding for the LWCF program, UPARR, 
and even recommend dedicated funding for additional programs--namely 
the Historic Preservation Fund and Forest Legacy.
    I notice you don't mention your support for the proposed Coastal 
Impact Assistant program in S. 2590. The bill proposed to fund this 
program at $500 million per year.
    Do you support funding for this effort or would you prefer the 
annual $500 million for coastal impact assistance be redirected 
elsewhere?
    Answer. Americans for our Heritage and Recreation had been asked to 
testify regarding the federal Land and Water Conservation Fund, and our 
coalition organization has not taken a specific policy position on 
Title I of S. 2590 at this time.
    As you know, the United State's Commission on Ocean Policy released 
its preliminary findings on April 20, 2004, AHR was especially pleased 
that the Commission sought to first use the offshore oil and gas 
royalties toward funding the Land and Water Conservation Fund (LWCF) 
and the Historic Preservation Fund, while applying the remaining 
royalties for coastal conservation purposes. We have commended the U.S. 
Commission on Ocean Policy for taking a leadership role in creating a 
long-term solution to help protect our nation's valuable shorelines and 
coastal beaches, while reaffirming the national need for more close-to-
home parks, trails, hunting and fishing areas, as well as thousands of 
athletic and playing fields.

                     Questions From Senator Bunning

    Question 1. This legislation calls for $1.425 billion in mandatory 
spending to fund these conservation programs. Given our already tight 
spending constraints, why should these funds in particular be exempted 
from the annual appropriations process?
    Answer. Americans value the outdoors, and for forty years, since 
1964 passage of the Land and Water Conservation Fund, localities, 
states and members of Congress have supported the simple principle that 
a portion of the receipts from the sale of nonrenewable resources owned 
by Americans--oil and gas from the Outer Continental Shelf--is 
reinvested in permanent assets for future generations.
    This legislation has been introduced to solve the fluctuation of 
the revenue stream getting from the Treasury to the states and federal 
land managers, as authorized.
    From 1982 through 1999 the disbursement of Federal and American 
Indian mineral lease revenues shows 62.2% of all the revenues returned 
to the General Treasury, with 15% of the revenues being used for the 
Land and Water Conservation Fund and 2.3% for the Historic Preservation 
Fund. (Report by the U.S. Dept. of Interior, Mineral Management 
Service). Currently more than 50% of OCS receipts are already made 
available to Congress and the Administration for its annual budget and 
appropriations process to be used for the government's discretionary 
spending. We believe that the fundamental principle that all Americans 
get return on their diminishing natural resources is a sound one 
supported by the American public. It is not an either/or situation.
    Nearly all of the federal acquisition projects appropriated during 
the past decade have been specifically earmarked by the Interior 
Appropriations Committee, at the specific request of Members of 
Congress. We do not have an objection to establishing a process for 
designation of expenditure of the funds that includes the 
Appropriations Committee in consultation with federal land managers 
through the Administration's annual budget request, but there must be a 
guarantee that the funds be spent for the purposes intended in LWCF and 
not be reprogrammed or returned to the U.S. Treasury unused.
    Question 2. This legislation will provide funding for many multi-
purposed and multi-jurisdictional programs. How can we ensure that 
there will be collaboration and communication among private, local, 
State, and Federal interests?
    Answer. AHR appreciates your question because we believe that best 
practices and efforts in protecting our natural environment happens 
when all parties, public and private, finds ways to work together. Our 
public lands are national treasures of enormous value, and serve as 
economic assets for our towns, cities and states where the federal 
lands are located.
    Many of the current statutes governing public land management 
require public processes to ensure that collaboration occurs at all 
government levels. For example, the state-side of the Land and Water 
Conservation Fund requires each state to produce a state-wide needs 
assessment that includes public review and comment, and is then 
reviewed and approved at the national level by the National Park 
Service. Most, if not all, federal acquisition projects receive review 
by the Appropriations Committee, which includes public hearings, 
letters of support from local communities, governors, and the Members 
of Congress that represent the land under consideration.
    AHR to build on the strong support and to encourage strong 
partnerships with the private sector, profit and non-profit, and with 
other federal, state, and local agencies.
    Question 3. You have mentioned that these programs have had good 
experiences working with sports fishermen and hunters. Could you 
elaborate on how sportsmen in Kentucky, for example, would benefit from 
this legislation?
    Answer. The Land and Water Conservation fund was created to provide 
American families with increased opportunities for outdoor recreation 
at national, state and local sites. More than 600 hunting and nature 
areas have been funded by LWCF during its 40 year history. Another 
10,000 swimming and boating facilities have been provided, along with 
5,000 campgrounds and overnight recreation areas.
    Kentucky has received through the state-side of LWCF $49,200,286.81 
(through FY 2000). Attached is a chart, * provided to AHR by the 
National Park Service, that shows all Projects that have been funded 
for fishing facilities, and two projects related to hunting for total 
$1,601,974.20.
---------------------------------------------------------------------------
    * The chart has been retained in committee files.
---------------------------------------------------------------------------
    A recent Centers for Disease Control (CDC) report shows that 55% of 
American adults don't move enough to meet the minimum recommendation of 
30 minutes of moderate-intensity physical activity on most days of the 
week. Kentucky was ranked as the least active state, with only 29% of 
its residents met the minimum physical activity requirements.
    Funding S. 2590 will provide a more reliable stream of funding for 
state wildlife, local parks, and recreation centers to plan, implement 
and provide the citizens of Kentucky with better outdoor recreation 
opportunities whether to hunt and fish, hike or bike, or enjoy the vast 
richness of the state's wildlife. Increased wildlife funding will 
enable state fish and game employees to protect important wildlife 
species habitat through cooperative agreements with private landowners.
                                 ______
                                 
                 Louisiana Department of Natural Resources,
                                  Baton Rouge, LA, August 16, 2004.
Hon. Pete V. Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Senator Domenici: Thank you for the opportunity to testify 
before the Committee on Energy and Natural Resources on Tuesday, July 
20, 2004. I appreciate your inquiry and the ability to respond to the 
questions regarding Louisiana's coastal wetland restoration program and 
its relation to Outer Continental Shelf revenues. Attached, you will 
find responses to the questions posed on July 22, 2004. I hope you find 
the responses informative and complete. However, if further 
clarification or information is needed, please do not hesitate to 
contact me at (225) 342-2710.
    As stated in my testimony, the S. 2590 bill is instrumental in 
Louisiana's effort to save our rapidly disappearing wetlands. Since 30 
percent of all oil and gas consumed in the country is either produced 
in or travels through our coastal wetlands, the reinvestment of OCS 
revenues in our restoration efforts is both logical and justified. I 
appreciate any support you could lend toward the passage of this very 
important bill.
            Very truly yours,
                                          Scott A. Angelle,
                                                         Secretary.
[Enclosure.]

                    Questions From Senator Domenici

    Question 1. Your testimony cites the leveeing of the Mississippi 
and impacts from OCS oil and gas exploration and production as two 
reasons Louisiana is losing 25 square miles of wetlands each year.
    Can you tell the Committee how much wetlands loss is attributable 
to each of those suggested impacts?
    Answer. Because these factors overlap in their areas of influence, 
it is impossible to distinguish between the relative impacts of each on 
Louisiana's current land loss crisis.

                                 LEVEES

    The most significant levees in South Louisiana are a system of 
dikes that were brought to modern grades as part of the Mississippi 
River and Tributaries Project (MR&T), authorized in 1928. This project 
had two major goals, to enhance navigation and reduce river flooding. 
Levees severed the river from its flood plain and tightly constricted 
the lower river (below Vidalia), precluding all overbank flooding, on 
which deltaic wetlands depend. Levees also result in the annual loss to 
the Louisiana coast of 200 million tons of vital sediment, which flows 
past New Orleans and is lost in the Gulf of Mexico.
    In addition to levees, several natural distributaries, including 
the Atchafalaya River, Bayou Manchac and Bayou Lafourche, were dammed 
or controlled, further limiting the river's influence and decreasing 
ecosystem sustainability. These distributaries once acted like arteries 
carrying vital river water, sediment, and nutrients to the large 
portions of the delta. The MR&T levee system also includes the Old 
River Control structure, which has been used to prevent the lower river 
from changing course thereby limiting the building of new land in the 
Atchafalaya delta.

               OCS OIL AND GAS EXPLORATION AND PRODUCTION

    Oil and gas production in coastal Louisiana began with a massive 
exploration and development program in the forties, extending through 
the seventies. Most of this activity took place in coastal wetlands, 
and was especially concentrated around salt domes that had been formed 
by the weight of the sediments that created the Mississippi River 
delta. Onshore development impacts included the direct ``footprint'' of 
a massive network of canals for oil and gas development and 
transportation and the indirect hydrologic impacts that result from 
them. Brine discharges from produced waters and marsh buggy tracks also 
caused enormous permanent damage to wetlands. Onshore production peaked 
in 1970 and steadily moved offshore, first into Louisiana waters and 
then into federal waters greater than three miles off our coast.
    In addition to disrupting the natural hydrology of the affected 
area, oil and gas canals also provide avenues for higher salinity water 
to move into previously freshwater marshes, thereby compounding the 
saltwater intrusion problems associated with levees.
    As OCS production increased and moved into deeper water, the energy 
service industry needed deeper channels to accommodate larger and 
deeper boats. These artificial channels, such as the Houma Navigation 
Canal, created conduits for storm surge flooding to move miles inland 
and caused major wetland impacts from saltwater intrusion and erosion 
from boat wakes. These damages and risks increase steadily.
    Servicing the OCS activity requires specialized port facilities 
that are accessible to larger, deeper-draft supply ships that can 
safely and economically cover the greater distances. These and other 
technological changes have spurred both public and private investments 
to upgrade the previously existing port infrastructure. Notably, Port 
Fourchon was constructed expressly to serve the deepwater industry. The 
thousands of people who work on offshore structures served by Port 
Fourchon as well as the stream of trucks bringing supplies to, and 
hauling waste from, this multi-million dollar facility must traverse 
100 miles of an often flooded two-lane state highway, much of it 
through marsh. The continued maintenance of this elaborate pipeline 
network and the port infrastructure within and at the expense of 
Louisiana's fragile wetlands will therefore be required to support the 
OCS industry. At the same time, it can be expected that state taxpayers 
will be incurring significant additional costs for projects to stop the 
catastrophic loss of wetlands exacerbated by oil and gas activities 
over many years, both onshore and offshore. The oil and gas comes 
across the Louisiana coast through a pipeline system that is 
increasingly prone to damage from subsidence and erosion of the 
wetlands that surround it. New pipelines that bring OCS oil and natural 
gas onshore will connect to an existing collection and distribution 
network that has developed within the marshes of the Mississippi River 
deltaic plain.
    Question 1a. Also, under Section 8(g) of the OCS Lands Act 
Louisiana has received $969 Million since 1986. How much of the revenue 
Louisiana receives from Federal oil and gas activities is spent on 
wetlands mitigation?
    Answer. Although coastal protection projects were constructed as 
early as 1981, the magnitude of Louisiana's land loss problem and the 
cost of the solutions were not fully understood even as recently as 
1986. However, the State was acutely aware of the need to increase 
funding to other socially important issues, such as education. 
Therefore, when section 8(g) was established, the State decided to 
dedicate this money to the impoverished education system in Louisiana 
by depositing these revenues into an Education Trust Fund.
    Question 2. How much does the State of Louisiana realize in 
property, payroll, and corporate income from OCS oil and gas 
exploration and production?
    Answer. The economic impact of OCS activities in Louisiana is hard 
to pinpoint. The few companies operating solely in Louisiana, who are 
active in the OCS, are also active in state offshore and onshore 
regions. The majority of the major companies who had corporate offices 
or drilling and exploration headquarters in Louisiana in the 1990's are 
now relocated to Houston, Texas. (Chevron-Texaco, Exxon Mobile, Ocean-
Meridian, Unocal and others).

                             PROPERTY TAXES

    Those corporations that do remain are a few large independent 
drilling and exploration companies. Most of their ``property'' is 
equipment and material that are not based on shore or are used in areas 
that are not taxable by state property or ad valorem taxes. The actual 
figures are unavailable, but, given the nature of the business in 
general, are in a sharp decline.

                                PAYROLL

    According to a recent MMS state paper on Louisiana, ``MMS and 
Louisiana--Summer 2003,'' ``An estimated 40,000 jobs directly depend on 
the offshore program--about 60% of them are in Louisiana. As of 2001, 
the average annual salary for these jobs was $58,000. These wages 
generate about $155 million per year in state and local tax revenues . 
. . Thus although OCS activities impose costs in Louisiana for roads, 
schools and other support activities for workers and families, the 
revenue from the OCS provides substantial benefits.''
    Although the MMS study does indicate a benefit, it unfortunately 
provides no quantifiable cost-benefit analysis. Our contention has 
always been that, yes, there are benefits to Louisiana, but many of 
these benefits are not solely to Louisiana but the United States in 
general. To a large extent the infrastructure burdens placed on 
Louisiana by the OCS are practically unrecoverable from a taxation 
perspective since a huge portion of the workers and most of the 
companies operating in the OCS are beyond the state's taxing authority.
    Although they work in Federal OCS area, many OCS workers live and 
pay taxes in areas far remote from Louisiana's taxing authority. Past 
efforts to find out where OCS workers live revealed that huge numbers 
(over 60% by some estimates) commute from Texas, Arkansas, Mississippi, 
Alabama, Georgia, Tennessee, Florida, and other states, as well as 
foreign countries such as Venezuela and Mexico. The 7 day on, 7 day 
off, 14 day on, 14 day off and similar schedules for offshore workers 
facilitate long distance commuting. Workers mostly pay taxes where they 
live, buy homes and cars, shop, etc. For large numbers of OCS workers, 
that is not Louisiana.
    Additionally, the production, equipment, property, profits, etc. of 
OCS companies and operations are in federal waters, beyond the taxing 
jurisdiction of the state of Louisiana, other than the incomes of 
employees and companies headquartered in Louisiana.
    Question 3. How much does the State of Louisiana realize in income 
from oil and gas exploration and production activities on State lands? 
How much of that income is devoted to wetlands reclamation and 
mitigation?
    Answer. As shown in the table below, Louisiana realizes a total of 
$802.48 million per year from oil and gas production within the state 
boundary. Of this, $25 million is appropriated directly to a 
constitutionally protected trust fund for restoration activities.

                 FISCAL YEAR 2003/04 OIL AND GAS REVENUE
------------------------------------------------------------------------
                                                             State Lands
                                              Total State      & Water
                                              ($ million)      Bottoms
------------------------------------------------------------------------
Royalty...................................          409.39       409.39
Severance\1\..............................          439.60        22.51
Bonuses...................................           23.79        23.79
Rentals...................................           11.67        11.67
                                           -----------------------------
    Total Revenue.........................          884.45       467.36
Severance Parish fund.....................           41.03         2.10
Royalty Parish............................           40.94        40.94
                                           -----------------------------
    State Net Revenue.....................          802.48       424.32
                                           =============================
    Wetland Fund..........................           25.00        13.22
------------------------------------------------------------------------
\1\ DNR estimated number based on 10 months of actual data.

    Question 4. In your testimony, you note that since the enactment of 
the Coastal Wetlands Planning Protection and Restoration Act in 1990, 
more than 100 restoration projects have been initiated or completed.
    How much has Louisiana received under this Act to date?
    Answer. Since 1992, Louisiana has received approximately $712 
million from the Coastal Wetlands Planning Protection and Restoration 
Act (CWPPRA). The complexity of this restoration effort is 
unprecedented and project construction has been a learning process for 
scientists nationwide. Through CWPPRA, we have learned what types of 
restoration features are most ecologically beneficial and cost-
effective. We have also learned that small, site-specific projects are 
effective but at a very localized scale. While this scale is useful, 
the causes of land loss are basin-scale or greater. Thus, the 
strategies outlined in the Coast 2050 plan (see response to Question 
#5) must be implemented in order to provide an ecosystem-level, 
process-based approach to restoration of coastal Louisiana. Full 
implementation of the Coast 2050 plan has been estimated to cost $14 
billion.
    Question 5. Your testimony also notes that the state's ``Coast 2050 
Plan'' has served as a blueprint to rehabilitate the Louisiana 
coastline. Please describe this program in more detail. How has this 
Program been funded? How much funding has the program received to date?
    Answer. The Coast 2050 plan, completed in 1998, is a technically 
sound, science-based conceptual plan, intended to achieve the 
overarching goal of ``. . . sustain(ing) a coastal ecosystem that 
supports and protects the environment, economy, and culture of southern 
Louisiana and that contributes greatly to the economy and well-being of 
the Nation.'' Restoration strategies outlined in this plan were based 
upon elements of previous restoration efforts along with initiatives 
from private citizens, local governments, State and Federal agency 
personnel, and the scientific community. Additionally, new quantitative 
techniques for projecting future land loss patterns, a coastwide 
assessment of subsidence rates and patterns, and a comprehensive 
consideration of changes in fish and wildlife populations were 
incorporated. The three strategic objectives of Coast 2050 are: (1) to 
sustain a coastal ecosystem with the essential functions and values of 
the natural ecosystem, (2) to restore the ecosystem to the highest 
practicable acreage of productive and diverse wetlands, and (3) to 
accomplish this restoration through an integrated program that has 
multiple use benefits.
    Although Coast 2050 established a conceptual framework for 
restoring Louisiana's coast, it contained no mechanism for plan 
implementation or funding acquisition. Coast 2050 focused on a process-
based, ecosystem scale that would require construction of projects 
generally larger than had been previously implemented. Since 
completion, Coast 2050 has served as the guiding document for all 
restoration programs, including CWPPRA and the Louisiana Coastal Area 
(LCA) Study. If funded, the LCA plan will be the first big step towards 
implementing the Coast 2050 plan.
    Question 6. Your testimony further notes the Louisiana Coastal Area 
plan, a partnership the state recently created with the U.S. Army Corps 
of Engineers. According to your testimony, this plan addresses the 
critical near-term needs during the next five to ten years and creates 
a Science and Technology Program. Please describe this program in more 
detail. How has this program been funded? What are the projected costs?
    Answer. The Louisiana Coastal Area plan (LCA plan) is currently 
under consideration for Water Resources Development Act (WRDA) 2004 
authorization. It is one avenue we are pursuing in order to implement 
the Coast 2050 plan (see response to question # 5, above). The cost of 
the LCA near-term plan is estimated to be $1,961,380,000 over a 10-year 
period, with $1,171,110,000 of that total being requested for WRDA 2004 
authorization. Of this portion, $100,000,000 would be dedicated to the 
Science & Technology (S&T) program, and an additional $175,000,000 
would be used for an associated Demonstration Project program.
    The overall purposes of the Science and Technology (S&T) program 
are to provide the necessary planning and predictive tools for 
efficient program implementation, to facilitate resolution of 
scientific and technological uncertainties, and to integrate advancing 
science and technology into planning, design, and operation of future 
projects and program components. All activities of the S&T program 
would be coordinated through an S&T Office. The office would provide a 
physical location and a single point of contact for State and Federal 
agencies, universities, and private sector engineering firms and 
individuals with interests in science and technology related to the 
Louisiana coastal zone. The S&T office will coordinate scientific and 
engineering research and analytical tool development in support of LCA 
objectives. Demonstration projects are another tool that will be used 
by the S&T office to help advance the LCA program. Through focused 
design and monitoring of such projects, critical areas of uncertainty 
may be resolved, leading to more cost-effective project construction 
and operation in the future.
    The LCA plan builds upon the best available science and engineering 
knowledge, which has resulted in part from the restoration activities 
that have been ongoing in coastal Louisiana for the past several 
decades. The construction of over 400 projects of varying scales since 
1986 has taught managers what types of projects are most cost-
effective, achieve the intended ecological benefits, and are most 
appropriate for a specific location. However, uncertainty is inherent 
in ecosystems, and is therefore unavoidable when managing large-scale 
ecological systems. Acknowledging and identifying these uncertainties 
is critical to the advancement of any large-scale restoration program. 
Additionally, large-scale restoration programs may last for decades, 
and a mechanism is needed to ensure that the best available science and 
engineering knowledge continue to be incorporated into planning, 
design, and operation of components of the restoration program.
    As the LCA Program advances, uncertainty will be reduced through 
research and demonstration projects directed by S&T Office. Through a 
process called adaptive management, information resulting from 
demonstration projects as well as other research directed by the S&T 
office may be incorporated into future planning, design, and operation 
of individual projects within the LCA restoration program. 
Additionally, adaptive management allows for large-scale ecosystem 
restoration to proceed even as researchers work to reduce those 
uncertainties. Therefore, the S&T program and demonstration projects 
are essential pieces of the adaptive management of the LCA program.
    By instituting and funding a formal Science & Technology program we 
can recruit and maintain state-of-the-art expertise with appropriate 
support for modeling, monitoring and advanced engineering. Recognizing 
the critical role of applied coastal science for restoration, the State 
of Louisiana has already invested in a coastal R&D program currently 
housed in the Governor's Office of Coastal Activities and directed by a 
senior coastal scientist. This program is currently operating on state 
funds at close to a $1 million/year level.

                     Questions From Senator Bunning

    Question 1. This legislation calls for $1.425 billion in mandatory 
spending to fund these conservation programs. Given our already tight 
spending constraints, why should these funds in particular be exempted 
from the annual appropriations process?
    Answer. Louisiana has already lost 1900 square miles of land (an 
area the size of Delaware), and continues to lose coastal wetlands at a 
rate of 24 square miles per year. If restoration is not implemented 
quickly, Louisiana could lose another 500 square miles by the year 
2050.
    Saving these wetlands is not only important to the state of 
Louisiana, but to the Nation as a whole. Louisiana is nationally 
important in its contribution to energy supply and security. Nearly 30% 
of all oil and gas consumed in the United States either is produced in 
or travels through Louisiana. When oil and gas production from the 
Outer Continental Shelf (OCS) is factored in, Louisiana ranks first in 
the Nation in crude oil production and second in the Nation in natural 
gas production. Our wetlands provide protection for over 40,000 of 
miles of pipelines and major components of the infrastructure and 
services to support the OCS activities. In addition, these coastal 
wetlands protect an internationally significant complex of shallow and 
deep-draft ports from the destructive forces of storm-driven waves and 
tides. This complex handles 21 percent of the Nation's waterborne 
commerce, more than any other port in the Nation, and has the most 
active segment of the Nation's Gulf Intracoastal Waterway (GIWW) 
(Waterborne Commerce Statistics Center (WCSC), 2002). Coastal 
Louisiana's environmental services include commercial fishing landings 
at a dockside value of $305 million in 2002, and account for 
approximately 30 percent of the total catch by weight in the lower 48 
States (USDOC 2002).
    Additionally, the proposed restoration activities may also 
contribute to reduction in nutrient loading to the continental shelf 
that that is needed in order to reduce the hypoxic zone that develops 
each year off the coast of Louisiana. Currently, managers are looking 
to the farmers upriver in the Mississippi River basin to reduce 
nutrient runoff from agricultural fields. While this also will be 
needed to address the problem fully, diverting Mississippi River water 
through Louisiana's coastal wetlands before it reaches the open Gulf of 
Mexico is a crucial component of the overall effort to reduce the 
hypoxia problem.
    Historically, royalties from OCS oil and gas activities have 
bypassed Louisiana and gone directly to the Federal government. In 
2002, Louisiana only received 0.30% of the OCS revenue generated 
Nationwide. That is less that one-half of one percent of revenue 
returned to the state that leads the country in OCS crude oil 
production. These monies are crucial for the restoration of our 
coastline which contributes so greatly to the energy security and 
environmental sustainability of the Nation.
    Question 2. This legislation will provide funding for many multi 
purpose and multi jurisdictional programs. How can we ensure that there 
will be collaboration and communication among private, local, State, 
and Federal interests?
    Answer. Louisiana has a proven record of collaborative 
relationships among private, local, state, and federal interests. 
Through a variety of avenues, the state encourages communication 
between all who live and work in the coastal zone. Louisiana Governor 
Kathleen Blanco has elevated coastal restoration to the highest 
priority of state issues with which she will deal during the next four 
years. The Governor's Executive Assistant for Coastal Activities chairs 
a task force of all State resource agencies which authorizes all 
restoration program and project funding.
    The Governor's Advisory Commission on Coastal Restoration and 
Conservation was established in 2002 to represent the principal 
stakeholders (business and industry, commercial and recreational 
fishing, local government, NGO's and the national environmental 
community, etc.). Its purpose is to advise the Governor and state 
legislature on the overall status and direction of coastal restoration 
and to foster coordination among federal, state, and local agencies and 
the public.
    Louisiana's Coastal Zone Management Program involves a partnership 
between Louisiana's Department of Natural Resources (LDNR), NOAA, and 
local parish governments. A Parish Coastal Wetlands Restoration Program 
is implemented through local governments throughout Louisiana's 20 
coastal parishes. LDNR coordinates this program, which primarily 
involves construction of low-cost shoreline protection structures.
    Finally, Louisiana has three very good examples of effective 
collaboration and communication among all interests in the coastal zone 
with regard to the restoration program.

  <bullet> The Coastal Impact Assistance Program (CIAP) provided a one-
        time appropriation of $150 million to assist states in 
        mitigating impacts from Outer Continental Shelf oil and gas 
        production. Louisiana was one of seven coastal states eligible 
        to receive funds under CLAP. In 2001, Louisiana received $26.4 
        million that was utilized for project construction, monitoring, 
        erosion control, or control of invasive species. Before coastal 
        states and coastal political subdivisions received funding, the 
        state was required to submit a CIAP plan detailing how funds 
        will be spent. In Louisiana, the LDNR was responsible for 
        creating this plan utilizing input from private, local, and 
        state interests.
  <bullet> Significant federal involvement in coastal restoration began 
        in 1990 with the passage of the Coastal Wetlands Planning 
        Protection and Restoration Act (CWPPRA). This law allocated 
        federal funding for the planning, identification, and 
        implementation of priority coastal restoration projects. The 
        CWPPRA program is guided and directed by the Coastal Wetlands 
        Conservation and Restoration Task Force comprising 
        representatives from 5 federal agencies (USACE, NOAA/NMFS, 
        NRCS, USFWS, and USEPA) and the State of Louisiana, represented 
        by the Governor's Executive Assistant for Coastal Activities. 
        This group makes final decisions concerning issues, policies, 
        and procedures necessary to execute the CWPPRA program and its 
        projects. Considerable collaboration and communication on a 
        federal level has been demonstrated over the past 14 years 
        through the construction of 68 CWPPRA projects.
  <bullet> A clear example of Federal/State/Local cooperation in 
        Louisiana came in 1997-1998 when federal, state and local 
        governments collaborated to create the Coast 2050 plan. This 
        restoration plan outlines the general ecosystem strategies for 
        restoring coastal Louisiana. It is based upon elements of 
        previous restoration efforts along with new initiatives from 
        citizens, local governments, state and federal agencies, and 
        the scientific community. The level of citizen support for this 
        approach to restoration planning in coastal Louisiana was 
        demonstrated by the fact that Parish Councils and Police Juries 
        of all 20 coastal parishes passed resolutions in support of the 
        Coast 2050 Plan.

    Question 3. You have mentioned that these programs have had good 
experiences working with sports fishermen and hunters. Could you 
elaborate on how sportsmen in Kentucky, for example, would benefit from 
this legislation?
    Answer. The connection to fishermen and hunters is evident in 
Louisiana's nickname, the ``Sportsman's Paradise''. In large part, this 
Sportsman's Paradise is Louisiana's coastal wetlands and the fish and 
wildlife they support. In Louisiana, as in Kentucky and other portions 
of the Mississippi River drainage basin, duck hunting is a popular form 
of outdoor recreation. The ducks hunted in these states breed during 
the spring and summer in the northern U.S. and Canada. Many ducks 
travel the Mississippi flyway from their breeding grounds to winter in 
the Mississippi alluvial flood plain. Ducks that use this flyway funnel 
over many states, including Kentucky, while traveling to their 
wintering habitat. Louisiana wetlands provide the largest and most 
important wintering habitat for those birds using the Mississippi 
flyway. Since quality of winter habitat improves breeding success of 
ducks, monies used to restore Louisiana's wetlands can directly affect 
the numbers of ducks available for harvest in other states along the 
flyway.
    In addition to migrating waterfowl, Louisiana also provides 
essential stop over and wintering habitat for neotropical migratory 
song birds. These long distance migrants tend to be more vulnerable to 
habitat loss and fragmentation than resident birds or short distance 
migrants. Therefore, maintaining their habitat in Louisiana is of 
considerable importance to the preservation of these fascinating and 
ecologically important birds.
    Louisiana also provides opportunities to sports fishermen from 
Kentucky and around the country. For example, bass fishing continues to 
grow nationally. Because of the vast amount of suitable habitat, the 
largest bass tournament in the country, the Bassmasters Classic, has 
taken place in New Orleans in 1999, 2001, and 2003. This tournament is 
nationally televised and is not only of tremendous interest to 
Louisianans, but also to the rest of the country.

                                 ______
                                 
                Responses of John Baughman to Questions 
                         From Senator Domenici

    Question 1a. In your testimony, you note that you have testified 
several times before Congress on past efforts to enact legislation to 
dedicate OCS revenues to conservation programs.
    Why has it been so difficult for Congress to reach consensus on 
this issue?
    Answer. While previous legislative efforts to dedicate OCS revenues 
to conservation passed the House in 2000 by a wide margin, the bill was 
never scheduled for floor attention in the Senate. The difficulty 
centered principally around the provision to dedicate statutorily these 
funds to conservation, thus removing these expenditures from 
discretionary appropriations oversight. Less so, property rights 
concerns about additional federal land acquisition also impeded 
passage.
    Question 1b. How does S. 2590 differ from previous Congressional 
attempts?
    Answer. S. 2590 is different in that it is a smaller bill in both 
portfolio and price tag. Significantly, federal-side Land and Water 
Conservation Fund is not in the bill as introduced.
    Question 2. Your testimony notes that in 1996, over 62 million 
American participated in wildlife viewing with an economic impact of 
nearly $30 billion. Can you share some more recent figures with the 
Committee?
    Answer. 80 Million Americans participated in wildlife viewing in 
2001--an economic impact of nearly $108 Billion.
    Question 3. You propose at least 2 amendments to S. 2590 as 
introduced. Please explain what these proposed amendments are and why 
you feel they are necessary.
    Answer. The 2 amendments, as described below, related to 
eligibility of projects for funding under the Wildlife Conservation and 
Restoration account in Pittman-Robertson. Both amendments would allow 
the State fish and wildlife agency further discretion over fund 
expenditures. Our testimony details further the need for these.

  <bullet> Currently, the WCRA caps expenditures for wildlife-
        associated recreation at 10%. We are asking that expenditures 
        for that be at the discretion of the state fish and wildlife 
        agency according to it's needs, and that the statutory cap be 
        removed.
  <bullet> Currently, the Pittman-Robertson law precludes spending any 
        funds on wildlife law enforcement. We are requesting that, at 
        the discretion of the state fish and wildlife agency, up to 10% 
        of WCRA funds be eligible for law enforcement use.

      Responses of John Baughman to Questions From Senator Bunning

    Question 1. This legislation calls for $1.425 billion in mandatory 
spending to fund these conservation programs. Given our already tight 
spending constraints, why should these funds in particular be exempted 
from the annual appropriations process?
    Answer. Because the history of funding for natural resources 
conservation in the United States under discretionary appropriations 
for the last 30 years continues to decline. With increasing human 
populations, pressure on land and habitat, and human growth and 
development in sensitive habitats as our coastal areas, we need long-
term and assured funding to ensure that population growth is consistent 
with natural resource conservation. The vagaries and uncertainties of 
discretionary appropriations simply cannot address those challenges.
    Question 2. This legislation will provide funding for many multi-
purposed and multi-jurisdictional programs. How can we ensure that 
there will be collaboration and communication among private, local, 
state, and federal interests?
    Answer. The wildlife title authorizing language, currently in 
statute as part of the Pittman-Robertson law, requires cooperation 
among governments and the opportunity for public participation.
    Question 3. You have mentioned that these programs have had good 
experiences working with sports fishermen and hunters. Could you 
elaborate on how sportsmen in Kentucky, for example, would benefit from 
this legislation?
    Answer. Just as the so-called non-game species have benefited from 
game and sport fish conservation programs under Pittman-Robertson and 
Dingell-Johnson/Wallop-Breaux, habitat conservation programs for non-
game species will also benefit game species found in these habitats. 
Similarly, increased access to lands for all wildlife associated 
recreation uses will enhance hunting and fishing opportunities for 
sportsmen and sportswomen.

                                 ______
                                 
      Responses of Defenders of Property Rights to Questions From 
                            Senator Domenici

    Question 1. Ms. Marzulla, I gather from your written testimony that 
your organization is fearful not only of the federal government having 
more money available to purchase private property and add it to the 
federal estate, but also that states and localities may pursue 
acquisition of private property more aggressively. Can you elaborate on 
those concerns for the Committee?
    Answer. Documenting more than 10,000 cases of eminent domain abuse 
by local and state governments, the Hoover Institution has recounted 
the level of abuse that takes place each day by local government:

        The typical person lacks the resources, knowledge, and skills 
        to take on the local leviathan that our local governments have 
        become. The odds are further stacked by the ability of 
        politicians to use their own citizens' dollars against them. 
        Except for the rare situation in which local media take an 
        interest, individuals usually stand no chance against the very 
        officials that in our federalist system are supposed to protect 
        our rights.\1\
---------------------------------------------------------------------------
    \1\ The Monster in Our Backyard, Hoover Digest No. 3, 191, 197 
(2004).

    The U.S. Supreme Court has repeatedly stepped in to curtail local 
government's extortionate schemes, which falsely claim to be 
``voluntary'' arrangements to acquire private land.\2\
---------------------------------------------------------------------------
    \2\ See, e.g., Nollan v. California Coastal Comm'n, 483 U.S. 825, 
833 n.2 (1987) (``And thus the announcement that the application for 
(or granting of) the permit will entail the yielding of a property 
interest cannot be regarded as establishing the voluntary ``exchange . 
. . .''); Dolan v. City of Tigard, 512 U.S. 374, 385 (1994) (``Second, 
the conditions imposed were not simply a limitation on the use 
petitioner might make of her own parcel, but a requirement that she 
deed portions of the property to the city. In Nollan, supra, we held 
that governmental authority to exact such a condition was circumscribed 
by the Fifth and Fourteenth Amendments.'').
---------------------------------------------------------------------------
    State and local governments, through their police powers, have come 
to exercise just as much damage to the civil rights of American 
citizens as the federal government. Congress should consider the extent 
of state and local governments' violations of private property rights 
before it invests these institutions with additional power, and 
additional resources to enable the use of that power.
    Question 2. Ms. Marzulla, you note in your testimony that you are 
skeptical of S. 2590's requirement that private property can only be 
purchased from a ``willing seller.'' I think what I am hearing is that 
when the government, either federal, state or local, is the only 
``willing buyer,' then the ``willing seller'' is at a significant 
disadvantage. Please comment.
    Answer. S. 2590's provision that privately owned land will be 
purchased only from ``willing sellers'' does not adequately protect 
private landowners because the government always holds in reserve the 
paramount power of eminent domain that allows it to take any home, 
farm, business or factory it pleases.
    The government often harasses citizens into selling their property. 
The American Land Rights Association has reported finding significant 
abuse and harassment on the part of National Park Service agents once 
sellers become hostile to initial offers for purchase from the Park 
Service.\3\ These agents have searched out individuals who are in 
financial need because of personal loss and by purchasing certain 
properties in a community, they have ``checker boarded'' entire 
communities.
---------------------------------------------------------------------------
    \3\ American Land Rights Association, Willing Seller--a Myth, 
Hearing on Land Acquisition and Maintenance in the National Parks, 
Testimony Before the Resources Subcommittee on National Parks, 
Recreation and Public Lands United States House of Representatives 
(September 27, 2003), available at http://www.landrights.org/ubbs/
ultimatebb.cgi?ubb=get_topic&f= 8&t=000037.
---------------------------------------------------------------------------
    The phenomenon known as ``condemnation blight'' illustrates how the 
government rarely purchases from a ``willing seller,'' since private 
property owners often have no choice but to sell to the government. 
Condemnation blight occurs when property values plummet due to the 
threat of government condemnation or by delays between the time the 
government announces a proposed acquisition and the time the actual 
condemnation occurs. In the City of Norfolk, Virginia, for instance, 
the Norfolk Redevelopment and Housing Authority targeted 90 acres for 
condemnation in East Ocean View in an effort to develop valuable 
waterfront property. When NRHA identified the 90-acre site in 1993, it 
did not have the funds to purchase the property in two to three years 
as announced, and years later, the city still had not purchased most of 
the targeted property.
    According to one commentator:

        The city has, in effect, put a dome over East Ocean View, 
        imposing conditions that prohibit private property owners from 
        acting in their own best interests. For these property owners 
        in the path of condemnation, there is no market to sell their 
        property because buyers will not willingly purchase property in 
        a neighborhood targeted for demolition. The only potential 
        buyer is NRHA, which puts NRHA in a uniquely advantageous 
        bargaining position. Banks make it difficult, if not 
        impossible, to refinance mortgage loans. Landlords find it 
        almost impossible to attract quality tenants to a neighborhood 
        featuring boarded-up buildings, broken windows, and trashed 
        buildings, all awaiting demolition.\4\
---------------------------------------------------------------------------
    \4\ Condemnation Rights in Ocean View, The Virginia-Pilot (May 26, 
1998), available at 
http://www.vaemdomain.com/essays/oceanview.html.

    In Richmond, Virginia, a similar story unfolded when the Richmond 
Redevelopment Agency had repeatedly advised a landowner that it would 
acquire a property as part of a redevelopment zone, but thirteen years 
after the property was initially included in the zone, it decided to 
abandon the acquisition. The property owner sued in federal court and 
won, with the Ninth Circuit Court of Appeals affirming on appeal that 
the government's actions had so interfered with the landowner's 
property rights, it had to pay compensation for the land taken.\5\
---------------------------------------------------------------------------
    \5\ See Richmond Elks Hall Ass'n v. Richmond Redevelopment Agency, 
561 F.2d 1327 (9th Cir. 1997) (``When a public entity acting in 
furtherance of a public project directly and substantially interferes 
with property rights and thereby significantly impairs the value of the 
property, the result is a taking in the constitutional sense and 
compensation must be paid.'').
---------------------------------------------------------------------------
    Question 3. Ms. Marzulla, do you believe that this legislation can 
be amended so as to adequately protect private property owners from 
having their land taken without fair compensation?
    Answer. Yes, the bill could incorporate a requirement guaranteeing 
no net gain of public land. That is, if a government wishes to purchase 
land from a seller under the Americans Outdoors Act, it must 
subsequently sell a different piece of public property to a private 
buyer. With this guarantee in place, the bill would at least place an 
obstacle in front of the gradual encroachment of private property by 
the government.
    The bill should also set explicit limits on the amount and types of 
property to be purchased, the tactics available to government actors in 
those purchases, and internal checks on abuses to guard against 
condemnation blight and ensure that these sales are truly voluntary. 
There should be a limit set on the amount of time that can elapse 
between announced sales of private property and acquisition.
    Again, it should be stressed that these changes would be relatively 
minor in scope, and that the heart of the bill's purpose--to convert 
vast amounts of private property into publicly owned land--is contrary 
to Defenders' mission. We see little value in amending the bill's 
structure in minor ways while disapproving of its larger consequences 
on private ownership.
    Question 4. In his testimony, Mr. Diamond notes that increased 
conservation-related tourism, such as bird-watching, will lead to 
increased property values. How do you respond?
    Answer. Certainly conservation and recreational activities do 
increase the value of privately owned land in some circumstances, but 
not always.
    For example, in one case seeking just compensation in the U.S. 
Court of Federal Claims for a taking of property located in Reno, 
Nevada, the government required property owners to set aside 200 acres 
of their land as a conservation (wetland) area. According to the broker 
who was tasked with marketing the remainder of the land next to the 
conservation areas, these areas reduced the value of the private land. 
At trial for damages, he testified that, ``As a matter of fact, we see 
[the conservation areas] as a real danger. You'll notice that a lot of 
the wetlands have to be left in their existing state. They had wells, 
holes that were dug by the ranchers. As a matter of fact, we see it as 
dangerous to children, and for residents that don't want to enter them. 
And we cannot touch them to manicure them or do any work . . . We did 
not advertise that as an amenity.'' \6\
---------------------------------------------------------------------------
    \6\ Trial Tr. at 355, Norman v. United States, No. 95-667L (Fed. 
Cl. Dec. 2, 2003).
---------------------------------------------------------------------------
        Responses of Defenders of Property Rights to Questions 
                           From Senator Craig

    Question 1. You imply during your testimony that the true answer to 
many of the problems with our public lands is not more money, but 
spending our money more wisely. Can you give the Committee a few 
examples of what you are seeing on the ground?
    Answer. Yes. For instance, in the Pacific Northwest, the federal 
designation of 6.9 million acres of privately owned land as federal 
habitat for the northern spotted owl led to what are commonly known as 
``green ghettos.'' The University of Oregon reported that local taxes 
were increased by tenfold in five Oregon counties to replace the income 
generated from lost timber sales.\7\ The resulting loss of jobs led to 
marked increases in affected communities in unemployment, alcoholism, 
suicide, battered spouses, and troubled children.\8\
---------------------------------------------------------------------------
    \7\ J. Heissenbuttel & W. Murray, A Troubled Law in Need of 
Revision, 90 J. Forestry 13 (1992).
    \8\ Id.
---------------------------------------------------------------------------
    According to the Property and Environment Research Center (PERC), 
public land managers often fail because they have to kowtow to 
politician's wishes rather than managing the land properly, as many 
private parks are able to do. PERC states that ``[o]n-the-ground 
federal land managers have little authority to care for the more than 
400 million acres in their charge. These trained professionals, 
supported by biologists, botanists, forest ecologists, and a host of 
other scientific experts, are often taking orders from Washington 
politicians who know nothing about forest health.'' \9\ PERC further 
notes the Forest Service's mismanagement:
---------------------------------------------------------------------------
    \9\ Linda Platts, Politics Manages Our Public Lands, Tom Daschle 
Shows How, PERC Reports (Dec. 2001), available at http://www.perc.org/
publications/percreports/sept2002/politics.php.

        Year after year, the General Accounting Office has criticized 
        the Forest Service for the severity of its accounting and 
        reporting deficiencies. One particularly glaring error arose in 
        fiscal year 1995 when the Forest Service could not account for 
        $215 million of its $3.4 billion operating budget. The GAO 
        reports that the agency is ``unable to reliably keep track of 
        billions of dollars of major assets, cannot accurately allocate 
        revenues and costs to its programs, and made significant errors 
        in preparing its financial statements.''\10\
---------------------------------------------------------------------------
    \10\ Id.

    PERC lauds the private management of the Clinch Valley forest in 
---------------------------------------------------------------------------
Virginia:

        [T]he Clinch Valley Forest Bank, the brainchild of the Nature 
        Conservancy, deserves mention. The Clinch River Valley in 
        southwest Virginia is one of the biologically richest 
        watersheds in the country. Much of the land is owned by small 
        private landowners, who may rely on the timber for income or to 
        meet sudden cash needs such as medical emergencies and school 
        tuition. The Nature Conservancy has come up with a plan that 
        links conservation with the land's economic productivity. 
        Landowners may deposit the legal rights to their timber in 
        return for an annual dividend of about 4 percent on the 
        appraised value of the timber. The individuals retain 
        ownership, but the bank acquires the right to grow, manage, and 
        harvest the trees in perpetuity. To fund the dividend payments, 
        the forest bank will harvest and sell the timber in a [sic] 
        ecologically sound manner that protects the health of the 
        watershed and the forest.\11\
---------------------------------------------------------------------------
    \11\ Id.

    While the federal government is particularly ineffective at 
managing land, the states perform just as badly. According to analyst 
---------------------------------------------------------------------------
Randal O'Toole:

        State governments are no better managers than are federal 
        bureaucrats. They are just as economically inefficient, 
        ecologically short-sighted, and politically driven as their 
        federal counterparts . . . In fact, state governments have been 
        rapidly expanding . . . their land estates . . . \12\
---------------------------------------------------------------------------
    \12\ Randall O'Toole, Should Congress Transfer Federal Lands to the 
States?, Cato Institute Policy Analysis no. 276, July 3, 1997, p. 1.

    Private property ownership fosters environmental protection by 
rewarding those who conserve their resources and refrain from harming 
the public by use of their land. Indeed, it is no surprise that in 
those countries where private property is, or was until recently, not 
protected, neither is the environment. In Bangladesh, Africa, 
Chernobyl, and Eastern Europe, where property rights were or are at 
under governmental control, incentives to protect the environment or 
natural resources remain non-existent, and the environment falls into 
ruin.
    Question 2. Some concerns have been raised by groups such as yours 
that an expanded land acquisition trust fund will erode any multiple-
use management of public lands. Can you expand on your concerns and the 
reasoning behind it?
    Answer. We do believe that multiple-use management of lands would 
be eroded by an expansion in the land acquisition trust fund. This is 
because government does a remarkably poor job at managing public land 
in an ecologically sensitive way, private stewardship of land, 
particularly if incentives could be offered to private landowners, 
would be much more effective at preserving the multiple uses of 
important and ecologically significant land.
    In the early 1960s, Interior Secretary Stuart Udall initiated a 
program in which the National Park Service would reward landowners for 
being good stewards. If they met certain criteria, their land would be 
nominated as a National Natural Landmark, and they would receive 
recognition and awards for their excellent stewardship. But this 
program turned from one based on incentives to one that precluded 
private landowners from exercising the full scope of their property 
rights. If Secretary Udall's plan to provide incentives for private 
stewardship of land had continued, the government could encourage 
multiple-use aspects of private land. In government hands, however, 
even if such efficient use is possible, it has rarely been realized.

        Responses of Defenders of Property Rights to Questions 
                         From Senator Landrieu

    Question 1. If every piece of property in the United States was 
privately owned, where would the general public go to enjoy the 
outdoors, such as open lands and lakes?
    Answer. Approximately 630 million acres, or nearly one-third of the 
United States, is already owned by the federal government.\13\ Much of 
that land is out West, with states such as Idaho, Nevada, Oregon, and 
Utah virtually belonging to the federal government; Nevada is almost 
entirely owned (79 percent) by the federal government. The country is 
hardly in danger of every piece of property being privately owned.
---------------------------------------------------------------------------
    \13\ General Accounting Office, Report to Congressional Requesters, 
Land ownership--Information on the Acreage, Management, and Use of 
Federal and Other Lands (Mar. 13, 1996), available at http://
frwebgate.access.gpo.gov/cgibin/
useftp.cgi?IPaddress=162.140.64.21&filename= rc96040.txt&directoryr/
diskb/wais/data/gao.
---------------------------------------------------------------------------
    Even if all land were in private ownership, however, all navigable 
waters in the United States are public property and thus, the public 
would still enjoy the right to use all navigable lakes, rivers, 
streams, and seashores. Due to the federal government's navigational 
servitude, a private owner cannot prevent the public from accessing and 
using a navigable water for fishing, boating, or other recreational 
activities, at least not without the government's permission. 
Furthermore, states also regulate these navigable waters and the lands 
underneath them for the public use under the public trust doctrine.
    Further, Defenders does not take the position that all property 
must be privately owned. Although we strongly favor additional 
constraints on the government's ability to confiscate private land, we 
recognize the occasional, if rare, benefit to state-owned property. 
Unfortunately, the Americans Outdoors Act fits squarely into the type 
of legislation that most endangers private property rights, and has the 
potential to seriously undermine constitutional rights.
    Often, the government's zeal to achieve social objectives, like 
those stated in the Americans Outdoors Act, endangers constitutional 
freedoms. The government's efforts to secure benefits for one group of 
individuals almost always impairs the ability of others to secure their 
own rights; the Americans Outdoors Act is no exception. Perhaps one 
reason why many of us are so willing to trade individual property 
rights for desirable public benefits is that we have, in many 
instances, forgotten why we have property rights protection in the 
first place. Government plays such a large role in our daily lives that 
it is difficult to imagine any social good not emerging from the 
government. Government provides us with roads, schools, police 
protection, and innumerable other public benefits.
    In our testimony, we distinguished the governments of the Soviet 
Union and other communist nations from our American democracy, which 
rejects the idea that government must own excessively large amounts of 
property for the public good. From the Ten Commandments to Justinian's 
Code, John Locke to James Madison, and Thomas Jefferson to today, 
private property rights have constituted a central part of our civil 
society, and help to ensure that our government will not grow too 
large.
    That private property does not always efficiently meet public 
demands, or that it burdens certain segments of society, does not mean 
that the government should expand its holdings so significantly as to 
undermine fundamental civil rights. The Americans Outdoors Act, despite 
good intentions, would severely hinder constitutional rights, and would 
violate the traditions of the founders of this nation.

        Responses of Defenders of Property Rights to Questions 
                          From Senator Bunning

    Question 1. This legislation calls for $1.425 billion in mandatory 
spending to fund these conservation programs. Given our already tight 
spending constraints, why should these funds in particular be exempted 
from the annual appropriations process?
    Answer. We think this question is better directed to the witnesses 
who provided testimony before the Committee in support of this 
legislation. Since Defenders opposes passage of the Americans Outdoors 
Act, as it is now drafted, we have not considered whether funds to 
support the legislation should be exempted from the annual 
appropriations process.
    Question 2. This legislation will provide for many multi-purposed 
and multi-jurisdictional programs. How can we ensure that there will be 
collaboration and communication among private, local, state, and 
federal interests?
    Answer. Again, this question is better directed to those witnesses 
who provided testimony before the Committee in support of this 
legislation. Since Defenders opposes passage of the Americans Outdoors 
Act, as it is now drafted, we have not considered how the legislation 
would provide for collaboration and communication among private, local, 
state, and federal interests.
    Question 3. You have mentioned that these programs have had good 
experiences working with sports fishermen and hunters. Could you 
elaborate on how sportsmen in Kentucky, for example, would benefit from 
this legislation?
    Answer. No comment.

                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

   International Association of Fish and Wildlife Agencies,
                                      Washington, DC, June 4, 2004.
Hon. Lamar Alexander,
Committee on Energy and Natural Resources, U.S. Senate, Washington, DC.
    Dear Senator Alexander: The Association strongly supports and 
endorses your initiative reflected in the proposed ``Americans Outdoors 
Act'' to address the need for assured and dedicated funding for 
conservation and recreation that is state and local-based and directed. 
We are particularly appreciative of your recognition in Title IV--
Conservation and Restoration of Wildlife, of the need for providing 
funds to the state fish and wildlife agencies for comprehensive fish 
and wildlife conservation, education and recreation programs. As you 
know, all 50 State fish and wildlife agencies are members of the 
Association.
    The Title IV funds will be particularly significant in positioning 
the state fish and wildlife agencies to proactively conserve declining 
fish and wildlife species before the only remedy is to list them as 
threatened or endangered. Addressing the life needs and habitat 
requirements of declining species early on allows greater use of 
voluntary, non-regulatory programs in working with private landowners 
when flexibility in choice of management tools is still available. This 
will avoid not only the ``emergency-room'' need for the Endangered 
Species Act, but also minimize the socio-economic impacts of this 
largely regulatory statute. Preventative conservation makes good 
biological sense, good economic sense, and good common sense.
    We applaud your dedication to shepherding a bipartisan bill through 
the legislative process, and look forward to working with you to bring 
this to legislative success. The support and assistance of the 50 state 
fish and wildlife agencies stands ready to assist you in your endeavor.
            Sincerely,
                                             John Baughman,
                                          Executive Vice President.
                                 ______
                                 
                                      The Wildlife Society,
                                         Betheda, MD, June 7, 2004.
Hon. Lamar Alexander,
Committee on Energy and Natural Resources, U.S. Senate, Washington, DC.
    Dear Senator Alexander: The Wildlife Society strongly supports your 
initiative to introduce the Americans Outdoors Act, reopening 
deliberations on the need for long-term, dedicated conservation and 
recreation funding. The Wildlife Society is the organization of 
professional wildlife biologists and managers, dedicated to wildlife 
stewardship through science and education. For more than a decade we 
have advocated for a permanent funding source, statutorily dedicated to 
fish and wildlife conservation, wildlife related recreation, and 
conservation education. Your commitment to shepherding such an 
initiative through Congress is of great importance to the wildlife 
profession.
    There are significant benefits to wildlife and habitat in the 
Americans Outdoors Act. Most importantly, Title III would provide $350 
million annually in assured, long-term funding for state fish and 
wildlife programs. These funds would be allocated through the Wildlife 
Conservation and Restoration Account established in the Pittman-
Robertson Act, which apportions funds on a formula of \2/3\ population 
and \1/3\ land area. This would mean more than,$6 million per year for 
Tennessee and more than $5 million per year for Louisiana to conserve 
all species of wildlife, to reverse declines of species in need of 
conservation, and to meet public demand for outdoor recreation and 
conservation education.
    Your leadership in drafting a bill that can engender bipartisan 
support is extremely valuable and much appreciated. We are poised to 
help you build momentum to successfully move this bill through the 
legislative process. Thank you again for your commitment to 
conservation.
            Sincerely,
                                        Thomas M. Franklin.
                                 ______
                                 
                                   Boone and Crockett Club,
                                            Cody, WY, June 9, 2004.
Hon. Lamar Alexander,
Committee on Energy and Natural Resources, U.S. Senate, Washington, DC.
    Dear Senator Alexander: The Boone and Crockett Club is pleased to 
see the ``Americans Outdoors Act'' introduced to continue the dialog 
about how to fund state wildlife agencies to preserve their lead role 
in delivering wildlife conservation at the local level, and to provide 
carefully selected additional lands for Americans to use in recreation. 
We continue to be supportive of legislation that taps logical funding 
sources, carefully and clearly protects the rights of the private 
landowner, and helps to conserve America's outdoors.
    We are pleased to see a bipartisan effort under way and look 
forward to working with you, other members of Congress and the 
Administration to pass legislation that meets the needs of the states, 
the American public, and America's outdoor heritage.
            Sincerely,
                                              Robert Model,
                                                         President.
                                 ______
                                 
                         American Sportfishing Association,
                                     Alexandria, VA, June 21, 2004.
Hon. Lamar Alexander,
Committee on Energy and Natural Resources, U.S. Senate, Washington, DC.
    Dear Senator Alexander: The American Sportfishing Association 
strongly supports your initiative reflected in the proposed ``Americans 
Outdoors Act'' that would assure and dedicate funding for conservation 
and recreation that is state and local-based and directed. We are 
particularly appreciative of your recognition in Title IV--Conservation 
and Restoration of Wildlife, providing funds to the state fish and 
wildlife agencies for comprehensive fish and wildlife conservation, 
education and recreation programs. The American Sportfishing 
Association is a non-profit trade organization whose members include 
fishing tackle manufacturers, boat builders, tackle retailers, state 
fish and wildlife agencies, angler organizations and the outdoor media.
    The Title IV funds will be particularly significant in positioning 
the state fish and wildlife agencies to proactively conserve declining 
fish and wildlife species before having to list them as threatened or 
endangered. Addressing the life needs and habitat requirements of 
declining species early on allows greater use of voluntary, non-
regulatory programs in working with private landowners and giving an 
amount of flexibility to choose the best management practices 
available. This will not only avoid requiring listing under the 
Endangered Species Act, but it will also minimize the socio-economic 
impacts of this largely regulatory statute. Preventative conservation 
makes good biological sense, good economic sense, and good common 
sense.
    We applaud your dedication to shepherding a bipartisan bill through 
the legislative process, and look forward to working with you to bring 
this to legislative success. The support and assistance of the 
sportfishing industry stands ready to assist you in your endeavor.
            Sincerely,
                                       Gordon C. Robertson,
                                                    Vice President.
                                 ______
                                 
                                 Archery Trade Association,
                                         Vienna, VA, June 22, 2004.
Hon. Lamar Alexander,
Committee on Energy and Natural Resources, U.S. Senate, Washington, DC.
    Dear Senator Alexander: The Archery Trade Association strongly 
supports your initiative reflected in the ``Americans Outdoors Act'' to 
address the need for dedicated funding for conservation and recreation 
that is state and local-based. We are particularly appreciative of your 
recognition in Title IV Conservation and Restoration of Wildlife, of 
the need for providing funds to the state fish and wildlife agencies 
for comprehensive fish and wildlife conservation, education and 
recreation programs.
    The Title IV funds will allow state fish and wildlife agencies to 
proactively conserve declining fish and wildlife species before the 
only option is to list them as threatened or endangered. Addressing the 
life needs and habitat requirements of declining species early allows 
greater use of voluntary, non-regulatory programs in working with 
private landowners when flexibility in choice of management tools is 
still available. This will avoid not only the ``trauma-type'' use of 
the Endangered Species Act, but will minimize the socio-economic 
impacts of this regulatory statute. Preventative conservation will 
achieve biological goals in an economical fashion which makes good 
common sense.
    We appreciate your efforts to push this bipartisan bill through the 
legislative process, and look forward to working with you to bring this 
to legislative success. Please accept the support of our 500 
manufacturers and over 2,000 retailers and know that we stand ready to 
assist you in your endeavor.
            Sincerely,
                                              Jay McAninch,
                           CEO/President Archery Trade Association.
                                 ______
                                 
                 National Marine Manufacturers Association,
                                     Washington, DC, June 21, 2004.
Hon. Lamar Alexander,
Committee on Energy and Natural Resources, U.S. Senate, Washington, DC.
    Dear Senator Alexander: The National Marine Manufacturers 
Association (NMMA), the nation's leading recreational marine trade 
association, your proposed legislation, the Americans Outdoors Act. 
NMMA represents over 1,500 member companies that are involved in every 
aspect of the recreational boating industry and our members manufacture 
over 80 percent of all recreational boats, engines, trailers, and 
accessories purchased by the boating community in the United States.
    NMMA focuses considerable resources to support initiatives to 
strength fisheries conservation and management because fishing is very 
important to a majority of the recreational boating community. 
Statistics show that nearly 80% of U.S. boat owners enjoy recreational 
fishing as a wholesome pursuit and escape from the stress of everyday-
life. As you know, the Americans Outdoors Act will provide funding for 
programs important to fishing and wildlife conservation in general. The 
boost in funding for wildlife conservation programs in the ``Americans 
Outdoors Act'' will help bridge a funding gap that makes it difficult 
for state fish and wildlife managers to effectively do their jobs. 
State fish and wildlife managers need the funding provided in this bill 
in order to monitor and manage game and non-game species including 
valuable fish stocks.
    The coastal impact assistance will address a top conservation 
priority: protecting and enhancing wetlands. This habitat fills an 
irreplaceable niche that is vital to a huge variety of species. 
Wetlands habitat is under particularly heavy development pressure and 
is sensitive to the effects of offshore drilling related activities. 
The coastal mitigation support in your bill is an important step toward 
solving this important problem.
    The funding for the planning and development of state and local 
parks and recreation facilities will help reverse trends that are 
seeing fewer and fewer kids take up outdoor pursuits. Providing better 
access and facilities for outdoor enthusiasts can strengthen the 
fraying bond between Americans and the natural world.
    NMMA urges you to introduce the Americans Outdoors Act, and we are 
offering our services in this effort. Please do not hesitate to contact 
Jeffrey Gabriel of my staff at (202) 737-9764 or email at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="355c525457475c5059755b5858541b5a47521b">[email&#160;protected]</a>
            Sincerely,
                                  Monita W. Fontaine, Esq.,
                              Vice President, Government Relations.
                                 ______
                                 
                                 Federation of Fly Fishers,
                                     Livingston, MT, June 22, 2004.
Hon. Mary Landrieu,
Committee on Energy and Natural Resources, U.S. Senate, Washington, DC.
    Dear Senator Landrieu: The Federation of Fly Fishers strongly 
supports and endorses your initiative reflected in the proposed 
``Americans Outdoors Act'' to address the need for assured and 
dedicated funding for conservation and recreation that is state and 
local-based and directed. We are particularly appreciative of your 
recognition in Title IV--Conservation and Restoration of Wildlife, of 
the need for providing funds to the state fish and wildlife agencies 
for comprehensive fish and wildlife conservation, education and 
recreation programs.
    The Title IV funds will be particularly significant in positioning 
the state fish and wildlife agencies to proactively conserve declining 
fish and wildlife species before the only remedy is to list them as 
threatened or endangered. Addressing the life needs and habitat 
requirements of declining species early on allows greater use of 
voluntary, non-regulatory programs in working with private landowners 
when flexibility in choice of management tools is still available, This 
will avoid not only the ``emergency-room'' need for the Endangered 
Species Act, but also minimize the socio-economic impacts of this 
largely regulatory statute. Preventative conservation makes good 
biological sense, good economic sense, and good common sense.
    We applaud your dedication to shepherding a bipartisan bill through 
the legislative process, and look forward to working with you to bring 
this to legislative success.
            Sincerely,
                                                 Kim Gates,
                                          Conservation Coordinator.
                                 ______
                                 
                                American Fisheries Society,
                                       Bethesda, MD, June 24, 2004.
Hon. Lamar Alexander,
Committee on Energy and Natural Resources, U.S. Senate, Washington, DC.
    Dear Senator Alexander: The American Fisheries Society strongly 
supports and endorses your initiative reflected in the proposed 
``Americans Outdoors Act'' to address the need for assured and 
dedicated funding for conservation and recreation that is state and 
local-based and directed. We are particularly appreciative of your 
recognition in Title IV--Conservation and Restoration of Wildlife, of 
the need for providing funds to the state fish and wildlife agencies 
for comprehensive fish and wildlife conservation, education and 
recreation programs.
    The Title IV funds will be particularly significant in positioning 
the state fish and wildlife agencies to proactively conserve declining 
fish and wildlife species before the only remedy is to list them as 
threatened or endangered. Addressing the life needs and habitat 
requirements of declining species early on allows greater use of 
voluntary, non-regulatory programs in working with private landowners 
when flexibility in choice of management tools is still available. This 
will avoid not only the ``emergency-room'' need for the Endangered 
Species Act, but also minimize the socio-economic impacts of this 
largely regulatory statute. Preventative conservation makes good 
biological sense, good economic sense, and good common sense.
    We applaud your dedication to shepherding a bipartisan bill through 
the legislative process, and look forward to working with you to bring 
this to legislative success.
            Sincerely,
                                                Gus Rassam,
                                                Executive Director.
                                 ______
                                 
                              National Wildlife Federation,
                                                     June 24, 2004.
Hon. Lamar Alexander,
Committee on Energy and Natural Resources, U.S. Senate, Washington, DC.

Hon. Mary Landrieu,
Committee on Energy and Natural Resources, U.S. Senate, Washington, DC.
    Dear Senator Alexander and Senator Landrieu: On behalf of the four 
million members and supporters of the National Wildlife Federation 
(NWF), I would like to thank you for introducing the Americans Outdoors 
Act. Enactment of long-term and reliable annual appropriations for 
wildlife conservation, natural areas and safe neighborhood parks, 
recreation, and coastal restoration would be a milestone appreciated by 
this and future generations.
    The bill's $350 million wildlife title is especially important to 
NWF. Its stable funding will enable state and tribal fish and wildlife 
agencies to effectively conserve wildlife, so our children's children 
can experience the birds, fish, and wildlife that we enjoy in our 
backyards, streams, and rural areas. While state agencies manage all 
species within their boarders--with the exception of marine mammals--
most of their resources are dedicated to the wildlife we hunt and fish. 
These programs have successfully restored wild turkey, elk, black bear, 
and striped bass to their native habitats. However, over 90 percent of 
the species within our nation are not hunted and fished and their needs 
are vast. The wildlife title embraces all species, but strategically 
invests in those that are most in need of conservation. It proactively 
addresses these needs through partnerships with landowners, nonprofit 
organizations and others in an effort to prevent species from becoming 
threatened or endangered in the first place.
    Our neighborhood parks and recreation areas are among the most 
valued assets of our cities and towns and reflect the vision and wisdom 
of past community leaders. Similarly, access and opportunities to hunt, 
fish, and study nature have contributed a major facet of American 
character. Your bill ensures that these proud traditions will continue 
as our nation and communities grow.
    We also support your effort to ensure that additional funds are 
made available for coastal restoration. Louisiana alone loses a 
football field every thirty minutes and between 25 and 30 square miles 
of marsh and swamp a year due to a range of factors including the 
impacts of oil and gas activities.
    We truly appreciate the leadership and consultation with colleagues 
that are reflected in your bill and the consideration the Senate Energy 
and Natural Resources Committee will afford your bill as a result. 
Having said that, we do urge that as the bill makes its way through the 
legislative process, it be amended to include titles on the federal 
side of the Land and Water Conservation Fund (LWCF) and the Forest 
Legacy program (FLP).
    Federal LWCF makes a valuable and lasting contribution to the 
citizens of every state. The federal acquisition of willing-seller 
lands is a critical conservation tool that has been associated with OCS 
revenues for nearly three decades.
    The Forest Legacy program allows states to protect important 
forests that are threatened with conversion to non-forest uses and to 
protect local communities and their way of life. Designed to encourage 
the protection of privately owned forest lands, FLP is an entirely 
voluntary program. To maximize the public benefits it achieves, the 
program focuses on the acquisition of partial interests in privately 
owned forest lands. It encourages and supports acquisition of 
conservation easements, legally binding agreements transferring a 
negotiated set of property rights from one party to another, without 
removing the property from private ownership. Ultimately, the program 
is a win for private timber operators, landowners, wildlife and the 
environment.
    We applaud your effort to keep our common fish and wildlife common 
and to invest in the outdoors and recreation opportunities that 
contribute to the physical, mental, social, and spiritual health of our 
citizens and communities. These investments must be made each year to 
keep up with our nation's growth and to save taxpayers the enormous 
costs that result when they are not
    Once again, thank you for introducing the Americans Outdoors Act. 
The National Wildlife Federation looks forward to working with you as 
the Americans Outdoors Act progresses through the legislative process.
            Sincerely,
                                           Larry Schweiger,
                                                   President & CEO.
                                 ______
                                 
                               Coastal States Organization,
                                     Washington, DC, June 24, 2004.
Hon. Lamar Alexander,
Committee on Energy and Natural Resources, U.S. Senate, Washington, DC.

Hon. Mary Landrieu,
Committee on Energy and Natural Resources, U.S. Senate, Washington, DC.
    Dear Senators Alexander and Landrieu: On behalf of the coastal 
states, I am writing to voice our support for the principles contained 
in the Americans Outdoors Act. The Coastal States Organization has 
long-held the position that revenues derived from Outer Continental 
Shelf (OCS) oil and gas development belong to all Americans and as 
such, should be reinvested in ocean and coastal programs that provide 
for the protection, restoration, and management of coastal resources.
    The recently released preliminary report by the U.S. Commission on 
Ocean Policy affirmed the need for assured and dedicated funding. The 
Commission called on Congress to ensure that a portion of the OCS 
revenues be invested in the conservation and sustainable development of 
ocean and coastal resources through grants to coastal states.
    As coastal resources face increasing pressure from use and 
development, it is important that funding be provided to assist states 
in mitigating the impacts. CSO asks you to consider providing all 
coastal states with an equitable share of the federal revenue from OCS 
oil and gas development. These funds will enable states to address 
erosion, habitat loss, environmental contamination, invasive species, 
and to mitigate the impacts of offshore oil and gas development. 
Coastal states where OCS oil and gas is produced may receive a larger 
portion of the compensation to address the environmental impacts of 
energy activities. Lastly, any OCS revenue-sharing legislation should 
contain assurances that no incentives for additional exploration or 
production on the OCS will be created and current moratoria on offshore 
oil and gas leasing are unaffected.
    This bill is an important step towards enacting dedicated funding 
for coastal conservation and strong coastal communities. We applaud 
this bipartisan effort and look forward to working with you on this 
legislation.
            Sincerely,
                                            Tony MacDonald,
                                                Executive Director.
                                 ______
                                 
                                              Hodgman Inc.,
                                     Montgomery, IL, June 14, 2004.
Hon. Lamar Alexander,
Committee on Energy and Natural Resources, U.S. Senate, Washington, DC.

Hon. Mary Landrieu,
Committee on Energy and Natural Resources, U.S. Senate, Washington, DC.
    Dear Senators: We are writing to express the Theodore Roosevelt 
Conservation Partnership's strong support for the ``Americans Outdoors 
Act.''
    In particular, we are pleased to see elements in this legislation 
that provide funding for programs important to hunting and fishing and 
wildlife conservation.
    The boost in funding for wildlife conservation programs in the 
``Americans Outdoors Act'' will help bridge a funding gap that has made 
it difficult for state fish and wildlife managers to effectively do 
their jobs. In order to monitor and manage game and non-game species so 
that all Americans can benefit from interacting with the wildlife of 
this country, state fish and wildlife managers need the funding 
provided in this bill.
    The coastal impact assistance will address a top conservation 
priority: protecting and enhancing wetlands. This habitat fills an 
irreplaceable niche that is vital to a huge variety of species. 
Wetlands habitat is under particularly heavy development pressure and 
is sensitive to the effects of offshore drilling related activities. 
The coastal mitigation support in your bill is an important step toward 
solving this important problem.
    The funding for the planning and development of state and local 
parks and recreation facilities will help reverse trends that are 
seeing fewer and fewer kids take up outdoor pursuits. Providing better 
access and facilities for outdoor enthusiasts can strengthen a bond 
between Americans and the natural world that has become frayed.
    At the Conference on the Conservation of Natural Resources at the 
White House in 1908, our greatest conservation president, Theodore 
Roosevelt said,
    ``It is time for us now as a nation to exercise the same reasonable 
foresight in dealing with our great national resources that would be 
shown by any prudent man in conserving and wisely using the property 
which contains the assurance of well-being for himself and his 
children.''
    The ``Americans Outdoors Act'' represents just the sort of 
conservation foresight T.R. was talking about. This bill can help 
ensure that future generations are able to enjoy this country's 
beautiful wild spaces and the fish and wildlife that live in them.
            Sincerely,
                                          Ronald W. Foster,
                                                         President.
                                 ______
                                 
        Statement of Brad Hays, Chairman, U.S. Soccer Foundation

    The United States Soccer Foundation, a public, not-for-profit 
organization committed to health and recreation through the increased 
development of the sport, would like to thank Senator Lamar Alexander 
of Tennessee and Senator Mary Landrieu of Louisiana for their 
leadership and express our strong support for the Americans Outdoors 
Act, a bipartisan effort to provide states and municipalities a 
permanent source of matching funds for parks and recreation.
    The Americans Outdoors Act provides a dependable source of 
recreation support for State and Local Governments by fully funding the 
stateside component of the Land and Water Conservation Fund (LWCF) and 
providing ample funding for the Urban Park and Recreation Recovery 
Program (UPARR). Funding for these two programs have long been a 
priority for the entire U.S. Soccer membership (including national 
youth, adult, and professional soccer organizations).
    The reason for our support is clear: the LWCF has played an 
integral role in creating and developing our nation's parks and 
recreation spaces. In its 35-year history, LWCF has helped communities 
develop more than 38,000 state and local park and recreation projects, 
including well over 7,000 soccer fields nationwide. UPARR (LWCF's urban 
sister program) enhances opportunities for critically necessary 
recreation facilities in neighborhoods that need it most. A recent lack 
of dependable annual funding has turned UPARR into less of a resource, 
but we still view it as an untapped gem in assisting with the 
renovation of playing fields in the swiftly growing urban soccer 
market.
    Permanent annual funding for these two programs will allow soccer 
enthusiasts to enhance the development and growth of the game in their 
local communities. It will also allow organizations like the U.S. 
Soccer Foundation to better utilize the game of soccer as a vehicle to 
promote healthy and active lifestyles and improve the communities in 
which we live, work, and, now more importantly than ever before, play.
    The U.S. Soccer Foundation, and the U.S. Soccer Federation member 
organizations, including U.S. Youth Soccer; U.S. Adult Soccer; and the 
American Youth Soccer Organization, representing the over 19 millions 
Americans who play soccer each year, enthusiastically support the 
passage of the Americans Outdoors Act.

                                 ______
                                 
  Statement of Celina Montorfano, Director of Conservation Programs, 
                        American Hiking Society

    Mr. Chairman and members of the Committee, American Hiking Society 
represents 5,000 members and the 500,000 members of our 150 affiliated 
organizations. As the national voice for America's hikers, American 
Hiking Society promotes and protects foot trails and the hiking 
experience. As the only national recreation-based conservation 
organization dedicated to establishing, protecting, and maintaining 
America's foot trails and a long-time partner with the National Park 
Service (NPS), USDA Forest Service, and Bureau of Land Management 
(BLM), American Hiking and its constituents have a very strong interest 
and stake in conservation and recreation funding programs for national 
parks, forests, trails, and public lands.
    In order for Americans to enjoy the outdoors and find healthy 
places to recreate, we need protected open spaces and access to natural 
and recreational resources. The Americans Outdoors Act, S. 2590, 
introduced by Senators Lamar Alexander and Mary Landrieu, funds a 
variety of critical outdoor recreation and conservation programs 
including the stateside Land and Water Conservation Fund. American 
Hiking applauds the sponsors for introducing this significant 
legislation and strongly urges the inclusion of the federal side of the 
Land and Water Conservation Fund (LWCF) in the Americans Outdoors Act. 
The LWCF is one of the government's most important land protection 
tools that protects open space, trails, and natural and recreation 
resources for the benefit of the nation and future generations of 
hikers.

                            LWCF--BACKGROUND

    The Land and Water Conservation Fund is a visionary and bipartisan 
program, established by Congress in 1964 to create parks, protect 
trails and open spaces, preserve wilderness and wildlife habitat, and 
enhance recreational opportunities.
    LWCF was created in response to the need for quality and accessible 
outdoor recreation as well as threats to the open space and natural 
resources that provide that recreational experience. Early successes of 
the program and the popularity of the projects that LWCF has made a 
reality created pressure to increase the amount of money in the Fund. 
In 1968 Congress made offshore oil and gas drilling lease proceeds a 
source for LWCF and in 1977 increased the amount of funds available to 
$900 million per year.
    Over the past decade, the majority of LWCF funds have been diverted 
to programs unrelated to the traditional LWCF uses such as land 
protection and recreation. While LWCF funds have been cut severely, the 
need for open space and recreation has soared. Authorized at $900 
million annually, LWCF is one of the most important conservation tools 
ever designed and is critical to the future protection of national 
trails and trail lands.
    The federal program of LWCF funds the purchase of land and water 
areas for conservation and recreation purposes within the Forest 
Service, Fish and Wildlife Service, National Park Service, and Bureau 
of Land Management. During the last forty years, the Land and Water 
Conservation Fund has protected some of America's most recognized and 
treasured national parks, wilderness, trails, forests, and refuges. 
Federal LWCF projects have protected lands and resources endeared by 
hikers including: Acadia National Park; Grand Canyon National Park; the 
Appalachian, Pacific Crest, Florida, Ice Age, and Continental Divide 
National Scenic Trails; Rocky Mountain National Park; King Range 
National Conservation Area; Great Smoky Mountains National Park; Denali 
National Park; Green Mountain National Forest; Gallatin National 
Forest; and many others.
    Federal land agencies obtain LWCF monies only after completing an 
in-depth prioritization process and receiving specific appropriations 
approved by Congress. After taking into account a variety of factors--
including cost, threat/probability of development, local support, 
whether the project meets a public need, and federal management agency 
objectives, among other criteria--the agencies develop lists of 
prioritized needs for LWCF projects. These lists are then reviewed and 
approved or rejected by the Office of Management and Budget, after 
which they are included or excluded from the President's budget.

                   LWCF & THE NATIONAL TRAILS SYSTEM

    Hikers, other recreationists, and all Americans benefit from our 
twenty-three national scenic and historic trails, but only one--the 
Appalachian National Scenic Trail--is fully open for public use from 
end-to-end. For most of these trails, barely half of their 
congressionally authorized length and resources are protected and 
available for public use. Land acquisition through the LWCF is an 
essential means for protecting the resources and continuity that form 
the basis for these trails.
    The NPS, Forest Service, and BLM play an essential role in 
protecting resources and rights-of-way critical to the integrity and 
continuity of these trails. Federal acquisition through LWCF is one of 
many land protection tools, but it is a critical and proven one. The 
federal government complements land acquisition through a number of 
alternative land protection mechanisms including conservation 
easements, private stewardship grants, challenge cost-share programs, 
and other types of partnerships.
    Land managers purchase land to protect the national trails only as 
opportunities arise and as Congress appropriates the necessary funds. 
If Congress doesn't want to fund federal land acquisition, it doesn't 
have to appropriate the funds requested. Congress' intent to provide 
opportunities for outdoor recreation and appreciation and enjoyment of 
natural and historic resources may never be fully achieved along these 
trails without the agencies' ability to purchase land from willing 
sellers through the LWCF. Many landowners have offered to sell their 
land to the federal government to maintain the continuity of a national 
scenic trail. Individual families have voluntarily protected many 
unique and special sites along the scenic and historic trails for 
several generations.
    Acquisition through the LWCF enables the federal agencies to carry 
out their responsibilities under the National Trails System Act (NTSA) 
to protect nationally significant components of our nation's cultural, 
natural, and recreational heritage and to provide public access to and 
travel within them. Appropriations from the LWCF enable the federal 
agencies to respond to conservation opportunities presented by willing 
landowners. For most national scenic trails, the need to acquire land 
is acute and requires prompt action in order to save irreplaceable and 
invaluable resources and experiences.
    Ultimate control over how much land may be purchased for the 
national trails remains with Congress through the annual appropriation 
process. Acquisitions are also controlled by the limited funding 
available for acquisitions combined with the linear nature of these 
trails. However, if the administering agency can only protect a segment 
of trail corridor by acquiring a whole parcel larger than needed for 
the corridor, the NTSA allows agencies to exchange or dispose of land 
acquired as part of a whole tract that falls outside the area of trail 
acquisition. The federal land management agencies are needed as 
partners to add their staff and acquisition dollars to the efforts of 
state/local agencies and private organizations to protect the rights-
of-way that will enable these trails to become the continuous footpaths 
Congress intended.
    The trails and trail lands protected through the LWCF represent one 
of our nation's most valuable assets, bringing individuals and families 
outside for recreation, inspiration, and education, and providing 
healthy physical activities, alternatives for transportation, and 
protection for natural and cultural resources. Hiking is one of the 
nation's most popular outdoor activities--73 million Americans hike 
regularly or occasionally (Outdoor Industry Association Participation 
Study 2002). By increasing physical activity, trail use such as 
walking/hiking reduces the risk of life-threatening diseases such as 
heart disease, diabetes, and cancer and combats one of the leading 
causes of preventable death today: obesity. Our parks, forests, and 
trails serve as outdoor classrooms for natural and cultural history in 
addition to outdoor recreation areas. Trails also provide economic 
vitality to communities, increasing property values and enhancing 
regional tourism. Nationally, sales of outdoor gear, clothing, 
footwear, and other accessories amount to more than $18 billion per 
year.

                               CONCLUSION

    American Hiking Society supports the conservation and recreation 
funding programs included in S. 2590; however, we strongly urge the 
Committee to amend the Americans Outdoors Act to include full funding 
of $450 million for the federal side of the Land and Water Conservation 
Fund, a cornerstone program that protects trails and trail lands for 
the benefit of the nation and future generations of hikers.
    American Hiking Society and its members and member clubs do their 
part every year to help maintain our nation's outstanding network of 
trails, contributing tens of thousands of volunteer hours worth 
millions in labor along with direct financial contributions. These 
efforts complement federal and state agency responsibilities to protect 
our natural, cultural, and recreational heritage and to provide public 
access to and travel within them. These responsibilities are not 
achievable without consistent, dedicated funding to both the stateside 
and federal sides of the Land and Water Conservation Fund, a visionary, 
proven program that provides essential conservation, recreation, 
economic, public access, and public health benefits to the nation.
    Thank you for your consideration.

                                 ______
                                 
       Statement of the National Recreation and Park Association

    Mr. Chairman and Members of the Committee, pending before you is a 
bill that challenges the Committee on Energy and Natural Resources, the 
Senate and others to consider the national imperative for public 
recreation access and resource stewardship. This is not exclusively an 
issue of conservation and investment in federal lands most often 
discussed by the committee. Rather, it is an issue fully 
intergovernmental in nature. Public recreation and stewardship 
responsibilities are shared by state governments, where state park 
systems include over 6,000 sites and host over 750,000,000 visits 
annually, and with more than 5,000 `local' public park and recreation 
entities that plan, finance, design, and manage over 80,000 sites. Our 
best estimate suggests that collectively local public park and 
recreation places--from large regional parks to community recreation 
centers--likely host 2.5-3.0 billion visits annually. In reality, the 
American people seek a continuum of recreation destinations and 
experiences.
    Public investments in capital projects are most efficient when 
funds are sufficient to address specific public needs and are 
reasonably predictable. Despite exceptional work by members of this 
Committee and many other legislators, neither LWCF nor the Urban Park 
and Recreation Recovery Program, have, over time, had the benefit of 
sufficient, predictable funds. Accordingly, we urge the Committee to 
continue active consideration of S. 2590, to amend it as necessary, and 
to favorably report it to the Senate. NRPA will in the near future 
recommend specific areas where, in its judgment, S. 2590 should be 
strengthened.
    The National Recreation and Park Association is a 501(c)(3) 
organization. Among many activities, it is an advocate for progressive 
national policy and actions that support public recreation and park 
systems and services. Its membership consists of public executives, 
managers, elected and appointed citizen policy makers, and citizen 
advocates associated with the creation and public use of recreation and 
park places and public services. Our 23,000 members are associated with 
public park and recreation agencies at all levels, water and other 
conservation authorities, research, undergraduate and graduate 
education, continuing education and training, recreation services and 
site adaptations for persons with disabilities, and recreation for 
members of the Armed Forces and their dependents. Our trustees include 
representatives of this ``community.'' They are also representative of 
large and small businesses, foundations, and other private interests.
    Our earliest institutional roots reach to the creation in 1898 of 
the New England Association of Park Superintendents, to a merger in 
1965 of five associated groups. Prior to 1965, most of these groups 
participated in the work of the congressionally authorized Outdoor 
Recreation Resources Review Commission. They separately testified in 
support of the creation of the Land and Water Conservation Fund. NRPA 
was the principal national not-for-profit advocate for the creation in 
1978 of the Urban Park and Recreation Recovery Act. The urban park 
restoration program is the only element of then-President Jimmy 
Carter's urban initiative that the Congress enacted into law.

                   THE RECREATION AND PARK IMPERATIVE

    Today, the imperative for investing in public recreation resources 
is, in our view, at least as great and arguably greater than were 
circumstances in 1964 and 1978, respectively, when the U.S. Congress 
enacted the Land and Water Conservation Fund Act and the Urban Park and 
Recreation Recovery Act. Why?
    Population Growth: One answer lies in observations of U.S. Senator 
Bill Frist (R.-Tenn.) as recent as July 12 in remarks at the National 
Press Club. By 2014, just short 10 years from now, Senator Frist 
observed, the U.S. population will approach or exceed 320 million 
people. Twenty-five percent of us will be over 65, and the fastest 
growing segment of our population will continue to be over 85. This 
will result, and is resulting, in two scenarios of critical importance: 
First, more people will result in increased demand for public 
recreation destinations, space, and services, in all likelihood close 
to where they live. Second, the availability of the most geographically 
critical space for public recreation and conservation, again, mostly 
close to home will be greatly diminished. Also, the purchase power of 
the presently authorized OCS revenue credited to the U.S. Treasury--
$900 million annually (and amounts available for the restoration of 
urban parks in distressed places)--will be greatly diminished.
    Population Diversity: The national population will be increasingly 
diverse. The growth rate of minority populations--37 percent of total 
population--will be twice the rate of the general population by 2014. 
New immigrants are settling in large cities and small communities. This 
scenario brings significant social and economic change, and impacts the 
types and location of recreation demand, among other factors. A high 
percentage of this population will depend on public recreation 
resources and services.
    Healthy People and Health Care Costs: The Land and Water 
Conservation Fund Act contains a single policy objective: To improve 
individual and public health through access to a network of recreation 
resources. There is an increasing abundance of medical science and 
practice that supports this objective. Increasingly, a physically 
active life-style through recreation is a viable strategy for disease 
prevention and health promotion for many people. Access to this 
information and interpreting it is recognized by health professionals, 
policy-makers, and health-focused organizations. This spring, for 
example, 26 groups, including NRPA, urged House and Senate 
appropriators to recognize the health outcomes of active recreation by 
appropriating more adequate funds for LWCF and urban park-aided 
investments. Advocates for Health, Public Parks, and Recreation, 
include the American Heart Association, Center for Science in the 
Public Interest, State Directors of Health Promotion and Education, 
Amputee Coalition of America, Institute for Cancer Prevention, 
Association of State and Territorial Public Health Nutrition Directors, 
and Physicians Committee for Responsible Medicine, among others.
    Health and health care costs will ``pretty much determine'' whether 
or not (American) companies will compete successfully in the global 
market place, Sen. Frist observed. The administration's announcement on 
July 16 that certain types of obesity will be considered an illness and 
thus eligible for Medicare, could dramatically change public health 
care costs and estimates. Active recreation will not be a panacea, but 
it must be considered as an element of a healthy lifestyle.
    Revelations in the Journal of the American Medical Association 
(March 10, 2004) on the increasing rate of mortality attributable to 
physical inactivity and poor diet increase the imperative to invest in 
public park and recreation facilities that encourage active lifestyles. 
The 400,000 deaths annually due to physical inactivity and poor diet is 
the ``largest increase among all causes of death,'' the report 
observes. Also, Kenneth H. Cooper, M.D., M.P.H. recently noted, 
``(Today) our kids are fatter and less fit than they have been in the 
history of this country.'' (Statement to National Governors' 
Association, Winter Meeting, Feb. 22, 2004). Idaho governor and 
National Governors Association president Dirk Kempthorne on July 17 
announced an NGA policy initiative that will anticipate state health 
care strategies and costs of a soon-to-retire `Baby Boom' generation. 
These individuals, most with reduced incomes, are expected to place 
enormous demands on local and state park systems, and recreation-
accessible federal resources.
    A report by the National Center for Chronic Disease Prevention and 
Health Promotion reinforces the recommendations of health-recreation 
community. The Center observed, ``(C)haracteristics of our communities 
such as the accessibility and location of parks, trails, sidewalks and 
recreation centers... may play an even greater (than social 
environments) role in promoting or discouraging an individual or 
family's level of physical activity.''
    More sufficient congressional support for increased public access 
through recreation development and resource conservation holds high 
potential for at least stabilizing some types of health costs over the 
long term. For example, the four diseases that may be prevented by 
appropriately active lifestyles, including active recreation--heart 
disease, cancer, stroke, and diabetes--are life-threatening and costly 
to treat. The Centers for Disease Control and Prevention has observed 
that if physically inactive people were to become sufficiently active, 
the nation could potentially reduce health care costs by over $75 
billion a year. Active recreation also can promote mental health by 
reducing anxiety and depression. Youth, especially, can benefit from 
active recreation. About 15 percent of all children are obese, a 
condition that increases the risk of high blood cholesterol, high blood 
pressure, and diabetes. By being physically active on a regular basis, 
often at public park and recreation sites, youth may be able to avoid 
or delay health problems associated with obesity and related 
conditions. With sufficient predictable funds thousands of public park 
and recreation facilities in American communities will be created, 
restored, and expanded, thus offering greater opportunity for active 
lifestyles.

                        CAPITAL INVESTMENT NEEDS

    Since 1990, the National Recreation and Park Association has 
undertaken three national surveys at 5-year intervals to objectively 
estimate local public recreation and park investment needs. In January 
2000 NRPA surveyed 500 local park and recreation agencies, selected 
randomly from 5,050 agencies nationwide to determine the needs, 
priorities, and probable funding sources for capital investment during 
fiscal years 2000 through 2004. Estimates of total local needs for the 
five-year period were developed. We are scheduled to initiate a 2005-
2009 needs survey later this year.
    The NRPA research on 2000-2004 indicated that local park and 
recreation agencies need to invest, from all sources, an estimated $55 
billion for rehabilitation, land conservation, and construction of 
facilities. Localities expected to have less than one-half that sum 
available. The total estimated need is twice the amount, $27.7 billion, 
projected for the 1995-1999 period. It must be noted that this survey 
occurred prior to Sept. 11, 2001 and a major decline in the value of 
personal, corporate, foundation and other stocks.
    Nonetheless, the capital investment priorities for FY2000-2004 are 
instructive. They emphasize the need to expand the capacity of public 
recreation systems generally, and enhance access--46.2% of local 
agencies ranked this as the greatest priority. Over 36% of the agencies 
ranked eliminating and/or reducing specific recreation deficiencies as 
the highest priority. Conserving specific natural resource features, 
and shaping and controlling the direction of land use change were 
ranked as the top priority by 20.2% and 9.2% of local agencies, 
respectively.
    In terms of fiscal need, the development of new recreation 
infrastructure ranked highest, with a total need of $25.5 billion 
(46.3%) nationwide. For those agencies expressing such needs, the 
averages need per agency was $5.6 million, up from $3 million for the 
previous five-year period. Rehabilitation and restoration needs of 
lands and facilities nationwide totaled $13.8 billion (25.2%). These 
needs are not for ``maintenance,'' but reflect major costs for resource 
renovation to correct deficiencies due to age or wear, outdated design, 
accessibility for persons with disabilities, and to increase user 
capacity of existing lands and facilities. For those agencies 
expressing a need for rehabilitation, the average need per agency was 
$3 million, up from $2.2 million in the previous survey.
    Land acquisition needs including both fee simple purchase and less 
than fee approaches totaled $16 billion (28.5%). For those agencies 
expressing the need for investment in land acquisition, the average 
cost per agency was $3.4 million, up from $2.4 million estimated 
previously. The average amount of additional recreational space rose 
from 214 to 349 acres per local system. Local governments anticipated 
that about six percent of capital needs (almost $1.8 billion) would 
come from federal sources.

                 LWCF DEDICATED VERSUS AVAILABLE FUNDS

    Access to and investment of OCS revenues allocated to the Land and 
Water Conservation Fund have varied greatly. Appropriations have always 
been less than the $900 million authorized to be annually credited to 
the Fund, or requested by all governments. During the last 20 years 
(FY1985-FY2004), for example, revenues from Outer Continental Shelf 
activities credited to the Land and Water Conservation Fund U.S. 
Treasury account total about $17.4 billion (Minerals Management 
Service, Minerals Revenue Management, 1982-2003). During the same 
period, actual LWCF appropriations--federal and state--totaled about 
$7.8 billion. Appropriations for assistance to states and local 
governments during this period totaled $876 million. Of this amount, 
about $551 million was appropriated during the period 2000-2004. This 
followed four consecutive years of zero funds for grants. Assuming an 
equal distribution ($450 million each) for federal and state/local 
projects at full dedicated funding ($900 million), state assistance and 
federal investments, would each total $2.7 billion over the six-year 
life of S. 2590.
    The table below reflects the variability in LWCF appropriations for 
state assistance.

     APPROPRIATIONS FOR LAND AND WATER CONSERVATION FUND STATE/LOCAL
                               ASSISTANCE
             [Five-Year Periods from Fiscal Years 1965-2004]
------------------------------------------------------------------------
                     Period                            $ in Millions
------------------------------------------------------------------------
1965-1969.......................................          256
1970-1974.......................................          750
1975-1979.......................................            1.250
1980-1984.......................................          657
1985-1989.......................................          184
1990-1994.......................................          116
1995-1999 (1 year)..............................           25
2000-2004.......................................          551
                                                 -----------------------
    Total.......................................            3.7 Billion
                                                 =======================
------------------------------------------------------------------------

    Through FY 2004 the LWCF state assistance program has made 
available over $3.7 billion to be apportioned to the 50 states, the 
District of Columbia, Puerto Rico, Guam, the Virgin Islands, American 
Samoa, and the Northern Mariana Islands for planning (states only), 
acquisition and development of recreation resources. Through fiscal 
year 2003, nearly 40,000 projects have been approved to support 
acquisition or other forms of conservation and development of 
recreation facilities and infrastructure necessary for public access 
and recreation use. State and local LWCF fiscal partnerships occur in 
almost every county and a high percentage of small and large localities 
nationwide. LWCF appropriations for state and local projects have been 
equally matched by state and local contributions for a total LWCF grant 
investment in excess of $7 billion.
    Of the total number of grant projects, over 10,000 have helped 
states and localities conserve about 2.55 million acres of land. Over 
27,000 projects have aided development or redevelopment of recreation 
sites. Through FY 2003 over sixty-five percent of the total obligated 
funds have gone to locally sponsored projects to provide accessible 
``close-to-home'' * recreation.
---------------------------------------------------------------------------
    * `Close to home'--Within 15 minutes from home by foot or bicycle, 
or 10 miles from home by car or public transit. Witnesses appearing at 
most of the hearings of the Presidents Commission on Americans Outdoors 
(1985-1986) repeatedly stressed that public recreation investments 
should occur `close to home.' PCAO staff reviewed a number of 
transportation `origin--destination' studies and public recreation and 
park plans and practices. While perhaps imprecise at that time, it was 
a best estimate of where investments were of high importance. 
Presently, the security of children and other factors and conditions 
suggest that `closer to home' may be preferred, especially for young 
people.
---------------------------------------------------------------------------
                         DISTRIBUTION OF FUNDS

    Since FY1965, LWCF state assistance funds have been invested as 
follows:

Project Sponsor...................................................
    State resource agencies, including park, forest, public land 
      and wildlife, among others:.................................   38%
    Local governments, including municipalities, towns, townships, 
      park districts other than counties:.........................   49%
    County governments:...........................................   13%

Project Type......................................................
    Land conservation:............................................   33%
    Development for public access and use:........................   62%
    Planning (states only):.......................................    2%
    Combination--land conservation and development:...............    3%

Source: National Park Service

                     CONTEMPORARY AND FUTURE NEEDS

    Requests for Fiscal Partnerships: Recent requests for both Land and 
Water Conservation Fund and Urban Park and Recreation Recovery Program 
assistance bring perspective to macro-scale need estimates. Specific 
plans, projects and processes begin to define the nature of present and 
continuing work to be done. In North Dakota, for example, less than 
one-half of projects submitted to the state LWCF liaison officer for 
fiscal years 2002, 2003, and 2004 were funded. Unfunded local 
government projects totaled $4.57 million. All requests came from 
communities of less than 15,000 and counties. Relative to LWCF-eligible 
projects, ``For the past several years, the funds requested in those 
applications have far exceeded our (federal) allocation,'' according to 
a state official.
    The Town Council of Brunswick, Maine recently adopted a $5,045,700 
5-year capital improvement program principally for public recreation 
and park resources. Many projects would be eligible for Land and Water 
Conservation Fund assistance. Brunswick's present system of trails and 
parks are central elements of a more livable, healthy community.
    The Murfreesboro, Tenn. Parks and Recreation Department anticipates 
capital investment needs of $15.8 million for Fiscal Years 2003-2008. 
All projects would be either LWCF or UPARR-eligible. Siegel Park at 
Regency Park Dr. illustrates the imperative for investment. This multi-
feature park will serve a 370-unit public housing project in an 
economically distressed area. Park design responds to identified 
needs--a `community gathering place,' girls softball, basketball, 
multi-purpose sports fields, tennis, and parking,'' according to the 
agency director.
    A private consulting group advised NRPA in 2002 that the firm had 
at least 23 local government clients with identified recreation 
facility needs. Needs were determined by assessments and feasibility 
studies. Clients included Juneau, Alaska, population 30,711; Fort 
Bragg, California, 7026; Windsor, Colorado, 12,000; Greenfield, 
Indiana, 14,600; Lehi, Utah, 19,000; and Camas, Washington, 11,534, 
among others. While the private firm's specific clients continue to 
evolve, these and other clients indicate that the need for recreation 
investment across every population category. Planning, finance, 
architecture/engineering, construction, landscaping, and, ultimately, 
facility operations and recreation services, result in an array of jobs 
and payrolls--and ultimately more livable, economically viable 
communities.
    Portland, Oregon park and recreation officials, citing the city's 
Parks 2020 Vision Plan (2001) anticipates 1870 additional acres of 
public parkland, including 620 acres of protected habitat; 100 new 
sports fields; 150 additional miles of trails, and completion of the 
40-mile loop trail. Many swimming pools, some built in the 1920's, are 
still in use but need repair.

                                SUMMARY

    Local and state park systems are critical to the health of the 
American people and others who work and reside among us. With 
sufficient funds, more recreation resources could become accessible. 
These resources address diverse public interests and our collective 
need for quality recreation and associated services for children of 
working parents. Local agencies in particular host programs that serve 
millions of nutritious breakfasts, lunches, snacks, and suppers to 
needy children. Public recreation and park sites and services help 
reduce crime and delinquency, especially during non-school hours, days 
and seasons. Public recreation and park managers recognize that at any 
given time perhaps 50 million people have a physical disability: They 
attempt to accommodate their needs for recreation.
    State and local park agencies contribute importantly to plant and 
wildlife diversity. Hundreds of local systems contain more than 5,000 
acres, with many systems in excess of 15,000 acres. An estimated 80 to 
85 percent of larger systems are typically undeveloped, thus 
contributing to an array of conservation and environmental outcomes. 
Most systems also provide opportunities to create public awareness of 
environmental conditions and convey messages about stewardship.
    The National Recreation and Park Association appreciates the 
opportunity to submit this statement. NRPA public policy director, 
Barry Tindall (202-887-0290), is available to discuss issues raised in 
this statement or to respond to questions.


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
